No. ____
IN THE
_________
CHARMELL BROWN,
Petitioner,
v.
ALEX JONES,
Respondent.
________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit
________
PETITION FOR A WRIT OF CERTIORARI
________
Ishan K. Bhabha
Counsel of Record
Jason T. Perkins
JENNER & BLOCK LLP
1099 New York Avenue, NW
Suite 900
Washington, DC 20001
(202) 639-6000
ibhabha@jenner.com

`

i
QUESTION PRESENTED
The Court’s Batson v. Kentucky framework
“is designed to produce actual answers to suspicions and
inferences that discrimination may have infected the
jury selection process” by motivating a prosecutor’s
peremptory strike. Johnson v. California, 545 U.S. 162,
172 (2005) (explaining Batson, 476 U.S. 79, 97-98 (1986)).
The Batson framework involves three steps: once a
criminal defendant “has made out a prima facie case of
racial discrimination (step one), the burden of production
shifts to the proponent of the strike [i.e. the prosecution]
to come forward with a race-neutral explanation
(step two).” Purkett v. Elem, 514 U.S. 765, 767 (1995)
(per curiam). The prosecutor’s explanation can be
“implausible or fantastic,” or “silly or superstitious,” as
long as it is facially race-neutral. Id. at 767-68. “If a raceneutral explanation is tendered, the trial court must
then decide (step three) whether the [defendant] has
proved purposeful racial discrimination.” Id. at 767. “At
that stage, implausible or fantastic justifications may
(and probably will) be found to be pretexts for
purposeful discrimination.” Id. at 768.
The question presented is:
Whether, at Batson’s first step and in the absence of
any explanation from the prosecutor, a court may rely on
factors apparent in the record to explain a prosecutor’s
seemingly discriminatory peremptory strike.

`

ii
RELATED PROCEEDINGS
This case arises from and is related to the following
proceedings in the State of Illinois, the United States
District Court for the Central District of Illinois, and the
United States Court of Appeals for the Seventh Circuit:

`



People v. Brown, No. 4-10-0409, 2011 WL
10481896 (Ill. App. June 10, 2011) (affirming
conviction on direct review and denying
Batson v. Kentucky claim), which is
reproduced in the attached appendix at
Pet.App. 49a-86a.



People v. Brown, No. 4-13-0412, 2015 IL App
(4th) 130412-U (Ill. App. May 15, 2015)
(affirming denial of post-conviction petition
that raised other issues not related to the
Batson claim).



Brown v. Lawrence, No. 2:17-cv-02212, 2019
WL 11815324 (C.D. Ill. Oct. 8, 2019) (denying
petition for a writ of habeas corpus, but
granting certificate of appealability regarding
Batson claim), which is reproduced in the
attached appendix at Pet.App. 13a-48a.



Brown v. Jones, 978 F.3d 1029 (7th Cir. 2020)
(affirming dismissal of habeas petition
regarding Batson claim), which is reproduced
in the attached appendix at Pet.App. 1a-12a.
The electronic versions of that opinion have
been updated to reflect the amendment made
to the background section on denial of

iii
rehearing and rehearing en banc. See 2020
WL 6154211 and 2020 U.S. App. LEXIS
33226.


`

Brown v. Jones, No. 19-3172, (7th Cir. Nov. 17,
2020) (order denying rehearing and rehearing
en banc and correcting factual error in
opinion), which is reproduced in the attached
appendix at Pet.App. 87a-88a. This order is
available electronically at 2020 U.S. App.
LEXIS 36028.

iv
TABLE OF CONTENTS
QUESTION PRESENTED ...............................................i
RELATED PROCEEDINGS.......................................... ii
TABLE OF APPENDICES ........................................... vi
TABLE OF AUTHORITIES ........................................ vii
PETITION FOR A WRIT OF CERTIORARI ............. 1
OPINIONS BELOW .......................................................... 1
JURISDICTION ................................................................. 1
RELEVANT CONSTITUTIONAL PROVISION ....... 1
INTRODUCTION .............................................................. 2
STATEMENT OF THE CASE ........................................ 5
A.

State Court Proceedings ............................... 5
1. The Incident at the American Legion
and Pre-Trial Proceedings ...................... 5
2. Jury Selection and the Initial Batson
Challenge ................................................... 6
3. Renewed Batson Challenge After
Trial .......................................................... 12
4. State Court Appeal and Collateral
Review ..................................................... 14

B.

`

Federal Proceedings .................................... 16

v
1. District Court Decision.......................... 16
2. Seventh Circuit Decision Below........... 16
REASONS FOR GRANTING THE PETITION........ 19
I.

THERE IS A SPLIT OF AUTHORITY ON
THE QUESTION PRESENTED ......................... 19
A.

In the Ninth and Third Circuits, Judicial
Speculation Does Not Satisfy Batson ....... 19
1. Johnson Adopted the Ninth Circuit’s
Approach.................................................. 19
2. Post-Johnson
Ninth
Circuit
Decisions Continue to Reject Judicial
Speculation .............................................. 20

B.

In the Seventh Circuit, First Circuit,
and in California, Judicial Speculation
Satisfies Batson ............................................ 23
1. The Seventh Circuit and First Circuit
Credit ‘Apparent’ Reasons.................... 23
2. California, in Conflict with Its
Regional Circuit, Routinely Credits
‘Apparent’ Reasons at Batson’s First
Step ........................................................... 26

C.
II.

`

Only This Court Can Resolve the
Conflict ........................................................... 30

THIS CASE PRESENTS AN IDEAL
VEHICLE
FOR
RESOLVING
THE
QUESTION PRESENTED ................................... 31

vi
III. THE DECISION BELOW IS WRONG .............. 33
CONCLUSION ................................................................. 38
TABLE OF APPENDICES
Appendix A: Brown v. Jones, No. 19-3172,
Opinion of the United States Court of
Appeals for the Seventh Circuit
(Oct. 21, 2020) ................................................ 1a–12a
Appendix B: Brown v. Lawrence, No. 2:17-cv02212, Opinion (C.D. Ill. Oct. 8, 2019) ....... 13a-48a
Appendix C: People v. Brown, No. 4-10-0409,
Order (Ill. App. June 10, 2011)................... 49a-86a
Appendix D: Brown v. Jones, No. 19-3172, Order
of the United States Court of Appeals for
the Seventh Circuit denying rehearing and
rehearing en banc and correcting factual
error in opinion (Nov. 17, 2020) ................. 87a-88a
Appendix E: People v. Brown, No. 2008-CF-32
Reports of Proceedings Jury Trial before
the Hon. Thomas J. Difanis (Champaign
Cnty., Ill.) (Dec. 7-9, 2009; C.D. Ill. Dkt. 2216) Excerpts ............................................... 89a-147a
Appendix E: People v. Brown, No. 2008-CF-32
Reports of Proceedings Jury Trial before
the Hon. Thomas J. Difanis (Champaign
Cnty., Ill.) (Feb. 8, 2010; C.D. Ill. Dkt. 244) Excerpts ............................................... 148a-150a

`

vii
TABLE OF AUTHORITIES
Page(s)
Cases
Aspen v. Bissonnette,
480 F.3d 571 (1st Cir. 2007) ..................................... 26
Batson v. Kentucky,
476 U.S. 79 (1986)...................................... 2, 23, 34, 35
Currie v. McDowell,
825 F.3d 603 (9th Cir. 2016)......................... 22, 32, 35
Franklin v. Sims,
538 F.3d 661 (7th Cir. 2008)................... 24, 25, 34, 35
Gonzalez v. Brown,
585 F.3d 1202 (9th Cir. 2009)................................... 21
Hardcastle v. Horn,
368 F.3d 246 (3d Cir. 2004) ...................................... 23
Johnson v. California,
545 U.S. 162 (2005)........................ 3, 20, 30, 33, 34, 36
Johnson v. Finn,
665 F.3d 1063 (9th Cir. 2011)....................... 21, 22, 24
Lightfoot v. Commonwealth,
653 S.E.2d 615 (Va. App. 2007) ............................... 28
Miller-El v. Dretke,
545 U.S. 231 (2005).......................................... 4, 20, 34

`

viii
Paulino v. Castro,
371 F.3d 1083 (9th Cir. 2004)................... 3, 19, 20, 35
People v. Cunningham,
352 P.3d 318 (Cal. 2015) ........................................... 27
People v. Davis,
233 Ill. 2d 244 (2009) ................................................. 15
People v. Harris,
306 P.3d 1195 (Cal. 2013) ................................... 27, 29
People v. Johnson,
30 Cal. 4th 1302 (2003).............................................. 20
People v. Johnson,
No. C036080, 2002 WL 31430524 (Cal. App.
Oct. 31, 2002) ............................................................. 21
People v. Parker,
395 P.3d 208 (Cal. 2017) ........................................... 27
People v. Pearson,
297 P.3d 793 (Cal. 2013) ..................................... 27, 28
People v. Reed,
416 P.3d 68 (Cal. 2018) ............................................. 27
People v. Rhoades,
453 P.3d 89 (Cal. 2019) ................................. 27, 29, 30
People v. Sánchez,
375 P.3d 812 (Cal. 2016) ........................................... 27
People v. Scott,
349 P.3d 1028 (Cal. 2015) ............................. 27, 28, 29

`

ix
People v. Woodruff,
421 P.3d 588 (Cal. 2018) ..................................... 27, 28
People v. Zaragoza,
374 P.3d 344 (Cal. 2016) ........................................... 27
Perry v. Leeke,
488 U.S. 272 (1989).................................................... 30
Riley v. Taylor,
277 F.3d 261 (3d Cir. 2001) ...................................... 35
Sanchez v. Roden,
753 F.3d 279 (1st Cir. 2014) ............................... 25, 26
Snyder v. Louisiana,
552 U.S. 472 (2008)...................................................... 2
State v. Williams,
199 So. 3d 1222 (La. App. 2016) .............................. 28
United States v. Stephens,
421 F.3d 503 (7th Cir. 2005)....... 23, 24, 28, 34, 35, 36
Wheat v. United States,
486 U.S. 153 (1988).................................................... 30
Williams v. Runnels,
432 F.3d 1102 (9th Cir. 2006)....................... 21, 22, 24
Wood v. Milyard,
566 U.S. 463 (2012).................................................... 16
Constitutional Provision
U.S. Const. amend. XIV .................................................. 1

`

x
Statutes
28 U.S.C. § 1254(1) ............................................................ 1
28 U.S.C. § 2254 .............................................................. 16
Other Authorities
David Diez et al., OpenIntro Statistics (4th ed.
2019).............................................................................. 7
Social Science Statistics, Chi-Square
Calculator for Goodness of Fit (last
accessed Apr. 7, 2021) ................................................ 7
U.S. Census Bureau, Citizen Voting Age
Population by Race and Ethnicity–2010,
CVAP 2006-2010 5 Year ACS Data (CSV
Format County File) (Feb. 24, 2020) ....................... 6

`

PETITION FOR A WRIT OF CERTIORARI
Petitioner Charmell Brown respectfully petitions for
a writ of certiorari to review the judgment of the United
States Court of Appeals for the Seventh Circuit.
OPINIONS BELOW
The Seventh Circuit’s opinion as amended on denial
of rehearing is reported at 978 F.3d 1029 (7th Cir. 2020).
The district court’s opinion denying habeas relief was
not reported but is available electronically and from the
Central District of Illinois, No. 2:17-cv-02212, 2019 WL
11815324 (C.D. Ill. Oct. 8, 2019), ECF No. 28.
Pet.App. 13a-48a.
JURISDICTION
The Seventh Circuit issued its decision on October
21, 2020 and denied a timely petition for rehearing and
rehearing en banc on November 17, 2020, while also
amending its opinion. Pet.App. 1a-12a (opinion); see also
Pet.App. 87a-88a (order on rehearing). On March 19,
2020, the Court extended the deadline to file any petition
for a writ of certiorari due on or after that date to
150 days. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
RELEVANT CONSTITUTIONAL PROVISION
The Fourteenth Amendment provides in relevant
part: “[N]or shall any State deprive any person of life,
liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal
protection of the laws.” U.S. Const. amend. XIV, § 1.

2
INTRODUCTION
In the American criminal justice system, parties are
typically permitted to strike potential jurors from
service without providing a reason. Peremptory strikes
can be used “‘for any reason at all, as long as that reason
is related to’ … the case to be tried.” Batson v.
Kentucky, 476 U.S. 79, 89 (1986) (citation omitted).
Only when it appears that there may be a violation of
“equal protection through the State’s use of peremptory
challenges to exclude members of” a protected class
(Batson step one) will the prosecutor be required as a
matter of federal law to state a reason for exercising a
peremptory challenge (step two) and have that reason
scrutinized by the court (step three). Id. at 82, 97-98.
This analysis must be done juror-by-juror, and at the
third step, reason-by-reason. Snyder v. Louisiana, 552
U.S. 472, 478 (2008) (“[T]he Constitution forbids striking
even a single prospective juror for a discriminatory
purpose.”) (citation omitted).
This case concerns a clear circuit split and statecircuit split that exists regarding the application of
Batson’s three-step analysis. In the Seventh Circuit,
First Circuit, and in the California courts, a trial court
may deny a Batson challenge at step one and excuse the
prosecutor from supplying their actual race-neutral
reason for the strike if the court finds that the record
suggests a potential race-neutral reason the prosecutor
may have had. In the Ninth and Third Circuits, a trial
court at step one may not rely on factors apparent in the
record to explain a seemingly discriminatory
peremptory strike—the Batson analysis must continue
and the prosecutor herself must provide an explanation.

`

3
Specifically in the Ninth Circuit, “it does not matter
that the prosecutor might have had good reasons to
strike the prospective jurors. What matters is the real
reason they were stricken” and whether that reason was
the prospective juror’s race or gender. Paulino v.
Castro, 371 F.3d 1083, 1089-90 (9th Cir. 2004). Because
that statement was relied upon by this Court in Johnson
v. California, 545 U.S. 162, 172 (2005) (quoting Paulino,
371 F.3d at 1090); see also id. (directing courts to avoid
“engaging in needless and imperfect speculation when a
direct answer can be obtained by asking a simple
question”), the Ninth Circuit has continued to apply and
reinforce its rule in subsequent cases, despite the
differing opinions of the Seventh and First Circuits, and
the California Supreme Court. This stark difference in
opinion should be resolved by this Court.
This case is an ideal vehicle for addressing the
question presented and deciding which of these Batson
approaches is correct. Mr. Brown’s case involves a
Batson challenge regarding only one potential juror,
who was immediately excused without any explanation
or indication whatsoever regarding the reasons for the
strike, or even any questions from the prosecutor about
the juror’s voir dire statements.
Applying its rule, the Seventh Circuit hypothesized
that the prosecutor was concerned about one of the
juror’s voir dire answers to an initial screening question
asked by the state trial court. Thus it found that the
Illinois courts applied Batson “correctly.” Pet.App. 2a.
Far from being correct, that result would have been an
unreasonable application of clearly established federal
law had this case arisen in the Ninth Circuit.

`

4
Importantly, no other claim remains in Mr. Brown’s
case, and the decades-old Batson framework is clearly
established here for federal habeas review purposes.
Finally, the Seventh Circuit’s decision is wrong and
perpetuates confusion in the law about the proper
application of the Batson framework. When a group of
potential jurors is assembled for jury selection in a
criminal trial, those individuals bring with them all types
of personal backgrounds, experiences, and ideas.
Indeed, “potential jurors are not products of a set of
cookie cutters,” Miller-El v. Dretke, 545 U.S. 231, 246 n.6
(2005) (‘Miller-El II’)—these individuals reflect the
diversity of the communities they would serve as jurors,
in numerous ways. Properly applied, the Batson
framework requires real answers rather than
speculation when jurors in a protected class are
suspiciously stricken.
But that is not the rule everywhere. If any one of the
idiosyncrasies exhibited by the stricken juror can be
interpreted to negate a suspicion of discrimination at
step one (as is the rule in California), or if the court
believes some compelling alternate explanation should
be conclusively credited instead (as in the Seventh
Circuit), the protection against discrimination in the
jury selection process will depend primarily on the
imagination of the trial judge, rather than the process
set forth in Batson.
The petition for a writ of certiorari should be
granted.

`

5
STATEMENT OF THE CASE
A. State Court Proceedings.
1. The Incident at the American Legion and
Pre-Trial Proceedings.
On the night and early morning of December 29-30,
2007, the American Legion Hall on North Hickory
Street in Champaign, Illinois hosted several boisterous
birthday parties. Dkt. 22-17 at 21-26, 55-57.1 That night
the Legion “had a nightclub-like atmosphere complete
with a dance floor, bar, and disc jockey.” Dkt. 22-8 at 7.
Shortly after midnight, outside in the parking lot,
Mr. Tyrone Greer and two other individuals were shot.2
Mr. Greer did not survive. Pet.App. 17a.
Several days later, Champaign police arrested
petitioner Charmell Brown, Dkt. 24-1 at 265, who
pleaded not guilty to one count of murder and two counts
of aggravated battery with a firearm (one count was
later dismissed). Pet.App. 16a-17a; 88a. After nearly
two years of pre-trial proceedings, the case finally went
to trial in December 2009. Pet.App. 18a. With no murder
weapon, no gunshot residue evidence, and no
fingerprints on the shell casings found at the scene, the
case “boil[ed] down to eyewitness testimony,” and which
side’s eyewitness identifications would persuade the

1

Citations to “Dkt. __” are to the district court docket in this case,
Brown v. Lawrence, No. 2:17-cv-02212 (C.D. Ill.).
2
See Pet.App. 16a-17a.

`

6
jury.

3

2. Jury Selection and the Initial Batson
Challenge.
On the first day of trial, the state trial court
assembled sixty venirepersons for jury selection.4
Although approximately 11.2% of Champaign County’s
voting-age population was African-American,5 only two
members of the venire assembled for Mr. Brown’s case
were African-American.6 Having only two AfricanAmericans out of sixty members of the venire (3.3%),
was an unusually low number given the demographics of
the surrounding community.7

3

See Dkt. 24-1 at 176-77; Dkt. 24-2 at 152-53, 164-75, 194-95; Dkt. 243 at 1, 139.
4
See Dkt. 25-3 at 82; Pet.App. 117a; Dkt. 22-16 at 8-10.
5
U.S. Census Bureau, Citizen Voting Age Population by Race and
Ethnicity–2010, CVAP 2006-2010 5 Year ACS Data (CSV Format
County File, Lines 7854, 7858) (Feb. 24, 2020) (estimating AfricanAmerican citizen voting-age population in 2006-2010 as 16,245 out of
a total voting-age population of 145,190, or 11.18%),
https://www.census.gov/programs-surveys/decennialcensus/about/voting-rights/cvap.2010.html.
6
Pet.App. 117a; 148a-149a; Dkt. 25-3 at 82; Dkt. 22-3 at 38 (State
brief on direct appeal).
7
Assuming that the venire selection procedures fairly represented
the community at-large, such a low percentage of AfricanAmericans should occur in only one out of every twenty cases. For
a venire of sixty people, in a community that is 11.2% AfricanAmerican, randomly-selected venires would include, on average,
6.72 African-American potential jurors, and 53.28 jurors of other
races. With that understanding, an observation of only two AfricanAmericans and fifty-eight jurors of other races (i.e. 4.72 AfricanAmerican jurors fewer than expected) should occur only 5.3% of the

`

7
Based on the record evidence, only one of those two
African-American venirepersons was questioned for
service on the jury: Mr. Devon Ware.8 No AfricanAmericans served on the jury, however, because the
prosecution “immediately” struck Mr. Ware at its very
first opportunity.9
At voir dire, questioning proceeded in panels of four,
with the state trial judge asking more than a dozen
standard screening questions of venirepersons,
supplemented by counsel.10 Mr. Ware was seated in the
first panel of four and only two of his responses to
screening questions prompted a further colloquy with
the bench. The first colloquy pertained to Mr. Ware’s
juror questionnaire responses:
THE COURT: You’ve indicated that you or a
close family member had been the victim of a
crime. Did that have anything to do with a
crime of violence, like we’re dealing with
here?

time. See David Diez et al., OpenIntro Statistics 229-30, 234-35 (4th
ed. 2019) (discussing use of chi-square goodness of fit test in
assessing random sampling of jurors), https://leanpub.com/
openintro-statistics; Social Science Statistics, Chi-Square
Calculator for Goodness of Fit (last accessed Apr. 7, 2021)
(observed values of 2 and 58 in one column and expected values of
6.72 and 53.28 in another column, with one degree of freedom, yields
a test statistic of 3.733 and p-value of .05334), https://
www.socscistatistics.com/tests/goodnessoffit/default2.aspx.
8
See Pet.App. 90a-99a, 117a; 148a-149a.
9
Pet.App. 3a, 9a-11a; 148a-150a.
10
See, e.g., Pet.App. 90a-116a.

`

8
JUROR WARE: That -- it was just DUI’s and
stuff.
THE COURT: Okay. There’s nothing about
that situation that would make it difficult for
you to be fair and impartial in this case. Is that
correct?
JUROR WARE: No.
THE COURT: And as you sit there now, can
you think of any reason why you could not be
fair and impartial?
JUROR WARE: No, I can’t.
Pet.App. 93a.
The second colloquy pertained to the specifics of the
case and a question the defense proposed, see Dkt. 25-2
at 141:
THE COURT: ... The offense is alleged to
have occurred at the American Legion post on
Hickory Street. Are any of you familiar with
that location?
JUROR WARE: Yes.
THREE JURORS:
negative).

(Indicating in the

THE COURT: Mr. Ware, you are?
JUROR WARE: Yes.
THE COURT: And have you had occasion to
visit the Legion on North Hickory?
JUROR WARE:
Not inside.

`

Been on the outside.

9
THE COURT: Is there anything about what
you know from that limited contact, that’s
going to make it difficult for you to be fair and
impartial in this case?
JUROR WARE: No.
THE COURT: The fact that testimony is
going to be presented that this offense
occurred at the Legion, will you base your
decision only on what you see and hear in this
courtroom and not be affected by the fact that
you’ve seen the outside of the place and you’re
familiar with where it is. You’ll base your
decision on what you see and hear in the
courtroom. Is that correct?
JUROR WARE: Yes, sir.
Pet.App. 97a-98a.
The prosecution went first in asking follow-up
questions of the first panel, and the prosecutor asked
multiple follow-up questions covering each juror’s
occupation—a recurring set of questions regarding
occupations, whether the juror knew other jurors or
venirepersons, and additional follow-up questions.
See Pet.App. 102a-109a. Indeed, over the course of jury
selection that day and the next, the same prosecutor
would ask as many as nine,11 fifteen,12 sixteen,13 or even
twenty follow-up questions of potential jurors to probe

11

Pet.App. 113a-115a (Heinrichs).
Pet.App. 119a-122a (Ka. Young).
13
Pet.App. 136a-139a (Kr. Young).
12

`

10
potential sources of bias, going so far in one exchange
as to ask which University of Illinois sports teams a
potential juror worked with on a day-to-day basis.15
That prosecutor exercised only one other peremptory
strike, after asking that potential juror (Mr. Rossman)
eleven questions, including four about his past jury
service.16
14

Regarding Mr. Ware however, the prosecutor
proceeded differently. She declined to ask any questions
at all of the only African-American potential juror
questioned for service, deciding instead to immediately
excuse Mr. Ware without comment. In this instance, she
departed from her typical, exhaustive routine. At the
end of the trial judge’s questioning of Mr. Ware’s panel,
the judge said:
THE COURT: ... Ms. Carlson, I’ll let you
supplement.

14

Pet.App. 109a-113a (Gomez).
See Pet.App. 114a-115a:
MS. CARLSON: ... In your capacity as an employee within the
[University of Illinois] Athletic Department... [i]s there a
particular sport that you focus on? … …What about men’s
basketball?
JUROR HEINRICHS: I do not work with men’s basketball…
MS. CARLSON: What about men’s football?
JUROR HEINRICHS: … I don’t have contact with any of the
ball players.
MS. CARLSON: Okay. Your Honor, may I have one moment?
THE COURT: You may.
MS. CARLSON: Your Honor, we would accept [the second
panel] and tender.
16
Pet.App. 139a-141a, 145a (Rossman).
15

`

11
MS. CARLSON: Thank you, your Honor.
At this time, we would thank but excuse
Mr. Ware.
Pet.App. 99a. No reason was ever given for
Mr. Ware’s excusal.
At the end of the first day of jury selection, defense
counsel mounted a detailed Batson challenge:
THE COURT: ... Mr. Cross, I believe after
Mr. Ware was excused on a peremptory
challenge by the State, you indicated an
objection .... As to your objection, sir.
MR. CROSS: Well Judge, Devon Ware is an
African American male. The Defendant is an
African American male. There are only two
African Americans, both young African
American males, of which the Defendant is a
young African American male, in the entire
venire. Devon Ware was excused without any
questions being asked of him by the State.
Devon Ware, under questioning by the Court,
indicated that he understood the Court’s
statements to the panel, that he could follow
the instructions of the Court regarding issues
that might be before the jury. He was asked
one question by the Court, actually a series of
questions by the Court regarding the
American Legion. Devon Ware appeared to
respond appropriately to all the questions that
were put to him by the Court, regarding his
knowledge of the American Legion….

`

12
Judge, there was nothing of a race neutral
indication that Devon Ware should have been
excused by the State. Particularly where the
panel that is before the Court only has two
young African American males, which the
Defendant is. Because we don’t see any race
neutral reason for excluding Devon Ware,
particularly where the State did not ask him
any questions before excusing him.17
Rather than asking the prosecution for an
explanation, or considering the defense’s prima facie
case in any more detail, the trial judge immediately
overruled the objection without a specific explanation:
THE COURT:
The issue on a Batson
challenge, the first issue is, is there a prima
facie case that a discriminatory practice is
being conducted by the State. And we don’t
get to a race neutral explanation until the
Court has made a determination of a prima
facie case. It’s the Court’s opinion that there
is not a prima facie case, and I am not going to
require the State to provide a race neutral
explanation. So the motion -- the objection is
overruled. And Mr. Ware is, I believe,
properly excused.18
3. Renewed Batson Challenge After Trial.
Again after trial, after the jury had deliberated for
four hours on the eyewitness testimony and returned a
17
18

`

Pet.App. 116a-117a.
Pet.App. 117a-118a.

13
guilty verdict, defense counsel renewed the Batson
challenge, explaining that it was:
19

...a request to have the State present some
justification for exercising a peremptory
challenge against Mr. Ware, who was a young
African-American male…, and the entire
panel of jurors, which consisted of about 60
jurors, included only one other young AfricanAmerican male, or one other AfricanAmerican, period. ... [F]or the State to
exercise their challenge against Mr. Ware,
without asking Mr. Ware a single question, we
feel that that was an intentional, race based
exclusion of Mr. Ware.20
The state trial judge again summarily denied the
Batson challenge without requiring an explanation from
the prosecutor. Pet.App. 150a. However, this time the
trial judge went further regarding his conclusions, and
speculated about what could potentially have been a
race-neutral reason for Mr. Ware’s excusal:
Another issue was basically a Batson
challenge. We had an African-American juror
who, unlike every other juror that was
questioned, not only knew where the Legion
was, but had been there. Now I’m not sure he
had been inside, but had spent time either in
the parking lot, which seemed a bit odd, but all
of the other -- all of the other jurors either
didn’t know where the Legion was, or at least
19
20

`

See Dkt. 24-3 at 241-44.
Pet.App. 148a-149a (emphasis added).

14
knew where it was and that was their only
connection to the Legion. I don’t believe that
a prima facie case was made concerning
discrimination, and that is why the court
denied the Batson challenge.21
The trial court later sentenced Mr. Brown to the
maximum possible term of imprisonment—90 years.22
4. State Court Appeal and Collateral Review.
On appeal in state court, Mr. Brown raised a number
of claims, though all were denied by the Illinois
Appellate Court. Pet.App. 49a-52a; 82a-85a. Regarding
the Batson claim, Mr. Brown renewed all of the same
arguments presented to the trial court,23 however the
Appellate Court seized upon the same hypothetical logic
advanced by the state trial court judge (the only reason
the trial judge had even suggested for his ruling)—that
Mr. Ware had been excused not because of his race but
instead because he had “[b]een on the outside” and “[n]ot
inside” the American Legion. Pet.App. 81a-82a.
Of course, this was not the reason the prosecution
had actually given—no reason had ever been given. But,
relying on a Batson step three precedent, the Appellate
Court found that a mere hypothesis about what
reasonably could have motivated the prosecutor was
enough to divine her intent, find it to be race-neutral,
and affirm the trial court:

21

Id. (italics added).
Dkt. 24-4 at 100, 103; Pet.App. 2a.
23
See Dkt. 22-2 at 45-51; Dkt. 22-4 at 15-16 (citing Johnson, 545 U.S.
at 170).
22

`

15
It is reasonable to expect the prosecution to seek
to excuse any person who had a familiarity with
the scene of the crime. A juror who had been to
the scene before could possibly possess
preconceived ideas related to the location and
layout that the State would prefer to avoid, if
possible. This is especially true when the shooting
took place outside, the only part of the American
Legion with which Ware was familiar. ... The voir
dire questions posed to Ware and his responses
thereto indicated there were significant and
legitimate differences that distinguished him
from other potential jurors, making them a better
choice for the State.24
After the Appellate Court’s ruling, Mr. Brown
unsuccessfully sought review at the Illinois Supreme
Court, and then unsuccessfully pursued state postconviction relief, which was denied by the same trial
judge, again affirmed by the Appellate Court, and not
reviewed by the Illinois Supreme Court.25

24

Pet.App. 81a-82a; see also People v. Davis, 233 Ill. 2d 244, 262
(2009) (prior Illinois Supreme Court case assessing prosecutor’s
actual explanation and concluding “there were significant and
legitimate differences that distinguished Hicks from those jurors,
making them a better choice for the State”).
25
Pet.App. 26a-27a; People v. Brown, 968 N.E.2d 1067 (Ill. 2012);
People v. Brown, 2015 IL App (4th) 130412-U; People v. Brown, 39
N.E.3d 1005 (Ill. 2015) (Table). A successive post-conviction
petition filed in state court in 2016 was also unsuccessful. See
Pet.App. 27a.

`

16
B. Federal Proceedings.
1. District Court Decision.
In September 2017, Mr. Brown filed a pro se habeas
petition under 28 U.S.C. § 2254 in the Central District of
Illinois. Dkt. 1. Although the State moved to dismiss his
petition as untimely, Dkt. 8, and although the district
court initially granted that dismissal, Dkts. 9; 10, the
district court later vacated its dismissal after it received
a handwritten response from Mr. Brown.26 The State
subsequently agreed to address the petition’s merits
rather than litigate a statute of limitations defense
through an evidentiary hearing. See Pet.App. 6a-7a.
After receiving briefing, the district court examined
whether, under § 2254(d)(1), the state court decisions in
Mr. Brown’s case were based on “an unreasonable
application of clearly established federal law.”
See Pet.App. 29a. The district court denied all claims,
but granted a certificate of appealability regarding
Batson. Pet.App. 42a-43a, 47a-48a.
2. Seventh Circuit Decision Below.
On appeal, the Seventh Circuit rejected the State’s
attempt to revive its statute of limitations defense,27 but
ruled for the State on the merits. It found that the “case
turns on Batson’s first step”—where “rais[ing] a mere
26

See Text Orders of May 15, 2018 and June 25, 2018, No. 2:17-cv02212 (C.D. Ill.) (vacating Dkts. 9 & 10 and directing the State to
address whether an evidentiary hearing would be needed regarding
timeliness or whether the State would prefer to proceed on the
merits).
27
See Pet.App. 6a-7a (describing the State’s course of conduct as
“textbook waiver” in light of Wood v. Milyard, 566 U.S. 463 (2012)).

`

17
inference of a discriminatory purpose” entitles a
defendant to an explanation from the prosecutor.
See Pet.App. 8a (“The burden at this stage is light.”
(citations omitted)). However, in the Seventh Circuit’s
view, “the Illinois Appellate Court applied Batson
correctly” in denying Mr. Brown an explanation from the
prosecutor, principally because “an apparent reason for
[Mr. Ware’s] excusal” could otherwise be found in the
record. Pet.App. 8a-11a.
Like the state courts before it, the Seventh Circuit
gave controlling significance to Mr. Ware’s voir dire
answer regarding the American Legion. Far from being
an “unreasonable” consideration at Batson’s first step
and under § 2254(d)(1), the Seventh Circuit found “just
the opposite”—this “apparent reason for [Mr. Ware’s]
excusal” was “a highly relevant circumstance for the
court to consider” at step one because it offered such a
convenient and persuasive explanation. Pet.App. 10a11a.
Though the prosecutor never endorsed this
explanation, she did not need to, because the court found
that “apparent reason” so persuasive at Batson’s first
step that it was in fact conclusive and not rebuttable. Id.
Indeed, in the Seventh Circuit’s view, no other reason
for the strike was even possible: “the prosecutor’s strike
was ‘clearly attributable’ to that circumstance because
the prosecutor used the strike immediately upon
learning of it.” Id.
To the Seventh Circuit, the nature of Mr. Ware’s
statement and timing of the strike meant that the strike
was necessarily free from discrimination, even though
all that the record discloses is that the strike was

`

18
exercised “immediately” against the only AfricanAmerican to advance that far in the jury selection
process. See Pet.App. 3a, 10a-11a; see also id. 9a (the fact
that the prosecution struck the only African-American
“merely highlighted a minor anomaly in the venire” and
“did not shed any light” on the “strike”).
Going further, because there was a persuasive
“apparent reason for his excusal,” the existence of that
possible motivation also explained away the pattern of
disparate questioning. Pet.App. 9a-10a. That the
prosecutor treated Mr. Ware differently “was
unremarkable because Ware distinguished himself by
stating that he had been to the crime scene.” Id. 9a
In other words, to the Seventh Circuit, Mr. Ware’s
answer regarding the American Legion defeated any
possibility of discrimination, regardless of what the
prosecutor might have said had she been asked to
explain her strike. Mr. Ware’s statement, and logical
inferences about what a prosecutor might do in response
to it, meant that regardless of this prosecutor’s actual
state of mind, “there is no longer any suspicion, or
inference, of discrimination” and the Batson challenge
must fail. See Pet.App. 9a-11a (citation omitted).
Mr. Brown subsequently sought rehearing and
rehearing en banc, noting the conflict with the Ninth
Circuit, but on November 17, 2020, rehearing and
rehearing en banc were denied.28

28

Though it denied rehearing, the Seventh Circuit panel corrected
a factual error in its opinion, acknowledging that Mr. Brown was
convicted of only one count of murder, not three. Pet.App. 87a-88a.

`

19
REASONS FOR GRANTING THE PETITION
I. THERE IS A SPLIT OF AUTHORITY ON THE
QUESTION PRESENTED.
A. In the Ninth and Third Circuits, Judicial
Speculation Does Not Satisfy Batson.
The Ninth Circuit has squarely and repeatedly
addressed the question presented and answered it in the
negative: courts in its circuit may not speculate as to a
prosecutor’s mindset at Batson’s first step.
Ninth Circuit courts may not rely on factors merely
present in the record to explain away a prosecutor’s
seemingly discriminatory peremptory strike.
1. Johnson Adopted
Approach.

the

Ninth

Circuit’s

In Paulino v. Castro, “after listing possible reasons
why the prosecutor struck” the potential jurors at issue,
including that one prospective juror “knew a lot of
people [that] had been arrested,” the state trial court
concluded: “I find no prima facie case because I can see
the objective reasons that seem to be present here”;
“I can see why [the prosecutor] would be uncomfortable
with each one of them.” 371 F.3d 1083, 1089 (9th Cir.
2004).
Without hesitation, the Ninth Circuit found that this
“process employed by the trial court … clearly
contravened the procedure outlined in Batson,” as the
court “offered, sua sponte, its speculation as to why the
prosecutor may have struck the five potential jurors in
question. But it does not matter that the prosecutor
might have had good reasons to strike the prospective

`

20
jurors. What matters is the real reason they were
stricken.” Id. at 1089-90.
The following year, this Court in Johnson faced the
same circumstance and specifically relied on Paulino.
In Johnson, the state trial judge conducted “her own
examination of the record” which “had convinced her
that the prosecutor’s strikes could be justified by raceneutral reasons”—the “equivocal or confused answers”
jurors gave. 545 U.S. at 165 (emphasis added).29
This Court reversed, finding the state court’s
analysis plainly deficient because “it does not matter
that the prosecutor might have had good reasons, what
matters is the real reason [the prospective jurors] were
stricken.” Id. at 172 (quoting Paulino, 371 F.3d at 1090)
(alterations omitted). The same day, this Court also
explained that a “Batson challenge does not call for a
mere exercise in thinking up any rational basis” that
could have been given, it involves examining “the stated
reason” instead. Miller-El II, 545 U.S. at 252.
2. Post-Johnson Ninth Circuit Decisions
Continue to Reject Judicial Speculation.
Following Johnson and Miller-El II, the Ninth
Circuit implemented those decisions, recognizing that
speculation on a cold record that a juror “may be a
‘loner’” and might not “effectively function in a group
decision-making process” was mere “speculation” that

29

See also People v. Johnson, 30 Cal. 4th 1302, 1325-28 (2003)
(finding no prima facie case despite Batson evidence of “statistical
disparity” and “no questions”), reversed by Johnson v. California,
545 U.S. 162 (2005).

`

21
did not measure up to this Court’s standard. Williams v.
Runnels, 432 F.3d 1102, 1109 & n.12 (9th Cir. 2006).
The Williams court found that it is not enough that
“the record would support race-neutral reasons for the
questioned challenges” at step one—under Batson it is
“the state’s responsibility to create a record that dispels
the inference” of discrimination at step two, not the
challenger’s responsibility to disprove every alternative
at step one. 432 F.3d at 1108, 1110 (emphasis added);
see also Gonzalez v. Brown, 585 F.3d 1202, 1207 (9th
Cir. 2009) (“we will not supply a reason for the
prosecutor to have exercised her strike because we
cannot know what were her true motives”).
Several years later in Johnson v. Finn, the Ninth
Circuit reaffirmed that the mere existence of a possible
reasonable premise “does not suffice to defeat an
inference of racial bias at the first step of the Batson
framework.” 665 F.3d 1063, 1069 (9th Cir. 2011). That is
true even where those possible premises would be “red
flags to trial attorneys.” See People v. Johnson, No.
C036080, 2002 WL 31430524, at *4 (Cal. App. Oct. 31,
2002) (discussing prospective juror who was “a high
school dropout” and another who had “possible
sympathies for gang members … through familiarity
from his neighborhood”), vacated by Finn, 665 F.3d
1063. Analyzing the persuasiveness of possible raceneutral explanations cannot be done at the first Batson
step because that question “belongs at the later steps of
the Batson inquiry”:
The existence of ‘legitimate race-neutral
reasons’ for a peremptory strike … can rebut at
Batson’s second and third steps the prima facie

`

22
showing of racial discrimination that has been
made at the first step. But it cannot negate the
existence of a prima facie showing in the first
instance, or else the Supreme Court’s repeated
guidance about the minimal burden of such a
showing would be rendered meaningless.
Finn, 665 F.3d at 1071 (explaining Williams, 432 F.3d at
1108).
And finally, in Currie v. McDowell, the Ninth Circuit
held that a “state appellate court violate[s] clearly
established Federal law in its Batson step one analysis”
by deciding the challenge based on “reasons [not]
proffered.” 825 F.3d 603, 609 (9th Cir. 2016). It was not
enough in Currie that “the record suggest[ed] grounds
upon which the prosecutor might reasonably have
challenged the jurors in question,” such as “ha[ving] a
close relative who has been prosecuted.” Id. at 608-09
(citation omitted). Those potential grounds were not
enough because the critical question is “whether or not
those were the reasons proffered” by the prosecution—
“what matters is the real reason [the prospective jurors]
were stricken.” Id. at 609-10 (emphasis added and
citation omitted).
On this point, the Third Circuit agrees, “holding
that”:
[T]he inquiry required by Batson must be
focused on the distinctions actually offered by
the State in the state court, not on all possible
distinctions we can hypothesize. Apparent or
potential reasons do not shed any light on the
prosecutor’s intent or state of mind when
making the peremptory challenge.

`

23
Hardcastle v. Horn, 368 F.3d 246, 257 n.4 (3d Cir. 2004)
(quoting Riley v. Taylor, 277 F.3d 261, 282 (3d Cir.
2001)). Thus both the Ninth and Third Circuits agree
that “[a]pparent or potential reasons,” id., are not
sufficient grounds to dismiss a Batson claim.
B. In the Seventh Circuit, First Circuit, and in
California, Judicial Speculation Satisfies
Batson.
1. The Seventh Circuit and First Circuit
Credit ‘Apparent’ Reasons.
The Seventh Circuit interprets Batson differently.
From Batson’s command to consider whether “the
totality of the relevant facts gives rise to an inference of
discriminatory purpose” at step one, 476 U.S. at 93-94,
the Seventh Circuit has found that it may consider
whether “there are race-neutral reasons for the
disparity apparent in the record” at Batson’s first step,
United States v. Stephens, 421 F.3d 503, 515 (7th Cir.
2005). The Seventh Circuit rule is that:
[C]ourts considering Batson claims at the prima
facie stage may consider apparent reasons for the
challenges discernible on the record, regardless of
whether those reasons were the actual reasons for
the challenge.
Id. at 515-16 (emphasis added) (citing Mahaffey v. Page,
162 F.3d 481, 483 n.1 (7th Cir. 1998) (hypothesizing
example where all stricken jurors were attorneys)).
Going further, the Seventh Circuit has found that an
“apparent explanation could negate an inference of race
discrimination regardless of whether the [apparent
reason] was the actual reason for the strike.” Id. This is

`

24
of course the opposite of the Ninth Circuit’s approach,
where the “existence of ‘legitimate race-neutral reasons’
for a peremptory strike. … cannot negate the existence
of a prima facie showing.” Finn, 665 F.3d at 1071
(explaining Williams, 432 F.3d at 1108).
The Seventh Circuit has acknowledged that this
Court’s decision in Johnson speaks to this very issue and
admits that when it comes to apparent explanations,
“[a]fter Johnson … this is a very narrow review.”
Stephens, 421 F.3d at 516. Nevertheless, the Seventh
Circuit interprets Johnson to specifically allow apparent
explanations to have decisive effect in the Batson
analysis, so long as the reviewing court is convinced of
its logic:
In light of Johnson, an inquiry into apparent
reasons is relevant only insofar as the strikes
are so clearly attributable to that apparent, nondiscriminatory reason that there is no longer
any suspicion, or inference, of discrimination in
those strikes.
Id. The Seventh Circuit, however, has not identified
where in Johnson that rule was adopted. See id. (no
citation to Johnson).
Up until now, that interpretation of Johnson did not
control the outcome of a case at the Seventh Circuit. In
two cases prior to Mr. Brown’s, the Seventh Circuit
declined to invoke this possibility because those strikes
were not “clearly attributable to [an] apparent, nondiscriminatory reason.” See id.; see also Franklin v.
Sims, 538 F.3d 661, 665-66 (7th Cir. 2008). In Stephens,
the court refused to credit the “government’s post hoc

`

25
reasons, which consisted of a combination of the stricken
jurors’ encounters with law enforcement officials, their
criminal histories, and their litigation histories.”
Franklin, 538 F.3d at 665-66 (citing Stephens, 421 F.3d
at 517-18). In Franklin v. Sims, the court noted that
“potential reasons for the strikes, such as the fact that
[one juror] had family members who were crime victims
and [another juror] had been initially unwilling to
disclose his DUI conviction” were not decisive. Id. at
665.
Here, however, the Seventh Circuit took that
additional step and found that Mr. Ware’s answer
regarding the American Legion negated even any
possibility of discrimination, regardless of what the
prosecutor was actually thinking. The Seventh Circuit
found it “not unreasonable” to consider “Ware’s history
with the crime scene as an apparent reason for his
excusal—just the opposite.” Pet.App. 10a. “Ware’s
statement that he, unlike any other jurors, had been to
the crime scene was a highly relevant circumstance for
the court to consider. And the prosecutor’s strike was
‘clearly attributable’ to that circumstance,” meaning
that there was “no longer any suspicion … of
discrimination” and the Batson challenge failed.
Pet.App. 10a-11a (quoting in part Franklin, 538 F.3d at
665).
The First Circuit has followed the Seventh Circuit’s
lead on this issue. It too has considered “whether there
are any ‘apparent non-discriminatory reasons for
striking potential jurors based on their voir dire
answers.’” Sanchez v. Roden, 753 F.3d 279, 302 (1st Cir.

`

26
2014) (quoting Aspen v. Bissonnette, 480 F.3d 571, 577
(1st Cir. 2007) and citing Stephens, 421 F.3d at 515-16).
On the facts there, the Sanchez court concluded that
“the record fail[ed] to disclose any obvious infirmity …
that would translate to an apparent reason” to strike a
particular African-American juror, and thus the court
did not rely on apparent reasons speculation. See id. at
303. However, the Aspen court affirmatively concluded
that “the prosecutor did not issue peremptory
challenges on the basis of gender” in that case. 480 F.3d
at 579. That was in part because “seven of the jurors
challenged by the prosecutor provided voir dire answers
that could reasonably have been” concerning to the
prosecution. Id. at 578. (“the jurors may have been
inclined to acquit the defendant even if he committed the
conduct alleged” which may have alienated the
prosecution).
Thus in both the Seventh and the First Circuits—but
not in the Ninth or the Third Circuits—a prospective
juror’s voir dire statements can be used to negate a
Batson claim at the prima facie stage, regardless of
whether or not the prosecutor in fact struck the
prospective juror over those statements.
2. California, in Conflict with Its Regional
Circuit, Routinely Credits ‘Apparent’
Reasons at Batson’s First Step.
The Seventh Circuit approach is also followed by the
California Supreme Court, who in no less than ten
capital cases in the last decade has credited “apparent
race-neutral reasons for the prosecutor’s excusals” even
where those circumstances merely indicate what the
prosecutor “reasonably could have concluded” about the

`

27
prospective jurors, not what the prosecutor in fact
concluded. People v. Harris, 306 P.3d 1195, 1221-22 (Cal.
2013) (applying Batson, 476 U.S. at 96).30 Indeed, if a
California “prosecutor could have reasonably been
concerned that [a venireman] was potentially too closely
connected to the case to sit as an impartial juror” given
their voir dire statements, that is enough to defeat a
Batson challenge in California regardless of what the
prosecutor in fact thought of that potential juror. Id. at
1222.31 (emphasis added).

30

E.g. People v. Rhoades, 453 P.3d 89, 121-26, 143-44 (Cal. 2019)
(suspicion of bias necessarily dispelled by juror statements about
capital punishment, family obligations, and history); People v.
Woodruff, 421 P.3d 588, 628-30 (Cal. 2018) (same regarding capital
punishment, religion, the police, autopsy photos, and even perceived
juror demeanor); People v. Reed, 416 P.3d 68, 79-81 (Cal. 2018) (same
regarding capital punishment, and family experiences); People v.
Parker, 395 P.3d 208, 229-30 (Cal. 2017) (same regarding capital
punishment, and reluctance to serve as juror); People v. Zaragoza,
374 P.3d 344, 362 (Cal. 2016) (same regarding personal history,
thoughts on criminal justice system, religion, and capital
punishment); People v. Sánchez, 375 P.3d 812, 837 (Cal. 2016) (no
discrimination given juror statements on capital punishment, and
personal history); People v. Cunningham, 352 P.3d 318, 360 (Cal.
2015) (same where prospective juror was interested in working with
inmates); People v. Scott, 349 P.3d 1028, 1043-44 (Cal. 2015) (juror
opinions about police, and capital punishment); Harris, 306 P.3d at
1222-23 (potential juror knew several people involved in the case
and another had a sibling charged with a crime); People v. Pearson,
297 P.3d 793, 821-22 (Cal. 2013) (four separate grounds for one
strike).
31
Other post-Johnson state courts have relied on pre-Johnson cases
or on the Seventh Circuit’s decision in Stephens for the idea that
“the existence of plausible, racially neutral bases … apparent on the
record, is sufficient to nullify any inference of discrimination that

`

28
Specifically, the California Court looks for raceneutral reasons that “necessarily dispel any inference of
bias,” a standard that can be met by any reason at all “so
long as those reasons are apparent from and clearly
established in the record.” People v. Woodruff, 421 P.3d
588, 628 (Cal. 2018) (citation omitted); see also People v.
Scott, 349 P.3d 1028, 1043 (Cal. 2015) (collecting cases
and quoting Stephens, 421 F.3d at 516).
The California Court has also denied Batson
challenges “where the record suggests grounds upon
which the prosecutor might reasonably have challenged
the jurors in question.” People v. Pearson, 297 P.3d 793,
821-22 (Cal. 2013) (citation omitted). Seemingly any
reason that might potentially indicate a juror is not
favorably disposed to the prosecution can be deemed
sufficient—in that regard the California rule is even
more permissive than the Seventh Circuit’s. See id. at
822 (reciting prospective juror’s voir dire statements—
about her religious beliefs, employment, views on and
experience with psychologists and psychiatrists, and
two personal acquaintances—any one of which “would
otherwise might be drawn.” Lightfoot v. Commonwealth, 653 S.E.2d
615, 619 (Va. App. 2007) (quoting Capers v. Singletary, 989 F.2d 442,
446 (11th Cir. 1993) and collecting cases including Stephens); id. at
620 (“Once again, evidence in the record of ‘entirely plausible
reasons, independent of race,’ for exercising a peremptory strike
implies that racial bias did not motivate the prosecutor, thus
negating a claim of purposeful racial discrimination under step one
of a Batson challenge.” (quoting Wade v. Terhune, 202 F.3d 1190,
1198 (9th Cir. 2000))); see also State v. Williams, 199 So. 3d 1222,
1237 (La. App. 2016) (“We find no error in the district court’s
consideration of the apparent reasons in confirming … that Mr.
Williams failed to establish a prima facie case.”); id. (relying on
Stephens, 421 F.3d at 515-16).

`

29
provide an adequate reason other than racial
discrimination to support the prosecutor’s challenge”).
The fact that California’s approach is at odds with the
one charted in Johnson has not gone unnoticed by
members of that Court: “while correctly stating the
Johnson v. California standard,” the California
Supreme Court “has found no prima facie case in a
variety of circumstances” including those “not very
different from those in Johnson.” Harris, 306 P.3d at
1245 (Liu, J. concurring). It has credited “reasons that a
prosecutor might have given—but did not actually
give—for striking a minority juror,” allowing them “to
negate an inference of discrimination.” Id. “In so doing,
our Batson step one jurisprudence commits the very
mistake that Johnson v. California warned against: we
routinely and erroneously ‘rely[ ] on judicial speculation
to resolve plausible claims of discrimination”’ and
“employ judicial speculation in a conspicuously lopsided
way”—for the prosecution. Id. (quoting Johnson, 545
U.S. at 173).
The California Court has been reminded that the
difference between deciding a case based on
“speculation” instead of on “actual answers” is plain, that
it “cannot be reconciled with the Batson framework,”
and that it “risks weakening the constitutional
prohibition on racial discrimination in jury selection.”
Scott, 349 P.3d at 1060, 1063 (Liu, J. concurring) (citation
omitted).
This “mode of analysis—hypothesizing
reasons for the removal of minority jurors as a basis for
obviating inquiry into the prosecutor’s actual reasons—
has become a staple of our Batson jurisprudence, and it
raises serious concerns.” People v. Rhoades, 453 P.3d 89,

`

30
139 (Cal. 2019) (Liu, J. dissenting); see also id. (in
42 merits cases reviewing first-stage Batson denials in
California death penalty appeals since Johnson “[n]ot
once did this court find a prima facie case of
discrimination”).
C. Only This Court Can Resolve the Conflict.
This ongoing difference in opinion amounts to
“substantial disagreement” between the Circuits and
States that should be resolved by this Court. See Wheat
v. United States, 486 U.S. 153, 158 & n.2 (1988). It also
shows that “the question presented by this case is not
only important, but … also … frequently arises.” See
Perry v. Leeke, 488 U.S. 272, 277 & n.2 (1989).
In fact, given the opposing views of the Ninth Circuit
and the California Supreme Court, the very reason for
granting the petition in Johnson v. California has since
re-emerged—that the “Supreme Court of California and
the United States Court of Appeals for the Ninth Circuit
have provided conflicting answers to the” question
presented, even though “both of those courts regularly
review the validity of convictions obtained in California
criminal trials.” 545 U.S. at 164. Though this case arose
from Illinois instead of California, given that this
factually-straightforward case is an ideal vehicle for
resolving the question presented, the Court should
grant the petition here and address it.
Had Mr. Brown’s petition been filed in the federal
system in the Ninth Circuit instead of within the
Seventh Circuit, it would have turned out differently.
And if his case had arisen in California, the specific
forum of his trial—i.e. whether Mr. Brown had been
tried in state court or in federal court—would have

`

31
dictated the outcome of the Batson analysis on these
facts. This Court should grant the petition and resolve
the question presented.
II. THIS CASE PRESENTS AN IDEAL VEHICLE
FOR
RESOLVING
THE
QUESTION
PRESENTED.
The question presented is outcome determinative
here. While Mr. Brown’s direct appeal and habeas
petition challenged numerous aspects of his trial, only
the Batson claim remains. The district court’s narrow
grant of a certificate of appealability was limited to the
Batson issue, and the Seventh Circuit rejected the
State’s belated timeliness argument as “textbook
waiver.” Pet.App. 5a-7a; 47a-48a. Thus all that remains
to be decided in this case at this point is whether
‘apparent’ reasons may have decisive effect at the first
stage of the Batson analysis, as the Seventh Circuit
found here.
In deciding that question, the Court would not be
sidetracked by the standard for granting habeas relief
under 28 U.S.C. § 2254(d)(1). Unlike many other federal
habeas cases involving state convictions, this case does
not require a fine-grained analysis about whether the
rule has been “clearly established” by the Court for
purposes of § 2254(d)(1)—the gulf between the
competing views outlined above is much wider than that,
and relates to the proper application of the Batson
framework that has been in place for decades.
The Seventh Circuit believes that the correct
application of Batson’s first step requires consideration
of persuasive ‘apparent’ reasons when they are
compelling and decisive, as it found here. Pet.App. 9a-

`

32
11a. The Ninth Circuit has held not only that the
opposite is true—apparent reasons cannot be given
decisive effect at the first step—but that failing to apply
its approach to Batson is unreasonable under
§ 2254(d)(1). Currie, 825 F.3d at 609-10. Only one of these
Batson conclusions can be correct, and regardless of
which is correct, Batson clearly established its
namesake framework decades ago.32
Nor does this case, unlike some other Batson cases,
require complex analysis of many different juror
circumstances or volumes of information. This case
concerns only one unexplained peremptory strike, one
‘apparent’ reason, and a detailed and timely Batson
challenge. All courts to have substantively analyzed this
claim have either emphasized or expressly rested their
analysis on the ‘apparent’ reason for Mr. Ware’s
excusal—indeed, that ‘apparent’ reason was the only
ground even considered by the judge who presided at
trial. Pet.App. 9a-11a; 43a; 79a-82a; 117-118a; 150a. This
case turns on whether the lower courts’ reasoning is
consistent with Batson.

32

The Ninth Circuit cited Johnson as the decision that “clearly
established for [habeas review] purposes” that “[w]hat matters is
the real reason” for the strike, not “that the prosecutor might have
had good reasons.” Currie, 825 F.3d at 609-10 (citations omitted).
But under the circumstances here, it is immaterial whether it was
Batson or Johnson that clearly established this point. Mr. Brown’s
trial occurred years after both Batson and Johnson were decided,
and the Illinois courts were required to follow both.

`

33
III. THE DECISION BELOW IS WRONG.
The Seventh Circuit’s reasoning is not consistent
with Batson and thus it erred in siding with the
California Court instead of the Ninth Circuit.
As Johnson and the Ninth Circuit have held, it is a
fundamental misapplication of the Batson framework to
decide a challenge on the basis of a reason that the
prosecution never endorsed. “The Batson framework is
designed to produce actual answers to suspicions and
inferences that discrimination may have infected the
jury selection process.” Johnson, 545 U.S. at 172.
“[I]t does not matter that the prosecutor might have had
good reasons” for striking an African-American juror—
“[w]hat matters is the real reason they were stricken”
and whether the real reason was the juror’s race. Id.
(quoting Paulino, 371 F.3d at 1090 (emphasis added)).
Where the prosecutor is never asked to explain, this
Court has held that “needless and imperfect speculation”
by judges seeking to fill that void on a prosecutor’s
behalf “does not aid our inquiry into the reasons the
prosecutor actually harbored” and misapplies Batson’s
careful “three-step process.” Id. (citation omitted).
All that a Batson challenger must do to clear the first
step of the framework is to “produc[e] evidence
sufficient to permit the trial judge to draw an inference
that discrimination has occurred”; the challenger does
not need to persuasively rebut all other possibilities. Id.
at 170 (emphasis added). After all, deciding a Batson
challenge does not “call for a mere exercise in thinking
up any rational basis” for the strike, and a court’s
“substitution of a reason for excluding [a juror] does
nothing to satisfy the prosecutors’ burden of stating a

`

34
racially neutral explanation for their own actions.”
Miller-El II, 545 U.S. at 233. Only the prosecutor can do
that. Batson, 476 U.S. at 94. “The inherent uncertainty”
involved in filling in the gaps on behalf of the prosecutor
imperils the reliability of the Batson analysis; instead of
engaging in that inherently uncertain speculation, trial
judges should obtain “a direct answer” from the
prosecutor “by asking a simple question.” Johnson, 545
U.S. at 172.
The Seventh Circuit’s decision thus cannot be
reconciled with Johnson and is wrong. There is no
indication in Johnson that speculation is somehow
appropriate simply because the court feels that its
speculation is unassailable—“[w]hat matters is the real
reason” for a peremptory strike, not a hypothesized one,
as the Ninth and Third Circuits had found before
Johnson. See id. (citation omitted).
In fact, before its decision here, the Seventh Circuit
had twice noted this issue and resisted the urge to
speculate. See Stephens, 421 F.3d at 515, 517-18;
Franklin, 538 F.3d at 665-66. It understood that
Johnson found a “prima facie case established even
though [the] trial judge’s examination of the record
convinced him that the prosecutor’s strikes could be
justified by race-neutral reasons.” Stephens, 421 F.3d at
516 (citing Johnson, 545 U.S. at 165-72). But in this case,
and without discussing Johnson, it found that this
potential race-neutral reason negated a suspicion of
discrimination. Pet.App. 9a-11a.
In contrast, the Ninth Circuit approach is correct and
based in Batson itself: the burden to “offer ‘permissible
race-neutral justifications for the strike’” lies with the

`

35
State, and only the State can know with certainty what
those justifications are. Currie, 825 F.3d at 605, 609-10
(citations omitted).33 Given that burden, and the Batson
framework’s interest in producing answers rather than
mere speculation, the “inquiry required by Batson must
be focused on the distinctions actually offered by the
State in the state court, not on all possible distinctions
we”—i.e. the court—“can hypothesize.” Riley v. Taylor,
277 F.3d 261, 282 (3d Cir. 2001). Rendering judgment on
hypothetical reasons “clearly contravene[s] the
procedure outlined in Batson,” Paulino, 371 F.3d at
1089; see also Batson, 476 U.S. at 94.
The basis for the Seventh Circuit’s approach,
however, is tenuous at best. The Seventh Circuit has
claimed that its “consideration of ‘apparent reasons’ is in
fact nothing more than a consideration of ‘all relevant
circumstances’” at the first step, which in extraordinary
circumstances can be consistent with Batson.
See Stephens, 421 F.3d at 516.34
However, the Seventh Circuit has also admitted that
relying on apparent, hypothetical reasons to actually
decide a Batson challenge is “an attempt to short-circuit
the Batson process,” id., and “risk[s] collapsing all three
of Batson’s steps into the prima facie inquiry,” Franklin,
538 F.3d at 666. That is precisely what happened here:
33

See also Batson, 476 U.S. at 94 (explaining that the framework
expects “the State to explain adequately the racial exclusion” and
“mere general assertions that its officials did not discriminate”
cannot suffice to explain a “monochromatic result” (citation
omitted)).
34
California does not require the circumstances to be
extraordinary—it routinely bases Batson decisions on apparent
reasons. See above at 26-30.

`

36
Mr. Brown had to not only advance evidence giving rise
to a suspicion of discrimination, he also had to rebut the
trial judge’s unstated hunches as well. See above at 1115. It is an unreasonable application of Batson to have
held the defense to that high of a standard at step one.
In addition, this reliance on intuition rather than
explanation is an important and recurring problem in
implementing Batson, as shown by the California Court.
There is a subtle but critically important difference
between a trial judge analyzing each circumstance of
jury selection at Batson step one for consistency with a
hypothesis of discrimination (which is appropriate under
Johnson), or instead testing the circumstances against a
specific alternative hypothesis the prosecution has not
yet endorsed (not appropriate after Johnson—wait for
the state’s explanation). See 545 U.S. at 170-73.
The Seventh Circuit here believed that the best
explanation for the peremptory strike was that this
prosecutor was concerned about Mr. Ware’s personal
history. But it had nothing but silence and its own
intuition to support that conclusion. This leap of faith
misapplies Batson, and Johnson reaffirmed that
‘apparent’ reasons cannot have decisive effect until and
unless they are honestly adopted and explained by the
prosecutor. See 545 U.S. at 171-73. If that were not the
rule, then any number of unique variations and
idiosyncrasies—differences that will always be present
to distinguish between jurors—could be marshaled to
“spar[e] the government the second and third steps of
Batson” regardless of the prosecutor’s actual state of
mind. See Stephens, 421 F.3d at 516.

`

37
And on the facts of this case, there is no basis on
which any court could have divined this prosecutor’s
actual intent. The record here is at least as consistent
with discrimination as with the Seventh Circuit’s
preferred innocuous alternative. Mr. Ware was unique
in two ways among the potential jurors questioned: he
had been to the American Legion and he was AfricanAmerican. The prosecutor’s decision to strike him
immediately could have been because of either of those
unique traits, or because of something else known only
to the prosecutor. The timing of the strike merely
indicates that the prosecutor’s mind was made up, not
that it was made up and free from discriminatory intent.
And the noticeably disparate questioning here tips the
balance in favor of a suspicion of discrimination—this
prosecutor asked more, not fewer, questions when she
was concerned about potential sources of bias. There is
no reason here to decide that speculation satisfies
Batson.
The key distinction in the Batson analysis between
real and hypothetical reasons was lost here. And because
of that mistake, the Seventh Circuit’s decision
exacerbates ongoing division and confusion in the law.
It also stands as an invitation for prosecutors and
lawyers entertaining an impermissible reason for a
peremptory strike to go ahead and exercise that strike
whenever they think the trial judge may be inclined to
helpfully speculate about their intentions. That practice
defies Batson, and the Court should end it here.

`

38
CONCLUSION
For the foregoing reasons, this Court should
grant the petition.
Respectfully submitted,
Ishan K. Bhabha
Counsel of Record
Jason T. Perkins
JENNER & BLOCK LLP
1099 New York Avenue, NW
Suite 900
Washington, DC 20001
(202) 639-6000
ibhabha@jenner.com
April 9, 2021

`

1a

In the

United States Court of Appeals
For the Seventh Circuit
____________________
No. 19-3172
CHARMELL BROWN,
Petitioner-Appellant,
v.
ALEX JONES, Acting Warden,
Respondent-Appellee.
____________________
Appeal from the United States District Court for the
Central District of Illinois.
No. 17-2212 —
, Judge.
____________________
ARGUED SEPTEMBER 24, 2020 – OCTOBER 21,
2020
____________________

2a
Before EASTERBROOK, MANION, and KANNE, Circuit
Judges.
KANNE, Circuit Judge. When selecting jurors for
Charmell Brown’s murder trial in Illinois state court, the
prosecution struck venireperson Devon Ware who had
been to the crime scene. As it happens, Ware is also
African American. In his petition for habeas relief now
before us, Brown argues that the prosecution struck
Ware on the basis of his race and that the Illinois
Appellate Court unreasonably applied Batson v.
Kentucky, 476 U.S. 79 (1986), when holding otherwise in
Brown’s direct appeal.
The court made no such error. It correctly noted the
prosecution’s apparent reason for striking Ware — that
he had been to the crime scene — and found no
circumstances giving rise to an inference that the
prosecution engaged in racial discrimination. We
therefore affirm the district court’s decision denying
Brown’s petition for a writ of habeas corpus.

In 2008, a jury convicted Charmell Brown of three
counts of first-degree murder[1] and one count of
aggravated battery with a firearm for shooting three
people outside of the American Legion building in
Champaign, Illinois. The court sentenced Brown to 90
years’ imprisonment. Since his sentencing, Brown has
[1

Petitioner note: The Seventh Circuit later corrected this
statement on denial of rehearing to read: “one count of first-degree
murder.” See Pet. App. 88a below.]

3a
filed two postconviction motions, a direct appeal, and the
petition for federal habeas relief now before us. Brown’s
only remaining claim is that the Illinois Appellate Court
unreasonably applied Batson when reviewing his claim
that the prosecutor in his case struck potential juror
Devon Ware because of Ware’s race.
Ware was one of two African Americans in the sixtyperson venire gathered for Brown’s trial. The clerk
called Ware as a potential juror in the first panel of four
venirepersons. The court then asked the panel general
questions regarding their fitness as jurors. One question
inquired whether anyone was familiar with the
American Legion where Brown’s crime took place. Ware
said yes, and the other three venirepersons said no. The
court followed up and asked Ware if he had visited the
Legion. Ware answered, “Been on the outside. Not
inside.” But he denied that his familiarity with the
American Legion would affect his service as a juror. The
court then tendered questioning to the prosecutor, who
immediately requested that Ware be excused. The court
obliged.
Brown objected that Ware’s excusal violated Batson.
The court overruled the objection and found that Ware
was “properly excused” because Brown failed to make
“a prima facie case that a discriminatory practice was
being conducted by the State.” The court thus did not
ask the prosecution to provide “a race neutral
explanation” for its strike.
Brown raised this issue before the trial court again in
his post-trial motions. Once more, the trial court denied
the claim. The court explained that Ware, “unlike every

4a
other juror that was questioned,” had been to the
American Legion, and therefore Brown failed to
establish a prima facie Batson case.
On direct appeal, Brown raised his Batson issue a
third time, but the Illinois Appellate Court rejected it.
The court noted the relevant factors for establishing a
prima facie Batson case, considered the record
pertaining to Brown’s voir dire proceedings, and
determined that the trial court did not clearly err in
ruling that Brown failed to establish a prima facie case
of racial discrimination in the jury selection process. To
support this conclusion, the court explained that there
was no evidence of a pattern of striking African
Americans from the jury or of a disproportionate
number of strikes used against African Americans and
that the other factors “were unremarkable in the overall
context of this case.” The court further noted that Ware
meaningfully distinguished himself from the other
potential jurors by stating that he was familiar with the
crime scene. Brown petitioned for leave to appeal the
court’s decision, but the Illinois Supreme Court denied
his request.
Brown then sought federal habeas relief. The district
court denied Brown’s habeas petition but granted a
certificate of appealability on the Batson issue. The
district court noted that the prosecutor struck one of two
African-American venirepersons but held that Brown
“must do more than point to the fact that the prosecutor
exercised a peremptory strike on an African American
venireperson to establish a prima facie case.” Brown
now appeals the district court’s decision.

5a
Brown seeks habeas relief under 28 U.S.C. § 2254 as
amended by the Antiterrorism and Effective Death
Penalty Act of 1996 (“AEDPA”). Federal courts may
only grant habeas relief under AEDPA if a state court’s
last reasoned opinion on a defendant’s claim (1) was
contrary to, or relied on an unreasonable application of,
clearly established federal law or (2) rested on an
unreasonable factual determination. 28 U.S.C. §
2254(d)(1)-(2).
A state court’s decision relies on an “unreasonable
application of clearly established federal law” if it
identifies the correct legal rule but applies the rule in an
objectively unreasonable way. Bynum v. Lemmon, 560
F.3d 678, 683 (7th Cir. 2009). Regarding factual
determinations, a petitioner “bears the burden of
rebutting the state court’s factual findings ‘by clear and
convincing evidence,’” and “a state-court factual
determination is not unreasonable merely because the
federal habeas court would have reached a different
conclusion.” Burt v. Titlow, 571 U.S. 12, 18 (2013) (first
quoting 28 U.S.C. § 2254(e)(1); and then quoting Wood v.
Allen, 558 U.S. 290, 301 (2010)).
This standard “erects a formidable barrier to federal
habeas relief.” Id. at 19. AEDPA requires “a state
prisoner [to] show that the state court’s ruling on the
claim being presented in federal court was so lacking in
justification that there was an error ... beyond any
possibility for fairminded disagreement.” Id. at 19-20
(alterations in original) (quoting Harrington v. Richter,
562 U.S. 86, 103 (2011)).

6a
In this case, Brown contends that he is entitled to
habeas relief because the Illinois Appellate Court
unreasonably applied Batson and based its decision on
unreasonable factual determinations. In response, the
State argues that Brown’s petition is untimely and
meritless. We disagree with the State’s timeliness
argument but agree that Brown’s petition is merit-less.
A. The State waived its timeliness argument.
AEDPA imposes a one-year statute of limitations. 28
U.S.C. § 2244(d)(1). But this limitations period is not
jurisdictional. See Wood v. Milyard, 566 U.S. 463, 474
(2012). A state respondent may waive the defense by
“expressing its clear and accurate understanding of [a]
timeliness issue” yet “deliberately steer[ing] the
District Court away from the question and towards the
merits of [the] petition.” Id. And a federal appellate
“court is not at liberty ... to bypass, override, or excuse
a State’s deliberate waiver of a limitations defense.” Id.
at 466. For example, in Wood, “the State twice informed
the District Court that it ‘w[ould] not challenge, but [is]
not conceding’ the timeliness of [the] petition.” Id. at 474
(second alteration in original). The Supreme Court held
that the court of appeals was therefore required to reach
the merits of the petition rather than decide the case on
timeliness grounds. Id.
Much like the state respondent in Wood, the State in
this case waived its statute of limitations defense.
Initially, the State did file a motion to dismiss arguing
that Brown’s petition was untimely. But after the court
set an evidentiary hearing on timeliness and appointed
counsel to represent Brown, the State asked the court to

7a
set a briefing schedule on the merits of the petition
instead. The State informed the court that
“consideration of the merits and any procedural bars to
the claims raised in the instant petition may be more
efficient than continued litigation of [Brown’s] equitable
tolling argument.”
This was textbook waiver. The state “express[ed] its
clear and accurate understanding of [a] timeliness issue”
yet “deliberately steered the District Court away from
the question and towards the merits of [Brown’s]
petition.” Id. And the district court acknowledged as
much by deciding the merits of this case. We too will
therefore consider the merits of Brown’s petition.
B. The Illinois Appellate Court reasonably applied
Batson.
“In Batson, the Supreme Court established a threestep framework for determining whether [a]
prosecut[or] violated [a] defendant’s Equal Protection
rights by exercising peremptory challenges in a racially
discriminatory manner.” Bennett v. Gaetz, 592 F.3d 786,
791 (7th Cir. 2010).
First, the defendant must make out a prima fade
case “by showing that the totality of the relevant
facts gives rise to an inference of discriminatory
purpose.” Second, if the defendant establishes a
prima facie case, the “burden shifts to the State
to explain adequately the racial exclusion” ... .
Third, the trial court must evaluate the
plausibility of the prosecution’s reasons, in light
of all of the surrounding circumstances, to decide

8a
whether the defendant has proved purposeful
discrimination.
Id. (citations omitted) (quoting Batson, 476 U.S. at
94, 98).
This case turns on Batson’s first step—the prima
facie case. “[A] defendant may establish a prima facie
case by offering a wide variety of evidence that raises a
mere inference of a discriminatory purpose.” Id. (citing
Johnson v. California, 545 U.S. 162, 169 (2005); United
States v. Stephens, 421 F.3d 503, 512 (7th Cir. 2005)). For
example, a defendant may establish a prima facie Batson
case by offering proof of a pattern of strikes against
African Americans or showing that the prosecutor’s
questions and statements during voir dire support an
inference of discrimination. See Flowers v. Mississippi,
139 S. Ct. 2228, 2246 (2019); Batson, 476 U.S. at 96-97.
“The burden at this stage is light.” Bennett, 592 F.3d
at 791. A challenger must only point to “circumstances
raising a suspicion that discrimination occurred.”
Franklin v. Sims, 538 F.3d 661, 665 (7th Cir. 2008).
Nevertheless, “the prima facie burden is an essential
part of the Batson framework, and trial courts may
justifiably demand that defendants carry this burden
before requiring prosecutors to engage in the difficult
task of articulating their instinctive reasons for
peremptorily striking a juror.” Bennett, 592 F.3d at 791
(7th Cir. 2010) (citing Miller-El v. Drekte, 545 U.S. 231,
267-68 (2005) (Breyer, J., concurring)).
In this case, the Illinois Appellate Court applied
Batson correctly. To start, the court identified the wide

9a
swath of factors to consider in determining whether a
defendant has made a prima facie Batson claim. Then the
court found that, in Brown’s case, there “was no
evidence of any pattern of striking African-Americans
from the jury, nor was there any evidence of a
disproportionate number of strikes used against
African-Americans,” and “[t]he facts pertaining to the
other factors were unremarkable in the overall context
of this case.”
Brown takes issue with this analysis on three
grounds, but none prevails. First, Brown argues that the
Illinois Appellate Court failed to consider (1) that,
because only two members of the venire were African
American, striking Ware dramatically increased the
chance that no African Americans would serve on
Brown’s jury and (2) that the prosecutor’s decision not
to question Ware before excusing him differed from the
prosecutor’s treatment of other venirepersons.
This argument is not persuasive because the Illinois
Appellate Court did consider these circumstances and
correctly noted that they “were unremarkable in the
overall context of this case.” Though striking Ware
decreased the chance that African Americans would
serve on Brown’s jury, that merely highlighted a minor
anomaly in the venire. It did not shed any light on the
prosecutor’s strike. Moreover, the prosecutor’s decision
to ask more questions of other jurors was unremarkable
because Ware distinguished himself by stating that he
had been to the crime scene.
Second, Brown argues that the Illinois Appellate
Court improperly considered that Ware was familiar

10a
with the crime scene to explain the prosecution’s strike.
Courts considering Batson claims at the prima facie
stage may consider “apparent” reasons for a strike. See
Stephens, 421 F.3d at 515 (“[I]n considering ‘all relevant
circumstances,’ courts may consider distinctions such as
[a venireperson’s] attorney status in determining
whether
the
inference
of
discrimination
is
demonstrated.”). This “normally works to the
government’s advantage, showing that a seemingly
discriminatory pattern of peremptories is readily
explained by factors apparent in the record.” Id. (citing
Mahaffey v. Page, 162 F.3d 481, 483 n.1 (7th Cir. 1998);
Johnson v. Campbell, 92 F.3d 951, 953 (9th Cir. 1996);
Capers v. Singletary, 989 F.2d 442, 446 (11th Cir. 1993)).
But the Supreme Court has made clear that the
persuasiveness of a Batson challenge is to be determined
at the third Batson stage, not the first, and has rejected
efforts by courts to supply reasons for questionable
strikes. Miller-El, 545 U.S. at 252. An inquiry into
apparent reasons is thus “relevant only insofar as the
strikes are so clearly attributable to that apparent,
nondiscriminatory reason that there is no longer any
suspicion, or inference, of discrimination.” Franklin, 538
F.3d at 665 (quoting Stephens, 421 F.3d at 516).
Here, the Illinois Appellate Court was not
unreasonable in considering Ware’s history with the
crime scene as an apparent reason for his excusal —just
the opposite. Ware’s statement that he, unlike any other
2
jurors, had been to the crime scene was a highly
2

Brown notes that another juror, who was not stricken, stated that
she knew the address of the American Legion. This comparator

11a
relevant circumstance for the court to consider. And the
prosecutor’s strike was “clearly attributable” to that
circumstance because the prosecutor used the strike
immediately upon learning of it.
Third, Brown argues that the Illinois Appellate
Court imposed too high of a burden at the prima facie
stage. For the reasons already stated, this is incorrect.
The court reasonably determined that the circumstances
of Ware’s excuse did not “rais[e] a suspicion that
discrimination occurred.” Id. (quoting Stephens, 421
F.3d at 512).
In sum, we see nothing unreasonable —much less
any error beyond the possibility for fairminded
disagreement—in the Illinois Appellate Court’s
application of Batson. Brown is therefore not entitled to
habeas relief on this ground.
C. The Illinois Appellate Court’s decision did not
rest
on
any
unreasonable
factual
determinations.
Brown argues that the Illinois Appellate Court relied
on the unreasonable factual determination that the
prosecution in fact did not strike Ware because of his
race. Brown leans heavily on the trial court’s statement
that Ware was “properly excused” and the Illinois
Appellate Court’s affirmance of that purported
“finding.”

juror does not reveal anything about the strike used against Ware
because she, unlike Ware, had not been to the scene of the crime.

12a
There are several issues with this argument. First,
the trial court made clear that Ware was “properly
excused” because Brown did not establish a prima facie
Batson case. The trial court never purported to
determine any facts about his excuse. Second, the
Illinois Appellate Court did not reiterate this “finding”
when reviewing the trial court’s decision. The Illinois
Appellate Court made clear that it only held that the
trial court did not err insofar as it found that Brown
failed to establish a prima facie Batson case. For those
reasons, the Illinois Appellate Court did not rely on the
allegedly unreasonable “factual finding” that Brown
complains of.

We AFFIRM the decision of the district court.

13a

____________________

____________________

____________________
This cause is before the Court on Petitioner Charmell
Brown’s Petition Under 28 U.S.C. § 2254 for Writ of
Habeas Corpus by a Person in State Custody (Petition)
(d/e 3) and Amended Petition Under 28 U.S.C. § 2254 for
Writ of Habeas Corpus by a Person in State Custody (d/e
18). The Petition and Amended Petition are DENIED.

14a
In September 2017, Petitioner filed a pro se Petition
Under 28 U.S.C. § 2254 for Writ of Habeas Corpus By a
Person in State Custody (d/e 1). In October 2017,
Petitioner filed a corrected petition (d/e 3). The Court
directed Respondent to file an answer, motion, or
otherwise respond to the § 2254 Petition.
In February 2018, Respondent filed a Motion to
Dismiss (d/e 8), asserting that the § 2254 Petition was
time barred. Petitioner did not respond, and the Court
sua sponte extended Petitioner’s time to respond. In
May 2018, the Court granted the motion after Petitioner
failed to respond and entered judgment. See d/e 9, d/e 10.
Three days later, Petitioner filed a response with a
certificate of service signed under penalty of perjury
reflecting Petitioner timely placed the response in the
prison mail. The Court vacated the opinion and
judgment.
In June 2018, the Court directed Respondent to
address Petitioner’s newly raised claim that the lack of
library access impeded his ability to file his Petition. The
Court also directed Respondent to address the necessity
of an evidentiary hearing on the issue of statutory tolling
and whether Respondent wished to proceed on the
merits instead. Respondent failed to respond, even after
the Court sua sponte extended the time to respond. The
Court denied the motion to dismiss without prejudice,
set the matter for an evidentiary hearing on whether
Petitioner was entitled to statutory or equitable tolling,
and appointed counsel to represent Petitioner.

15a
Respondent thereafter filed a motion for leave to file
a reply, which the Court denied. In August 2018,
Respondent asked the Court to set a briefing schedule
for an Answer on the merits of the Petition. See
Response (d/e 15). Respondent asserted that
consideration of the merits and any procedural bars may
be more efficient than continued litigation of Petitioner’s
equitable tolling argument. Id. The Court set a briefing
schedule. See Minute Entry of August 28, 2018.
In January 2019, Petitioner (through counsel) filed an
Amended Petition (d/e 18) clarifying Petitioner’s
Petition (d/e 3) but not abandoning any claims.
Respondent has filed an Answer, and Petitioner has filed
a Reply.
1

Petitioner raises the following claims :
(1)

The State’s late disclosure of a mislabeling
error on documents concerning a witness’s
photo array identification and the trial court’s
failure to grant Petitioner’s request for a
continuance:
(a) denied Petitioner the due process
guaranteed to him by the Fifth and
Fourteenth Amendments to the United
States Constitution, and

1

Respondent identified these issues as those raised by Petitioner in
his Petition (d/e 3) and Amended Petition (d/e 18). Petitioner does
not assert otherwise in his Reply or indicate that Respondent
missed any of the issues raised in either the Petition (d/e 3) or the
Amended Petition (d/e 18).

16a
(b) deprived Petitioner of effective assistance of
counsel guaranteed him by the Sixth
Amendment of the United States
Constitution because of counsel’s lack of
adequate time to prepare for trial.
(2)

The State’s peremptory challenge to an African
American male violated Batson v. Kentucky,
476 U.S. 79 (1986).

(3)

The Court erred in failing to ask potential
jurors if they accepted the principles
enumerated in Illinois Supreme Court Rule
431(b).

(4)

The trial court’s admission of other crimes
evidence denied Petitioner his right to due
process and a fundamentally fair trial.

The underlying facts of this case are detailed in the
Illinois Appellate Court’s decision affirming Petitioner’s
conviction. People v. Charmell D. Brown, No. 4-10-0409
(June 10, 2011) (Fourth District) (Ex. D) (2018 WL
2187441). Because Petitioner has not rebutted those
facts by clear and convincing evidence, those facts are
presumed correct. 28 U.S.C. § 2254(e); Tayborn v Scott,
251 F.3d 1125, 1126 (7th Cir. 2001).
In January 2008, Petitioner was indicted on three
counts of first-degree murder (720 ILC 5/9-1(a)(1), (a)(2)
(West 2006) and two counts of aggravated battery with
a firearm (720 ILCS 5/12-4.2(a)(1) (West 2006) for

17a
shooting three people outside of the American Legion in
Champaign, Illinois. Ex. D at 3. One victim, Tyrone
Greer, died. Two other victims, Eric Lucas and Johnny
Valcourt, were injured. Prior to the start of defendant’s
trial, the State moved to dismiss one count of aggravated
battery with a firearm as it related to the shooting of
Valcourt.
The evidence presented at trial showed that, on
December 29, 2007, Greer and his friends were at the
American Legion celebrating a friend’s birthday:
At approximately 1 a.m., the bouncers working
security asked Greer, who was involved in some type
of verbal altercation either (there were varying
reports) with a female patron, defendant, or
defendant’s brother, Charnell Brown, who was
wearing a black fur coat that evening, to leave the
club. [LaWayne] Johnson [(Greer’s friend)]
approached as one security employee was talking
with Greer. Johnson assured the employee that
Greer would leave without incident. In the
meantime, [Tamika] Kirkwood and the rest of their
group, including Tegan Milam, gathered each other
and their belongings to leave with Greer. As Greer
and Johnson were standing outside of the club at the
front door and while other patrons were waiting in a
line to enter, Greer was shot three times in the upper
body. Two other people standing in line were shot in
the leg. Greer stumbled into the club, collapsed on
the floor, and died.
Ex. D at 5.

18a

One of Petitioner’s claim is that he was denied his
right to due process and effective assistance of counsel
when the State disclosed a mistake in the labeling of two
photo arrays and the trial court denied Petitioner’s
request for a continuance. One photo array contained
Petitioner’s photograph. The other photo array
contained Petitioner’s brother, Charnell Brown’s,
photograph. The Illinois Appellate Court provided the
following facts pertaining to the late disclosure of the
mislabeling error:
On December 7, 2009, the first day of defendant’s
trial, before jury selection, the parties presented the
trial court with various preliminary matters. The
State indicated there had been a typographical error
on the two photo arrays shown to one of the State’s
witnesses [(Tawanda Handy)]. Apparently, defense
counsel had not known there was an error and
claimed the State had violated the rules of discovery.
The State insisted that defense counsel had been
produced everything regarding the witness’s
identification of defendant as the shooter. Noting
that the parties’ explanations were “incredibly
confusing,” the trial court stated that it would allow
the State to present an “offer of proof before the jury
hears any of this testimony.” Defense counsel
requested a continuance. The court assured counsel
that should the offer of proof indicate the State had
committed a discovery violation, or what the court
called “a violation of the Brady material” (referring
to Brady v. Maryland, 373 U.S. 83 (1963)), it would

19a
impose sanctions, which could include barring the
evidence, a mistrial, or “any number of things.”
However, “on the eve of trial,” the court wanted to
hear “what it is we’re talking about.” The State again
insisted that counsel had “all the documents” and this
was something the State had “figured out in trial
preparation.”
Ex. D at 3-4.
Before Tawanda Handy testified, the Court heard
the offer of proof outside the presence of the jury:
The State called Tawanda Handy, who testified
that she was sitting at the bar at the club when she
heard an argument between two males, later
identified as defendant and Greer. She said she did
not pay much attention to them, as Greer walked
away from the argument. However, she then heard
defendant say to the man in the fur coat that security
had not searched him at the door and he had a “mf
pistol” in his sock. She said the comment alarmed her,
so she retrieved her friend and started to leave.
A few days after the incident, detectives showed
her a photo array, asking if any of those pictured
were the men she saw at the American Legion that
night. She recognized photo number four as the man
who made the comment about the gun in his sock.
From the second photo array, she recognized photo
number two as the man with the black fur coat. She
said she was not shown a list of names of the
individuals that appeared in the photo arrays. She
acknowledged signing the instruction sheets after

20a
she made her identifications. Those sheets and photo
arrays were introduced into evidence.
Detective Donald Shepard testified that he and
Detective Mary Bunyard showed Handy the photo
arrays two days after the incident at her place of
employment. The arrays were compiled by another
detective, who used two because there were two
suspects, defendant and his brother. The array identified
as photo lineup number one contained defendant’s photo
in the number four spot. Detective Shepard said Handy
pointed to photo number four and identified him as the
man who made the comment that he had a pistol in his
sock. Photo lineup number two contained Charnell
Brown’s [(Petitioner’s brother)] photo in the numbertwo spot. Handy pointed to Charnell’s photo, identified
him as the man in the fur coat, and said she knew of him
by his street name “Stretch.” Shepard said Handy did
not show any hesitancy in identifying either suspect. The
photos and the corresponding names are correct. He
watched Handy pick out the photos herself and she
completed the forms correctly.
Detective Shepard explained that the instruction and
answer sheets for each photo array got mixed up or
mislabeled. The instruction or answer sheet which
indicated that Handy had selected photo number four
had “photo array number two” written on top, when it
should have been labeled as “photo array number one.”
Detective Bunyard testified consistently with Detective
Shepard’s testimony, stating that Handy had selected
the photos of defendant and his brother and the mistake
occurred in the labeling of the responding
instruction/answer sheets.

21a
After considering this testimony, the trial court
found that, based on the testimony presented, it was the
instruction sheet that was in error and not the fact that
Handy had identified people other than defendant and
his brother. Defense counsel argued that the State acted
in bad faith in not revealing the error until the day of
trial. Counsel accused the State of intentionally
preventing him from making an argument of
misidentification and of violating the discovery rules.
The court held that the State had not committed a Brady
violation, as it did not want “to go that far,” but it had
committed a discovery violation. The court decided it
would allow Handy to testify at trial for the State about
what she saw that night, but bar any testimony
regarding her identification of defendant or his brother
from the photo arrays.
Ex. D at 5-7.

The Illinois Appellate Court detailed the following
facts that are relevant to Petitioner’s Batson claim:
Devon Ware was called by the clerk as a potential
juror in the first panel of four. [Ware was one of only
two African American males in the entire venire. Id.
at 24.] The trial court began questioning and asked
Ware general questions regarding (1) whether he
had heard anything about the case, (2) whether he
knew anyone related to the case, (3) whether he
knew anyone that was a police officer or an attorney,
and (4) if there was any reason why he would not be

22a
fair and impartial. Ware answered “no” to each
question.
The trial court noted that Ware had indicated on
a questionnaire that he or a close family member had
been a victim of a crime. He denied the crime was one
of violence and denied that it would affect his service
as a juror. The court then asked a panel of four if
anyone was familiar with the American Legion.
Ware said yes, and the other three indicated no. The
court asked Ware if he “had occasion to visit the
Legion on North Hickory?” Ware answered: “Been
on the outside. Not inside.” Ware denied that his
familiarity with the American Legion would affect
his service as a juror. The court tendered questioning
to the prosecutor, who immediately requested that
Ware be excluded, and the court obliged.
Ex. D at 27. Following Petitioner’s objection to the
exclusion of Ware, the trial court found Petitioner had
not made “a prima facie case that a discriminatory
practice is being conducted by the State.” Ex. M,
Transcript of Voir Dire at 126 (d/e 22-16 p. 141 of 325).

The Illinois Appellate Court did not summarize the
testimony of all of the witnesses but only that testimony
that was pertinent to the issues raised or necessary to
understanding of the circumstances surrounding the
incident. As is relevant herein:
Milam testified to the events fairly consistently with
the other witnesses. She said once she learned Greer

23a
had been asked to leave, she got the car keys from
Kirkwood. She walked out of the club toward the
parking lot, walking past Johnson and Greer. She
turned around to say something to Johnson when she
saw defendant and the man in the fur coat exit the
club from the side door. She saw defendant reach into
his clothes, lift his right arm, and start shooting. She
said the first shot hit Greer in the shoulder.
Defendant kept walking and shooting and eventually
stood in front of Milam while firing. The man in the
fur coat ran into the club. He came out and got into a
white car that was parked in front of the building.
Two other people standing outside were shot as well.
Milam watched defendant, who she identified in
court as the gunman, get into his car, a red or maroon
newer model car. Milam yelled at him that “he
wouldn’t get away with this one.” Defendant drove
off. Milam memorized defendant’s license plate
number by repeating it over and over until the police
arrived.
Milam testified that a few days after the incident,
Detective Nathan Rath spoke with her and showed
her a photo array. Milam chose number four as the
photo of the person who had shot Greer. She did not
recognize anyone from the second set of
photographs.
Ex. D at 9-10.
Handy testified before the jury as follows:
Handy testified that she was at the American
Legion that night. As she was sitting at the bar, she

24a
heard two men arguing, but “didn’t think anything of
it.” One was wearing a green jacket. [(Other
testimony established that Greer was wearing a
green jacket.)]. The other, she identified in open
court as defendant. A man in a black fur coat
approached. Defendant made a statement to the man
in the fur coat “that he had a pistol in his sock.” She
said his exact words were “the mother*** didn’t
search me, I have a pistol in my sock.” She said she
immediately “got up and grabbed [her] girlfriend,
and it was time to go.” By the time she had found her
girlfriend and proceeded to the front door, security
was not allowing anyone to leave. She saw the man in
the green jacket stagger into the club from the front
door. When she was able, she proceeded to her
vehicle. She said she did not see defendant or the man
in the fur coat.
On cross-examination, defendant’s counsel
questioned Handy about how she could characterize
the interchange between the two men as an
argument when she was unable to hear the exact
words exchanged and when the music was so loud.
Handy responded that the two men were very loud
and “it was apparent that they were arguing.” Handy
believed it was approximately 10 to 15 minutes
before the man in the fur coat approached defendant.
Ex. D at 11-12.
Defendant presented testimony of several witnesses,
including Jamila Thomas, who testified that she saw the
man in the black fur coat have words with a man in a
green vest (presumably Greer) outside the American

25a
Legion. She saw the man in the fur coat walk around the
corner, come back without a coat on and wearing a white
T-shirt, and open fire. Ex. D at 12. Thomas testified that
defendant was not the shooter because the shooter’s skin
tone was darker. Thomas could not pick the shooter out
of a photo array because she did not see his face. Ex. D
at 12-13.
The jury returned guilty verdicts. Petitioner filed
two posttrial motions, preserving the issues he raised on
appeal with the exception of the Rule 431(b) issue. The
trial court denied Petitioner’s posttrial motions and
sentenced Petitioner to 60 years for first-degree murder
and 30 years for aggravated battery with a firearm, to
be served consecutively. Ex. D at 13.

Petitioner filed a direct appeal, arguing:
(1) the trial court erred by rejecting Petitioner’s
continuance request on the day of jury selection
where the State disclosed for the first time that
previously provided critical identification
discovery was substantially flawed because:
(a) Petitioner was denied due process
(discovery and continuance) where critical
identification information was known to the
prosecution two months before trial but not
tendered to the defense until immediately
before jury selection;

26a
(b) Petitioner was deprived of effective
assistance of counsel when the trial court
denied Petitioner’s continuance request
based on the day-of-trial disclosure that a
prosecution witness identified defendant
from a photo spread when all prior pretrial
discovery disclosed the witness had not
identified Petitioner;
(2) the trial court failed to admonish the jury
concerning their understanding and acceptance
of Rule 431(b);
(3) the trial court erred by finding that Petitioner
failed to present a prima facie foundation for a
Batson violation;
(4) the trial court erred by allowing the introduction
of other crimes evidence by the State’s pivotal
witness, Milam; and
(5) the cumulative prosecutorial misconduct
undermined Petitioner’s right to a fair trial.
Petitioner’s Appellate Brief, Ex. A (d/e 22-2).
On June 10, 2011, the Illinois Appellate Court
affirmed. Ex. D. The bases for the Appellate Court’s
rulings will be addressed in more detail when the Court
addresses Petitioner’s claims below.
Petitioner filed a petition for leave to appeal to the
Illinois Supreme Court (Ex. E), which was denied. Ex.
F, People v. Brown, 968 N.E.2d 1067 (2012). Petitioner

27a
did not file a writ of certiorari in the United States
Supreme Court.
On March 15, 2013, Petitioner filed a postconviction
petition pursuant to 725 ILCS 5/122-1 et seq. in the
Champaign
County
Circuit
Court,
asserting
prosecutorial misconduct. See Ex. J, People v. Brown,
2015 IL App (4th) 130412-U. Petitioner asserted his trial
counsel was ineffective for failing to object and appellate
counsel was ineffective for failing to raise the
prosecutorial misconduct issue on direct appeal. Id.
On April 1, 2013, the trial court summarily denied the
postconviction petition. The Appellate Court affirmed
(Ex. J), and the Illinois Supreme Court denied
Petitioner’s petition for leave to appeal on September 30,
2015. Ex. L, People v. Brown, 39 N.E.2d 1005 (2015).
The Champaign County Circuit Clerk’s website
shows that Petitioner filed a successive postconviction
petition in October 2016, which the state court denied in
February 2017. Sangamon County Case No. 2008-CF-32
https://www.champaigncircuitclerk.org/public-courtrecords/ (last visited October 7, 2019). Respondent
contends that Petitioner’s postconviction pleadings did
not raise any claims relevant to his federal petition.

Petitioner seeks relief under 28 U.S.C. § 2254. Before
a federal court may review a claim raised in the § 2254
Motion, Petitioner must exhaust his state court
remedies. That is, Petitioner had to present each claim
in the Petition to the Illinois appellate and Illinois

28a
Supreme Courts (collectively the state courts) for a
complete round of review on direct appeal or in postconviction proceedings. Malone v. Walls, 538 F.3d 744,
753 (7th Cir. 2008). Petitioner had to present both the
operative facts and controlling legal principles
underlying each of the federal claims at issue. Id. (citing
Williams v. Washington, 59 F.3d 673, 677 (7th Cir.
1995)). If Petitioner failed to properly present his federal
claims to the state courts but there is no longer any
corrective process available to him, he has procedurally
defaulted that claim. Perruquet v. Briley, 390 F.3d 505,
513 (7th Cir. 2004) (a procedural default occurs when a
petitioner failed to present the claim to the state court
and that court would now hold the claim procedurally
barred).
If Petitioner failed to adequately present any of his
grounds for relief to the state courts, this Court may
only review such ground if Petitioner demonstrates: (1)
a cause for the failure and prejudice because of losing
review on the merits or (2) that lack of review would
result in a fundamental miscarriage of justice. Smith v.
McKee, 598 F.3d 374, 382 (7th Cir. 2010). Cause means
an objective factor, external to the defense, which
prevented Petitioner from adequately presenting the
claim to the state courts for discretionary review. Id.
Prejudice means an error that so infected the trial that
Petitioner’s conviction violated due process. Id. A
fundamental miscarriage of justice occurs only in the
extraordinary
case
that
includes
evidence
demonstrating innocence of the convicted petitioner. See
Sawyer v. Whitley, 505 U.S. 333, 339 (1992).

29a
Moreover, even if Petitioner adequately presented
his claims to the state courts, the state court’s “last
reasoned opinion on the claim” receives substantial
deference under the Antiterrorism and Effective Death
Penalty Act (“AEDPA”) of 1996. Woolley v. Rednour,
702 F.3d 411, 421 (7th Cir. 2012) (noting that deference
is applied to the “last reasoned opinion on the claim”).
The AEDPA states that this Court may not grant
habeas relief unless the state court’s decision was (1)
contrary to, or an unreasonable application of, clearly
established federal law, as determined by the United
States Supreme Court; or (2) rested on an unreasonable
factual determination in light of the evidence presented
in the state court proceeding. See 28 U.S.C. § 2254(d)(1),
(2).
A state court’s decision is contrary to clearly
established federal law if the state court applies a legal
standard inconsistent with United States Supreme
Court precedent or contradicts the Supreme Court’s
treatment of a materially identical set of facts. Bynum
v. Lemmon, 560 F.3d 678, 683 (7th Cir. 2009). A state
court’s decision is an unreasonable application of clearly
established federal law if the state court identifies the
correct legal rule but applies the legal rule in an
objectively unreasonable way. Id.
Petitioner “bears the burden of rebutting the state’s
factual findings ‘by clear and convincing evidence.’” Burt
v. Titlow, 571 U.S. 12, 18 (2013) (citing 28 U.S.C. §
2254(e)(1)). “[A] state-court factual determination is not
unreasonable merely because the federal habeas court
would have reached a different conclusion.” Burt, 571

30a
U.S. at 18 (quoting Wood v. Allen, 558 U.S. 290, 301
(2010)).
Meeting the AEDPA standard for relief is difficult:
Recognizing the duty and ability of our state-court
colleagues to adjudicate claims of constitutional
wrong, AEDPA erects a formidable barrier to
federal habeas relief for prisoners whose claims have
been adjudicated in state court. AEDPA requires “a
state prisoner [to] show that the state court’s ruling
on the claim being presented in federal court was so
lacking in justification that there was an error ...
beyond any possibility for fairminded disagreement.”
Burt, 571 U.S. at 19-20 (quoting Harrington v. Richter,
562 U.S. 86, 103 (2011)).

Petitioner argues that the failure to bar Handy’s
testimony in its entirety—as opposed to only barring
any testimony regarding Handy’s identification of
Petitioner or his brother from the photo arrays—or
grant Petitioner’s motion to continue to investigate and
prepare violated Petitioner’s fundamental right to due

31a
process and his Sixth Amendment right to counsel.
Petitioner asserts that his counsel prepared a defense,
at least in part, on mistaken identity. On the first day of
jury selection, the State disclosed a mistake in labeling
the photo arrays and disclosed that the witness, Handy,
“did not misidentify another as Petitioner.” Am. Pet. at
4. Petitioner asserts that the State knew there was no
misidentification two months prior to trial but failed to
advise Petitioner until the first day of jury selection.
The Illinois Appellate Court considered Petitioner’s
claim that he was deprived of a fair trial by the State’s
failure to timely disclose the photo-array discrepancy, an
error Petitioner claimed was compounded by the trial
court’s denial of his motion for a continuance. The
Appellate Court found that the record refuted
Petitioner’s claims that all pre-jury voir dire discovery
revealed that Handy had not identified Petitioner and
that it was not until the day of trial that defense counsel
learned that Handy identified Petitioner as the
individual claiming to have a gun in his sock. Ex. D at 15.
The Appellate Court noted that, at a pretrial hearing
in November 2008, one year before trial, defense counsel
referred to his belief that only one individual—Milam—
was shown a photo lineup. The Appellate Court found it
apparent that, at that point, defense counsel believed
Handy had not picked Petitioner’s photograph from the
array. Id. However, Detective Dale Radwin testified at
that same hearing that, from his perusal of the reports
and records in the case file, the witness seated at the bar
(Handy) had identified defendant “through a photo
spread.” Id.

32a
Moreover, the Appellate Court noted that Detective
Shepard’s December 31, 2007 interview of Handy shows
incorrectly that Handy told Shepard that photo number
four from photo array number two was the picture of the
individual who made the gun-in-his-sock comment and
photo number two from photo array number one was the
picture of the man in the black fur coat. However,
Detective Shepard’s supplemental narrative report
dated January 16, 2008—discussed further below—
should have put Petitioner on notice that Handy had, in
fact, picked defendant and his brother as the two
suspects. Petitioner did not claim that he did not receive
the 2008 report in discovery.
Detective Shepard’s 2008 supplemental narrative
report indicated that Handy identified Petitioner as the
person in the argument and who made the comment
about the pistol in his sock and identified Charnell
Brown (Petitioner’s brother) as the person wearing the
black fur coat. The report also noted that Petitioner’s
photo was photo number four in photo array number one
and Charnell Brown’s photo was photo number two in
photo array number two. The Appellate Court found the
discrepancy in labeling the two photo lineups was
apparent when comparing the transcript of the
interview to the 2008 report. Ex. D at 16 (noting “it
seemed clear that defendant’s photo appeared in spot
number four on photo array number one, not photo array
number two, as it had been labeled at the time of her
interview.”). The Appellate Court noted that this
evidence belied Petitioner’s representation that he
never knew Handy had identified Petitioner in the photo
array until the day of trial. Id. The Appellate Court

33a
concluded that, “[b]ecause this information was of
record, the clarification or explanation of the information
on the date of trial cannot be described as ‘earthshattering’ as defendant claims in his brief.” Id.
The Illinois Appellate Court agreed with the trial
court that the State should have divulged the
discrepancy when the State became aware of it but
found that Petitioner did not suffer “sufficient
prejudice.” Ex. D at 16. Petitioner had the opportunity
to notice the discrepancy and probe the State for an
explanation. Therefore, the Appellate Court found the
trial court properly denied Petitioner’s motion to dismiss
and his request for a continuance. The Appellate Court
also found the trial court did not err in prohibiting the
State from presenting testimony of Handy’s
identification of Petitioner in the photo array as a
discovery sanction because the sanction was sufficient to
cure the error and did not rise to the level of jeopardizing
Petitioner’s right to due process. Id. at 17.
In addition, the Appellate Court found that
Petitioner was not denied his right to effective
assistance of counsel based on the trial court’s denial of
his motion for continuance. Petitioner argued that the
trial court deprived him of his right to the effective
assistance of counsel by forcing counsel to proceed to
trial arguably ill-prepared based on Petitioner’s
perceived ambush by the State. The Appellate Court
found the argument without merit because Petitioner
was not prejudiced by the State’s late discovery, the
court’s denial of a continuance, or the court’s denial of
Petitioner’s motion to dismiss. Id. at 18.

34a

Petitioner argues that the trial court’s failure to bar
Handy’s testimony in its entirety violated his
fundamental right to due process of law. Petitioner cites
various Supreme Court cases for broad recitations about
due process rights and the right to a fair trial. Am. Pet.
at 5-6.
Petitioner first argues that the Illinois Appellate
Court’s decision rested on an unreasonable factual
determination. Petitioner asserts that the Appellate
Court unreasonably found that the State disclosed the
information related to the photo array significantly
before trial when the trial court determined the
disclosure was shortly before trial. Reply at 3 (d/e 23)
(noting that the trial court determined the disclosure
was shortly before trial, making the Illinois Court’s
determination that the State disclosed the information
significantly before trial without merit). This Court does
not read the Appellate Court’s ruling as stating that the
State disclosed the mislabeling significantly before trial.
In fact, the Appellate Court specially found that the
State should have divulged the discrepancy when the
State became aware of it. Ex. D at 16.
Instead, the Appellate Court found that Petitioner’s
counsel had in his possession, well before trial,

35a
information that put him on notice that Handy had
identified Petitioner as the individual who made the
comment about the gun and had picked him out of a
photo lineup, thereby refuting Petitioner’s claim he
never knew Handy identified Petitioner in the photo
array until the day of trial. Id. at 16. In addition, the
Illinois Appellate Court pointed to evidence in the
record that Petitioner had the opportunity to notice the
discrepancy and inquire of the State before building a
defense around a questionable issue. Id. at 17. Those
factual determinations were not unreasonable in light of
the evidence.
Petitioner also implicitly argues that the Illinois
Appellate Court’s application of clearly established
federal law was objectively unreasonable. Petitioner
argues that the trial court’s failure to bar Handy’s
testimony in its entirety and the failure to grant a motion
to continue violated his right to due process of law.
Generally, “[t]here is no constitutional right to
discovery in non-capital criminal cases[.]” United States
v. Cruz-Velasco, 224 F.3d 654, 665 (7th Cir. 2000) (citing
Weatherford v. Bursey, 429 U.S. 545, 559 (1977)).
Defendants do, however, have the right to receive
material exculpatory or impeachment evidence from the
prosecution for use at trial. Brady v. Maryland, 373 U.S.
83 (1963); Giglio v. United States, 405 U.S. 150 (1972).
Petitioner did not argue on direct appeal or in his
Amended Petition that the State committed a Brady
violation. In fact, Petitioner only referred to the Brady
doctrine on direct appeal as an analogy to his argument
that he was denied his right to counsel when the court
denied his continuance. Ex. A at 30. Therefore, any

36a
argument that a Brady violation occurred is
procedurally defaulted. See Perruquet, 390 F.3d at 513 (a
procedural default occurs when a petitioner failed to
present the claim to the state court and that court would
2
now hold the claim procedurally barred).
In this case, the Illinois Appellate Court found that
Petitioner did not suffer “sufficient prejudice” from the
discovery violation because the evidence belied
Petitioner’s representation that he did not know Handy
identified Petitioner in the photo array until the day of
trial and because the Petitioner had the opportunity to
notice the discrepancy in the documents. Ex. D at 16-17.
The Appellate Court further found that the sanction for
the late discovery disclosure—exclusion of the photo
identification at trial—cured the error and did not rise
to the level of jeopardizing Petitioner’s right to due
process.
This Court finds that the Illinois Appellate Court’s
was (1) not contrary to, nor an unreasonable application
of, clearly established Supreme Court precedent; and (2)
did not rest on an unreasonable factual determination in
light of the evidence. As noted above, Petitioner had
received discovery showing, well before trial, that
Handy positively identified Defendant as the person
that was in the argument with the victim and made the
2

Cf. United States v. Dixon, 790 F.3d 758, 759 (7th Cir. 2015)
(rejecting argument that prosecutor violated Brady because the
“potentially exculpatory fact was disclosed in time to be used at
trial”); U.S. v. Grintjes, 237 F.3d 876, 880 (7th Cir. 2001) (holding
that “Brady does not apply to evidence that a defendant would have
been able to discover himself through reasonable diligence”)

37a
comment that he had a pistol in his sock and identified
Petitioner’s brother as the person wearing the black fur
coat. That information was contained in Detective
Shepard’s January 16, 2008 supplemental report. And,
while Petitioner did not know of the mislabeling of the
photo arrays until the first day of trial, the trial court
barred the State from presenting testimony regarding
Handy’s identification of Petitioner and his brother in
the photo arrays as a discovery sanction. Petitioner was,
therefore, not prejudiced by the late disclosure of the
mislabeling and was not denied his right to a fair trial.

Petitioner also argues that he was denied his Sixth
Amendment right to counsel when the trial court failed
to continue the trial due to the late disclosure of the
mislabeling. The Sixth Amendment, applicable to the
States under the Fourteenth Amendment, provides that
“[i]n all criminal prosecutions, the accused shall enjoy
the right . . . to have the Assistance of Counsel for his
defence.” U.S. Const. amend. VI. This right to counsel
includes the right to the effective assistance of counsel.
See Strickland v. Washington, 466 U.S. 668, 686 (1984).
A defendant claiming that he was denied the
effective assistance of counsel must generally show that
counsel’s performance was deficient and that the
defendant was prejudiced by counsel’s deficient

38a
performance. Strickland, 466 U.S. at 687. The Supreme
Court has recognized, however, that some
circumstances are so egregious that a defendant is not
required to show deficient performance or prejudice,
such as when a defendant is completely denied counsel
or counsel “entirely fails to subject the prosecution’s
case to meaningful adversarial testing.” United States v.
Cronic, 466 US. 648, 659 (1984). Such circumstances may
also exist where, even though the defendant has counsel,
“the likelihood that any lawyer, even a fully competent
one, could provide effective assistance is so small that a
presumption of prejudice is appropriate without inquiry
into the actual conduct of the trial.” Id. at 559-60 (citing
Powell v. Alabama, 287 U.S. 45 (1932) (wherein counsel
was appointed on the day of trial)). The Seventh Circuit
has noted that in some circumstances, denying a motion
to continue can be “tantamount to the denial of counsel.”
United States v. Rodgers, 755 F.2d 533, 540 (7th Cir.
1985).
Petitioner argued on direct appeal that the trial
court’s failure to grant his counsel a continuance due to
the late disclosure of the mislabeling was tantamount to
the denial of counsel. On direct appeal, the Illinois
Appellate Court rejected Petitioner’s argument that the
“trial court deprived him of his right to the effective
assistance of counsel by forcing him to proceed to trial
arguably ill-prepared based on [Petitioner’s] perceived
ambush by the State.” Ex. D at 18. The Appellate Court
found, as explained in the discussion regarding
Petitioner’s due process claim, that Petitioner was not
prejudiced by the State’s late disclosure, the denial of a

39a
continuance, or the denial of Petitioner’s motion to
dismiss. Id.
The Illinois Appellate Court’s decision was neither
contrary to, nor an unreasonable application of, clearly
established United States Supreme Court precedent or
based on an unreasonable factual determination in light
of the evidence. The Appellate Court found that
Petitioner knew Handy identified him well before trial
and had the opportunity to notice the discrepancy
regarding the photo arrays. Moreover, the trial court
excluded testimony regarding Handy’s identifications of
Petitioner and his brother in the photo arrays. The
circumstances of this case are simply not so egregious to
presume prejudice. See Rodgers, 755 F.2d at 540
(prejudice was not presumed where the trial court
denied a continuance after the attorney was appointed
to represent the defendant two days before jury
selection began and four days before the actual trial
commenced, noting that the circumstances were not “so
horrendous as to raise a presumption of prejudice”
because the case was not complicated and the case had
already been prepared by previous counsel). Petitioner
is not entitled to habeas relief based on the late
disclosure of the mislabeling of the photo arrays and the
denial of the motion to continue.

Petitioner, who is African American, argues that the
prosecution’s use of a peremptory challenge to strike
Devon Ware, one of two African Americans in the jury
venire, violated Petitioner’s right to a fundamentally fair

40a
trial and right to have no juror struck for a
discriminatory purpose.
In Batson v. Kentucky, 476 U.S. 79 (1986), the United
States Supreme Court held that the “Equal Protection
Clause forbids the prosecutor to challenge potential
jurors solely on account of their race or on the
assumption that black jurors as a group will be unable
impartially to consider the State’s case against a black
defendant.” 476 U.S. at 89. In fact, the “Constitution
forbids striking even a single prospective juror for a
discriminatory purpose.” Snyder v. Louisiana, 552 U.S.
472, 478, (2008) (internal quotation marks omitted).
When analyzing a Batson claim, the court applies a
three-step analysis applies. First, the defendant must
make a prima facie showing that a preemptory challenge
was exercised on the basis of race. Rice v. Collins, 546
U.S. 333, 338 (2006). The burden then shifts to the
prosecution to present a race neutral explanation for the
use of the peremptory challenge. Id. If the prosecution
does so, the court must determine whether the
defendant has proven purposeful discrimination. Id.
To make a prima facie showing, the defendant must
show “the totality of the relevant facts give rise to an
inference of discriminatory purpose.” Batson, 476 U.S.
at 94. The burden is light but is still an “essential part of
the Batson framework.” Bennett v. Gaetz, 592 F.3d 786,
791 (7th Cir. 2010) (noting that the trial court may
“justifiably demand” that defendants meet this burden
before requiring prosecutors to articulate their reasons
for striking a juror). A defendant can make this showing
by, for example, proof of systematic exclusion of African

41a
Americans from the venire; proof that African
Americans were substantially unrepresented on the
venire from which his jury was drawn; a pattern of
strikes against African Americans in the particular
venire; and by showing that the prosecutor’s questions
and statements during voir dire and in exercising
challenges support an inference of discrimination. See
Batson, 476 U.S. at 95, 96-97; Flowers v. Mississippi, 139
S. Ct. 2228, 2243 (2019). Other relevant factors include
whether the victim and witnesses are African American;
the percentage of preemptory challenges the
prosecution used on African Americans; whether the
prosecution exhausted its preemptory challenges to
exclude all African Americans; and any disparity
between the percentage of African Americans on the
jury as compared to the venire. See Franklin v. Sims,
538 F.3d 661, 666 (7th Cir. 2008); Bennett, 592 F.3d at
791-92.
In this case, the trial court ruled that Petitioner
failed to establish a prima facie case of discrimination
under Batson. On direct appeal, the Illinois Appellate
Court analyzed the issue under Batson and affirmed the
trial court’s finding that Petitioner failed to demonstrate
a prima facie case of discrimination. Ex. D at 28. The
Appellate Court noted the relevant factors for
considering whether Petitioner made a prima facie
showing, considered the record pertaining to the voir
dire proceedings, and concluded the trial court correctly
found that Petitioner failed to establish a prima facie
case for a Batson violation. Id. 26-28. The court found no
evidence of a pattern of striking African Americans from
the jury and no evidence of a disproportionate number

42a
of strikes used against African Americans. The
Appellate Court further found the other factors “were
unremarkable in the overall context of this case.” Id. at
28. The Appellate Court noted that Ware’s responses to
the voir dire questions indicated significant and
legitimate differences that distinguished him from other
potential jurors. Therefore, the Appellate Court
concluded that Petitioner failed to sustain his burden of
demonstrating a prima facie case of racial discrimination
in the jury selection process. Id.
The only arguments Petitioner makes to suggest that
the Appellate Court’s decision was an unreasonable
application of Supreme Court precedent or resulted in a
decision based on an unreasonable determination of the
facts are that the prosecutor did not ask Ware any
questions before excusing Ware; another juror, Ms.
Chavarria, who had some knowledge of the location, was
accepted as a juror but excluded later for a different
reason; and there were only two African Americans in
the venire, making the striking of Ware without asking
any questions objectively unreasonable. Notably, the
parties do not indicate, and the record does not reflect,
whether the other African American was examined,
struck, or made a part of the jury.
After reviewing the record, this Court concludes that
Petitioner has not established that the Illinois Appellate
court’s decision was contrary to the holding in Batson or
included an unreasonable determination of the facts in
light of the record in this case. Here, the prosecutor
struck one of two African American venirepersons.
However, Petitioner must do more than point to the fact
that the prosecutor exercised a peremptory strike on an

43a
African American venireperson to establish a prima
facie case. Anderson v. Cowan, 227 F.3d 893, 902 (7th
Cir. 2000) (citing (United States v. Cooke, 110 F.3d 1288,
1301 (7th Cir. 1997)). He must also “show that the facts
and ‘any other relevant circumstances’ raise an inference
of discriminatory practice by the prosecutor.” Id.
Petitioner does not identify any questions by the
prosecutor at any time during voir dire that support an
inference of racial discrimination. Mr. Ware answered a
question asked of all of the venirepersons—whether he
was familiar with the American Legion—in a manner
different than the other venirepersons. Mr. Ware had
been to the outside of the American Legion, and the
shooting in question took place on the outside the
American Legion. The other venireperson who indicated
a familiarity with the American Legion was only familiar
with the address and had never been there. Ex. D at 27;
see Henderson v. Briley, 354 F.3d 907, 910 (7th Cir. 2004)
(comparative evidence between struck jurors and
empaneled jurors is relevant at the prima facie stage).
Nothing about this question—and the failure of the
prosecutor to ask Mr. Ware additional questions—
supports an inference of racial discrimination. See, e.g.,
Bennett, 592 F.3d 791-92 (finding the petitioner was not
entitled to habeas relief where the only real evidence of
discrimination the petitioner offered was that the
prosecution used two of its four peremptory challenges
against African Americans, who comprised just 5 of the
28 venire members, and three other African Americans
were not excluded by the prosecution). Petitioner is,
therefore, not entitled to habeas relief on his Batson
claim.

44a

Petitioner claims that the trial court failed to comply
with Illinois Supreme Court Rule 431(b) when the court
asked venire members if they understood the
presumption of innocence but failed to further ask if they
accepted that principle. See Illinois Supreme Court Rule
431(b) (requiring the court ask each potential juror if he
or she understands and accepts that the defendant is
presumed innocent, the State must prove the defendant
guilty beyond a reasonable doubt, the defendant is not
required to offer evidence on his or her own behalf, and
that a defendant’s failure to testify cannot beheld
against him or her).
Respondent argues that this claim is not cognizable
because the claim only concerns a state-law issue. The
Court agrees.
A state prisoner may obtain federal habeas relief
“only on the ground that he is in custody in violation of
the Constitution or laws or treaties of the United
States.” 28 U.S.C. § 2254(a). A violation of Illinois
Supreme Court Rule 431(b) does not implicate a
fundamental right or constitutional protection and only
involves a violation of the Illinois Supreme Court rules.
Rosario v. Akpore, 967 F. Supp. 2d 1238, 1250 (N.D. Ill.
2013); see also Harris v. Harrington, No. 13-CV-2105,
2014 WL 1304995, at *4 (C.D. Ill. Apr. 1, 2014) (“There is
no federal right to have potential jurors questioned in
the manner set out in Illinois Supreme Court Rule
431(b), and Petitioner has relied solely on Rule 431(b) in

45a
making his argument.”). Therefore, this claim is not
cognizable on habeas review.

Petitioner last argues that the trial court’s admission
of other-crimes evidence denied Petitioner his right to
due process and a fundamentally fair trial, when taken
with the other violations herein, because the evidence
had no probative value and served only to suggest
Petitioner committed the offense charged.
Respondent argues that the claim is procedurally
defaulted because the state court rejected the claim on
an independent and adequate state law ground.
On direct appeal, Petitioner argued that the trial
court erred in allowing Milam to introduce evidence of
Petitioner’s other crimes. Milam testified she told
Petitioner, as she followed him to his vehicle after she
watched him shoot Greer, that “he wouldn’t get away
with this one.” See Ex. D at 28. Defense counsel objected,
stating, “This is self-serving testimony. It’s—it’s going
to try to bolster the credibility of whatever this witness
may say—[.]” Id. The trial court overruled the objection.
Petitioner also claims in his Amended Petition that the
prosecutor reminded the jury of Milam’s testimony by
saying, “She tells him, you’re not going to get away with
this.” Id.
The Illinois Appellate Court found that Petitioner
forfeited the argument on appeal because counsel did not
object on the basis that Milam’s testimony constituted

46a
other-crimes evidence. Ex. D at 29. Petitioner also did
not raise the claim in his posttrial motion. Id.
Federal habeas review of a claim is foreclosed if the
state court resolved the federal claim by relying on an
independent and adequate state law ground. Kaczmarek
v. Rednour, 627 F.3d 586, 591 (7th Cir. 2010). A state law
ground is independent “when the court actually relied on
the procedural bar as an independent basis for its
disposition of the claim.” Id. at 592. A state law ground
is adequate “when it is a firmly established and regularly
followed state practice at the time it is applied.” Id.
Here, the Appellate Court actually relied on the
procedural bar as an independent basis for its disposition
of Petitioner’s other-evidence claim. Moreover, the
forfeiture rule requiring a defendant to object at trial
and include the objection in a posttrial motion is an
adequate state law ground. Gray v. Pfister, 6 F. Supp. 3d
871, 886 (C.D. Ill. 2013); see also Miranda v. Liebach, 394
F.3d 984, 997 (7th Cir. 2005) (finding the Illinois
Appellate Court’s disposition of the claim rested on an
adequate and independent state ground—that the
petitioner waived the claim when he failed to assert it in
a posttrial motion for a new trial as required by Illinois
law). Therefore, this claim is procedurally defaulted.
Johnson v. Loftus, 518 F.3d 453, 455 (7th Cir. 2008) (“A
procedural default also occurs when a state court
disposes of a claim on an independent and adequate state
ground.”).
A petitioner can overcome a default by showing good
cause for the default and resulting prejudice or by
showing a fundamental miscarriage of justice would

47a
result if the claim were not addressed on the merits.
Smith, 598 F.3d at 382. Petitioner has made no effort to
make such a showing on this claim. Therefore, Petitioner
is not entitled to relief on his claim that the admission of
other-crimes evidence denied him a fair trial because the
claim is procedurally defaulted.

Pursuant to Rule 11(a) of the Rules Governing § 2254
Proceedings, this Court must “issue or deny a certificate
of appealability when it enters a final order adverse to
the applicant.” When a district court rejects the
constitutional claims on the merits, a certificate of
appealability may be issued if the petitioner shows “that
reasonable jurors would find the district court’s
assessment of the constitutional claims debatable or
wrong.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
Where a district court dismisses the petition based on
procedural grounds, a certificate of appealability should
issue only when the petitioner shows both “that jurists
of reason would find it debatable whether the petition
states a valid claim of the denial of a constitutional right
and that jurists of reason would find it debatable
whether the district court was correct in its procedural
ruling.” Id. at 484; see also Jimenez v. Quarterman, 555
U.S. 113, 118 n.3 (2009). Applying these standards, the
Court GRANTS a certificate of appealability on the
Batson issue but declines to grant a certificate of
appealability on the remaining issues.

48a
For the reasons stated, Petitioner’s Petition Under
28 U.S.C. § 2254 for Writ of Habeas Corpus by a Person
in State Custody (Petition) (d/e 3) and Amended Petition
Under 28 U.S.C. § 2254 for Writ of Habeas Corpus by a
Person in State Custody (d/e 18) are DENIED. The
Court GRANTS a certificate of appealability on the
Batson issue but declines to grant a certificate of
appealability on the remaining issues. This case is closed.

49a
NO. 4-10-0409
IN THE APPELLATE COURT
OF ILLINOIS
FOURTH DISTRICT
THE PEOPLE OF THE
STATE OF ILLINOIS,
Plaintiff-Appellee,
v.
CHARMELL D. BROWN,
Defendant-Appellant.

)
)
)
)
)
)
)
)
)

Appeal from
Circuit Court of
Champaign County
No. 08CF32
Honorable
Thomas J. Difanis,
Judge Presiding.

JUSTICE APPLETON delivered the judgment of
the court.
Justice McCullough concurred in the judgment.
Justice Pope specially concurred in the judgment.

Held: 1. Where defendant failed to demonstrate that he
was prejudiced by the State’s late disclosure of
certain discovery material, the trial court did not
err in denying defendant’s motion to continue the
trial; nor was defendant denied the effective
assistance of counsel based on counsel’s lack of

50a
adequate time to prepare for trial in light of the
late disclosure.
2. The trial court erred in failing to fully comply
with Supreme Court Rule 431(b) admonishments
during voir dire; however, defendant forfeited
review of the issue by failing to object. The issue
was not reviewable under the plain-error
doctrine because the evidence was not closely
balanced and the error was not so serious that it
denied defendant a substantial right.
3. Defendant failed to demonstrate a prima facie
case of racial discrimination in the jury-selection
process when the State excused an AfricanAmerican male from service.
4. Defendant forfeited his claim that the trial
court improperly allowed the introduction of
evidence at trial tending to demonstrate
defendant’s involvement in other crimes.
5. Defendant failed to demonstrate that the
prosecutor engaged in any misconduct during the
trial-court proceedings.
In this direct appeal, from a jury’s verdict, finding
defendant, Charmell D. Brown, guilty of first-degree
murder and aggravated battery with a firearm, he raises
several contentions of reversible error. First, he claims
the trial court erred in failing to allow his attorney time
to adequately prepare for trial when the State, on the
day of trial, revealed there had been a mix-up in the

51a
paperwork related to a witness’s identification of
defendant from a photo array.
Second, he claims the trial court failed to fully comply
with Illinois Supreme Court Rule 431(b) (eff. May 1,
2007) during voir dire by failing to ask each individual
juror if he or she accepted the four principles set forth in
that rule. Third, he challenges the State’s use of one of
its preemptory challenges during jury selection. The
State asked that an African-American male be excused
from service. Defendant objected on the basis that the
State’s decision was based solely on potential juror’s
race. The trial court overruled defendant’s objection,
finding defendant had failed to make a prima facie case
of racial discrimination. Here, defendant challenges that
decision.
Fourth, defendant claims that the trial court erred in
allowing one of the States witnesses, the eyewitness to
the shooting, make a comment on the witness stand that
could reasonably be interpreted to imply that defendant
had been involved in other crimes, including other
murders. Defense counsel objected at the time, but not
on the grounds that the testimony constituted othercrimes evidence. Because defendant did not challenge
the testimony on the same grounds as he does in this
appeal, we find he forfeited that issue for review.
Fifth, defendant claims that the prosecutor’s
(1) failure to reveal, until the day of trial, there was a
mistake on the photo array, (2) failure to agree that
defendant should be granted a continuance to
adequately prepare for trial in light of the State’s late
disclosure, (3) intentional withholding of the information

52a
until the day of trial, (4) failure to correct the trial court’s
admonitions to the jury of the four principles set forth in
Rule 431(b), (5) request to remove an African-American
male as a juror, (6) motive in eliciting other-crimes
evidence from the State’s pivotal witness and repeating
that testimony to the jury during closing arguments, and
(7) use of a photograph of the decedent during closing
arguments, when taken together, constituted
prosecutorial misconduct and served to undermine
defendant’s right to a fair trial. Because we disagree that
any of the above-claimed errors jeopardized defendant’s
right to a fair trial, we affirm defendant’s convictions.

In January 2008, defendant was indicted on three
counts of first-degree murder (720 ILCS 5/9-1(a)(1),
(a)(2) (West 2006)) and two counts of aggravated battery
with a firearm (720 ILCS 5/12-4.2(a)(1) (West 2006)) for
shooting three people outside of the American Legion
hall (also referred to as the club) in Champaign. One
victim, Tyrone Greer, died and the other two victims,
Eric Lucas and Johnny Valcourt, were injured. Prior to
the start of defendant’s trial, the State announced it was
dismissing one count of aggravated battery with a
firearm as it related to the shooting of Valcourt.
On December 7, 2009, the first day of defendant’s
trial, before jury selection, the parties presented the
trial court with various preliminary matters. The State
indicated there had been a typographical error on the
two photo arrays shown to one of the State’s witnesses.
Apparently, defense counsel had not known there was
an error and claimed the State had violated the rules of

53a
discovery. The State insisted that defense counsel had
been produced everything regarding the witness’s
identification of defendant as the shooter. Noting that
the parties’ explanations were “incredibly confusing,”
the trial court stated that it would allow the State to
present an “offer of proof before the jury hears any of
this testimony.” Defense counsel requested a
continuance. The court assured counsel that should the
offer of proof indicate the State had committed a
discovery violation, or what the court called “a violation
of the Brady material” (referring to Brady v. Maryland,
373 U.S. 83 (1963)), it would impose sanctions, which
could include barring the evidence, a mistrial, or “any
number of things.” However, “on the eve of trial,” the
court wanted to hear “what it is we’re talking about.”
The State again insisted that counsel had “all the
documents” and this was something the State had
“figured out in trial preparation.”
The trial court proceeded with the selection of the
jury. The pertinent facts related to the court’s voir dire
as it relates to defendant’s Rule 431(b) claim of error and
the facts related to his Batson challenge are set forth in
the respective section in which we analyze defendant’s
claims of error below.
The trial continued over the course of eight days with
a total of 33 witnesses testifying. Defendant did not
testify. As the testimony of a number of the witnesses is
of little, consequence to our decision, we will summarize
in detail only that which is either pertinent to the issues
discussed below or necessary to an understanding of the
circumstances surrounding the incident.

54a
On December 29, 2007, Tyrone Greer, who lived in
Springfield, had traveled with a group of friends to
Champaign where Tamika Kirkwood lived. Kirkwood
had planned a birthday celebration at the American
Legion for her brother, LaWayne Johnson, Greer’s
friend, who also lived in Springfield. The group of friends
met at Kirkwood’s house and then arrived at the club at
approximately 11 p.m. Apparently, the club was open to
the public, as there were several other birthday
celebrations occurring at the same time. By all accounts,
it was fairly crowded by midnight. At approximately I
a.m., the bouncers working security asked Greer, who
was involved in some type of verbal altercation either
(there were varying reports) with a female patron,
defendant, or defendant’s brother, Charnell Brown, who
was wearing a black fur coat that evening, to leave the
club. Johnson approached as one security employee was
talking with Greer. Johnson assured the employee that
Greer would leave without incident. In the meantime,
Kirkwood and the rest of their group, including Tegan
Milam, gathered each other and their belongings to leave
with Greer. As Greer and Johnson were standing outside
of the club at the front door and while other patrons
were waiting in a line to enter, Greer was shot three
times in the upper body. Two other people standing in
line were shot in the leg. Greer stumbled into the club,
collapsed on the floor, and died.
Before summarizing the specific testimony
presented at trial, we will summarize the testimony
presented as part of the State’s offer of proof, which
occurred in the middle of the trial. The State called
Tawanda Handy, who testified that she was sitting at

55a
the bar at the club when she heard an argument between
two males, later identified as defendant and Greer. She
said she did not pay much attention to them, as Greer
walked away from the argument. However, she then
heard defendant say to the man in the fur coat that
security had not searched him at the door and he had a
“‘mf pistol”’ in his sock. She said the comment alarmed
her, so she retrieved her friend and started to leave.
A few days after the incident, detectives showed her
a photo array, asking if any of those pictured were the
men she saw at the American Legion that night. She
recognized photo number four as the man who made the
comment about the gun in his sock. From the second
photo array, she recognized photo number two as the
man with the black fur coat. She said she was not shown
a list of names of the individuals that appeared in the
photo arrays. She acknowledged signing the instruction
sheets after she made her identifications. Those sheets
and photo arrays were introduced into evidence.
Detective Donald Shepard testified that he and
Detective Mary Bunyard showed Handy the photo
arrays two days after the incident at her place of
employment. The arrays were compiled by another
detective, who used two because there were two
suspects, defendant and his brother. The array identified
as photo lineup number one contained defendant’s photo
in the number-four spot. Detective Shepard said Handy
pointed to photo number four and identified him as the
man who made the comment that he had a pistol in his
sock. Photo lineup number two contained Charnell
Brown’s photo in the number-two spot. Handy pointed
to Charnell’s photo, identified him as the man in the fur

56a
coat, and said she knew of him by his street name
“Stretch.” Shepard said Handy did not show any
hesitancy in identifying either suspect. The photos and
the corresponding names are correct. He watched
Handy pick out the photos herself and she completed the
forms correctly.
Detective Shepard explained that the instruction and
answer sheets for each photo array got mixed up or
mislabeled. The instruction or answer sheet which
indicated that Handy had selected photo number four
had “photo array number two” written on top, when it
should have been labeled as “photo array number one.”
Detective Bunyard testified consistently with Detective
Shepard’s testimony, stating that Handy had selected
the photos of defendant and his brother and the mistake
occurred in the labeling of the corresponding
instruction/answer sheets.
After considering this testimony, the trial court
found that, based on the testimony presented, it was the
instruction sheet that was in error and not the fact that
Handy had identified people other than defendant and
his brother. Defense counsel argued that the State acted
in bad faith in not revealing the error until the day of
trial. Counsel accused the State of intentionally
preventing him from making an argument of
misidentification and of violating the discovery rules.
The court held that the State had not committed a Brady
violation, as it did not want “to go that far,” but it had
committed a discovery violation. The court decided it
would allow Handy to testify at trial for the State about
what she saw that night, but bar any testimony-

57a
regarding her identification of defendant or his brother
from the photo arrays.
As for the evidence presented at trial, the State
called Robert Sallee, manager at the American Legion,
who described the general layout of the club for the jury.
The interior was comprised of two separate areas
separated by a fireplace. One side contained the bar and
the other side, the dance floor. According to Sallee,
sometime during the night, security personnel became
aware of a problem between Greer and a female patron.
They asked Greer to leave and he did so in a cooperative
manner. Approximately 20 minutes later, Sallee said he
was notified there had been a shooting outside. He saw
Greer stumble into the club and collapse on the floor. He
then saw a man, who was approximately 23 or 24, dark
skinned, 170 to 180 pounds, 6 feet tall in a black fur coat
standing over Greer. The man mumbled something and
then left.
Vernon King, one of Greer’s friends who had also
traveled from Springfield for Johnson’s party, testified
that he saw Greer talking to security, while a friend was
trying to get Greer to “calm down.” Greer had said he
“got into it with somebody” at the bar. He pointed to the
man with a black fur coat. King saw the two stare at each
other, but did not see any physical altercation. King said
Greer and Johnson walked out of the club while he
gathered everyone else to join them. As he was doing so,
King heard gunshots and saw Greer stumble back into
the club. King saw the man Greer “was in conflict with”
come back inside the club, screaming “‘that’s what you
get mother f***.’” The man, wearing the black fur coat,
turned around and left. King rushed over to Greer and

58a
saw blood coming from his mouth. King, another man,
and a female began performing cardiopulmonary
resuscitation (CPR) on Greer. When paramedics
arrived, they took over assisting Greer, and everyone
was told to leave the premises.
Alvin Mims, Johnson’s and Kirkwood’s brother who
was also at the party, testified that Greer had
mistakenly bumped into a female on the dance floor.
They exchanged words. Greer left the dance floor and
went to the bar. The female followed Greer and they
exchanged more words. Security then asked Greer to
leave the club. Mims said he started “rounding
everybody up” to leave. Mims was standing by the door
when he heard gunshots. He said he saw Greer run back
inside the club after being shot. Mims said he could not
describe “what the guy looked like[,] but some guy ran
in behind him, in a black coat, stood over him and said a
few words to him that was very disrespectful.” Mims had
seen the man in the coat earlier standing inside the club,
but had not seen any altercation between him and Greer.
After the man said the few words while standing over
Greer, he “ran back out” and “jump[ed] in a white car
with some rims on it, and drove off.” On crossexamination, Mims admitted he had told the detectives
during their investigation that the man in the black coat
had something black in his hand when he came back into
the club.
Kirkwood testified that at the time of the incident
she was dating Greer. She had not seen any altercation
between Greer and anyone at the party. She said the
bouncer informed her that Greer needed to leave the
club. She started “round[ing] up the crowd” to leave. She

59a
handed her keys to Tegan Milam to warm up the car. As
they were getting ready to go out the door, Greer “was
running in the door.” Kirkwood ran out the door, looking
for Johnson. She saw Milam, who she described as
“hysterical” and “yelling out a license plate number.”
Milam told Kirkwood that Greer had been shot. Milam
repeated the license plate number over and over until
the police arrived.
Johnson testified that he saw Greer talking to
security. He approached them and discovered that
security was “putting [Greer] out” of the club. He took
Greer outside after telling Kirkwood to gather everyone
else so they could leave. Johnson and Greer stopped
outside the front door to wait for everyone else. Johnson
asked Greer to explain what had happened inside. As he
was doing so, Johnson heard gunshots: He saw two
people, but did not see the person who had fired the gun.
Greer was shot. Johnson at first ran away from the area,
but he then went back inside the club to check on his
friends. He saw Greer lying on the floor inside with a
female and King performing CPR. On crossexamination, Johnson recalled that he had told the
detectives that there were two people shooting.
Milam testified to the events fairly consistently with
the other witnesses. She said once she learned Greer had
been asked to leave, she got the car keys from Kirkwood.
She walked out of the club toward the parking lot,
walking past Johnson and Greer. She turned around to
say something to Johnson when she saw defendant and
the man in the fur coat exit the club from the side door.
She saw defendant reach into his clothes, lift his right
arm, and start shooting. She said the first shot hit Greer

60a
in the shoulder. Defendant kept walking and shooting
and eventually stood in front of Milam while firing. The
man in the fur coat ran into the club. He came out and
got into a white car that was parked in front of the
building. Two other people standing outside were shot
as well. Milam watched defendant, who she identified in
court as the gunman, get into his car, a red or maroon
newer model car. Milam yelled at him that “he wouldn’t
get away with this one.” Defendant drove off. Milam
memorized defendant’s license plate number by
repeating it over and over until the police arrived.
Milam testified that a few days after the incident,
Detective Nathan Rath spoke with her and showed her
a photo array. Milam chose number four as the photo of
the person who had shot Greer. She did not recognize
anyone from the second set of photographs.
Richard Carroll, a Champaign police officer, testified
that he was patrolling near the American Legion. He
heard an officer call for backup regarding the shooting.
When he got to the club, Milam and Kirkwood
approached. Milam was repeating what he learned was a
license plate number of a suspect. Officer Carroll
repeated the information over the police radio.
Kirkwood described a white car. Milam corrected her,
telling Kirkwood that the shooter got into a red or
maroon car with the license plate number she had
memorized. Officer Carroll described both vehicles over
the radio.
Eric Lucas testified that he had arrived at the
American Legion by himself at approximately 12 a.m.
He was waiting in line to get in when he heard gun shots

61a
but did not see who was shooting. He started running
when he was shot in the leg. He was treated and released
from Carle Hospital.
Detective Rath testified that he went to Carle
Hospital immediately after the shooting to talk with
Milam. The next day, he met with Milam to show her a
photo array. Showing her the first photo array, Milam
immediately pointed to defendant’s photo (photo
number four), stating ‘“oh, my God. That’s him. Oh, my
God.” In the original photo array that Rath showed
Milam immediately following the incident at the
hospital, Milam was unable to identify a suspect. Rath
said defendant’s photo was not included in that array.
Dr. John Scott Denton, a forensic pathologist, testified
that he performed the autopsy on Greer, who had
suffered three gunshot wounds. According to Dr.
Denton, it appeared Greer had been shot from more than
18 to 24 inches away. He had one gunshot wound in his
back where the bullet had traveled through his aorta,
one on his shoulder, and one in his upper arm. According
to Dr. Denton, Greer died from all three gunshot
wounds.
Brian Long, a forensic scientist with the Illinois State
Police, testified that he found no fingerprints on the four
bullet casings that he had examined. Caroline Kersting,
another forensic scientist, testified that the four bullets
had been fired from the same weapon.
Detective Mary Bunyard testified that she was
present when Charnell Brown was arrested in relation
to this incident. At the time, she took into evidence a
black fur coat and two T-shirts.

62a
Finally, for the State, Twanda [sic] Handy testified
that she was at the American Legion that night. As she
was sitting at the bar, she heard two men arguing, but
“didn’t think anything of it.” One was wearing a green
jacket. The other, she identified in open court as
defendant. A man in a black fur coat approached.
Defendant made a statement to the man in the fur coat
“that he had a pistol in his sock.” She said his exact
words were “‘the mother*** didn’t search me, I have a
pistol in my sock.”’ She said she immediately “got up and
grabbed [her] girlfriend, and it was time to go.” By the
time she had found her girlfriend and proceeded to the
front door, security was not allowing anyone to leave.
She saw the man in the green jacket stagger into the
club from the front door. When she was able, she
proceeded to her vehicle. She said she did not see
defendant or the man in the fur coat.
On
cross-examination,
defendant’s
counsel
questioned Handy about how she could characterize the
interchange between the two men as an argument when
she was unable to hear the exact words exchanged and
when the music was so loud. Handy responded that the
two men were very loud and “it was apparent that they
were arguing.” Handy believed it was approximately 10
to 15 minutes before the man in the fur coat approached
defendant.
Defendant presented the testimony of Stephen
Campbell, who testified that he was working as security
for the American Legion on the night of the incident.
Campbell noticed a man (presumably Greer)
continuously bumping into people on the dance floor.
Campbell asked him to go sit down. He did, but not long

63a
after, he was on the dance floor again “causing
problems.” Campbell led the man off the floor over to the
bar area. The man told two girls that “he was going to
slap them.” Campbell said that was “the last time, he was
going to have to leave.” Campbell escorted him to the
front door and asked him to wait until he could get
someone else to “take him out.” Campbell went to find a
member of the man’s party. He said by the time he got
back, the man “ran back in” and “was on the floor.”
Someone told Campbell the man had walked outside on
his own and had been shot.
Jamila Thomas testified that she was at the
American Legion that night celebrating another
birthday. As she was trying to leave the club, she was
stopped “because there was a guy out of control.” She
was told to wait “until they get him out the door.” She
described the man as wearing a green vest (presumably
Greer). She believed he “had got a little too tipsy in the
club.” When she was cleared to go, the man was standing
outside. A man in a black fur coat was standing with the
man in the green vest. “They were having words with
each other.” Thomas got in her car, but saw the man in
the fur coat walk around the corner. He came back
“without a coat on, and just opened fire towards the door
where people were standing.” When he came back, he
was wearing a white T-shirt. After he fired his gun, he
went back around the corner, got into a older-model
Pontiac or Oldsmobile four-door car, and left.
Thomas testified that the detectives had shown her a
photo array of 12 individuals, but she was unable to
identify any of them as the shooter. Defendant’s counsel
asked Thomas if defendant was the shooter. She said:

64a
“No (shakes head back and forth) I don’t, no, no he’s not
even the right color. I didn’t see his skin tone color. It
was darker.” However, on cross-examination, Thomas
admitted that she could not pick the shooter out of the
photo array because she did not see his face.
Jeffrey Palmer, a private investigator, testified that
he investigated this case at defense counsel’s request. In
April 2008, Palmer had contacted Milam, the eyewitness
to the shooting, and scheduled a time to meet with her.
Shortly before the meeting time, Milam called Palmer
and said she had spoken with someone who had informed
her that Palmer was “working for the other side” and
told her not to speak about the case. Milam refused to
provide any details of the incident. However, she did say
that, in her opinion, the police had not done a “complete
job, that there should have been more people in custody
relating to the incident.”
After Palmer’s testimony, the defense rested. The
trial court asked defendant if he wished to testify and
defendant said he did not. Defendant moved for a
directed verdict, which the court denied. After closing
arguments and instructions, the jury retired to
deliberate. Four hours later, the jury returned guilty
verdicts.
Defendant filed two posttrial motions, preserving the
issues he raises in this appeal, except for the Rule 431(b)
issue. The trial court denied defendant’s motions and
sentenced him to 60 years in prison for first-degree
murder and 30 years in prison for aggravated battery
with a firearm. The sentences were ordered to be served
consecutively. This appeal followed.

65a

In this appeal, defendant contends he is entitled to a
new trial due to several trial errors. His claims center on
his position that, despite the jury’s verdicts, the State
failed to prove beyond a reasonable doubt that he was
the gunman. He claims that, due to these purported trial
errors, the information submitted to the jury was
misleading and prejudicial to defendant. We will address
each contention of error in turn.
A. Police Officer’s Error in Labeling Photo Arrays
First, defendant argues that, during his trial,
“significant questions developed” as to the witness’s
identification of him as the “shooter.” One such question
arose after his counsel learned, on the day of trial, that
there had been an error relating to the two photo arrays
shown to Handy. Counsel claimed he was surprised at
the prosecutor’s announcement that the photo arrays
had been incorrectly labeled.
In ruling on defense counsel’s motion to continue, the
trial court noted that it was clear from the testimony
presented during the offer of proof that Handy had
identified defendant and his brother in the photo arrays.
It was equally clear, according to the court, that the
mistake came when one of the two detectives labeled the
answer sheet as those were being passed among them
and Handy. However, defendant argues that it was
possible that Handy had actually selected photos of two
other men, not defendant nor his brother, and that the
answer sheets were correctly labeled.

66a
Defendant claims he was deprived of a fair trial by
the State’s failure to timely disclose the photo-array
discrepancy, an error compounded by the trial court’s
denial of his motion for a continuance upon his discovery
of the mix up. He accuses the State of “purposefully
undermin[ing]” a fair trial by “intentionally avoiding” its
duty to disclose.
We fail to recognize the gravity of the situation as
described by defendant. For instance, in his brief,
defendant makes the following representation: “All prejury voir dire discovery revealed [Handy] failed to
identify defendant as the speaker.” It was not until the
day of trial, counsel claims, that he learned that Handy
had, in fact, identified defendant as the man claiming he
had a gun in his sock at the American Legion. The record
indicates otherwise. At a pretrial hearing in November
2008, one year before trial, counsel informed the trial
court “there’s only one individual that *** has identified
the defendant.” Counsel was referring to Milam, not
Handy. Thus, it is apparent he indeed believed, at that
point, that Handy did not pick defendant’s photograph
from the array. The prosecutor did not correct him and,
in fact, had just represented to the court that she
“believe[d] so” that only one individual was shown a
photo lineup. Though, at the same hearing, Detective
Dale Radwin testified that, from his perusal of the
various reports and records in the case file, he learned
that the witness seated at the bar (Handy) had identified
defendant “through a photo spread.”
Further, in Detective Shepard’s interview of Handy
on December 31, 2007, at her place of employment,
Handy told Shepard that photo number four from photo

67a
array number two was a picture of the individual who
had made the gun-in-his-sock comment. And, photo
number two from photo array number one, was the man
in the black fur coat who had approached as the two men
argued. Although according to Handy’s interview, it
appears she did not identify defendant or his brother,
Detective Shepard’s supplemental narrative report
dated January 16, 2008, should have put defendant on
notice that Handy had, in fact, picked defendant and his
brother as the two suspects. The report indicated the
photo arrays had been mislabeled as number one and
two.
In his supplemental report, Detective Shepard
wrote:
“I showed her [(Handy)] two photo line-ups.
She positively identified Charnell Brown as the
person with the black fur coat on. She positively
identified Charmell Brown as the person that
was in the argument and made the comment he
had a pistol in his sock.
I used the same six photo line-ups with
several people I spoke to. I have entered them
into evidence at CPD and attached a copy of
them to this report. They are labeled ‘Line-Up
#1’ and ‘Line-Up #2.’ Line-Up #1 has photo #4 as
Charmell Brown and Line-Up #2 has photo #2 as
Charnell Brown.”
It is apparent there was a discrepancy in the labeling of
the two photo lineups when comparing the transcript of
Handy’s interview to Detective Shepard’s January 16,

68a
2008, report. This discrepancy should have been
sufficient to put counsel on notice that, at a minimum,
the matter needed clarification. We agree with the State
that it seemed clear that defendant’s photo appeared in
spot number four on photo array number one, not photo
array number two, as it had been labeled at the time of
her interview. Defendant does not claim that he did not
receive in discovery Detective Shepard’s January 16,
2008, supplementary police report, which contained the
quotes set forth above. In sum, this evidence from the
record belies defendant’s representation that he never
knew Handy had identified defendant in the photo array
until the day of trial. Because this information was of
record, the clarification or explanation of that
information on the day of trial cannot be described as
“earth-shattering,” as defendant claims in his brief.
Although we agree with the trial court that the State
should have divulged the discrepancy when it became
aware of it, we conclude that defendant did not suffer
sufficient prejudice as a result of the State’s failure so as
to justify reversal.
“The failure to comply with discovery
requirements does not in all instances
necessitate a new trial. [Citation.] A new trial
should only be granted if the defendant is
prejudiced by the discovery violation and the
trial court failed to eliminate the prejudice.
[Citation.] Among the factors to be considered in
determining whether a new trial is warranted
are the strength of the undisclosed evidence, the
likelihood that prior notice could have helped the
defense discredit the evidence, and the

69a
willfulness of the State in failing to disclose.
[Citation.]” People v. Harris, 123 Ill. 2d 113, 15152 (1988).
Defendant had the opportunity to notice the discrepancy
and probe the State for an explanation, rather than
building his defense around a questionable issue. Given
the information contained in the record, we find the trial
court properly denied defendant’s motion to dismiss and
his request for a continuance. We further find that,
because the State failed to timely disclose the
discrepancy, regardless of how “obvious” the
discrepancy was, the court did not err in prohibiting the
State from presenting testimony regarding Handy’s
identification of defendant in the photo array as a
discovery sanction. The imposition of the sanction was
sufficient to cure the error, as it did not rise to the level
of jeopardizing defendant’s right to due process. See
People v. Lipscomb, 215 Ill. App. 3d 413, 437-38 (1991)
(trial court’s admonition to the jury cured any
prejudicial impact of the State’s failure to tender one
page missing from the police officer’s report; the
defendant’s due-process rights were therefore not
implicated).
Further, we conclude that defendant was not denied
his right to the effective assistance of counsel based on
the court’s denial of his motion for a continuance.
Contrary to the State’s argument in response, defendant
did not claim he was denied the effective assistance of
counsel due to counsel’s substandard performance—a
claim which would trigger a Strickland analysis (see
Strickland v. Washington, 466 U.S. 668, 687 (1984)).
Rather, defendant claims the trial court deprived him of

70a
his right to the effective assistance of counsel by forcing
counsel to proceed to trial arguably ill-prepared based
on defendant’s perceived ambush by the State. This
argument is without merit. As explained above, we
conclude that defendant was not prejudiced by (1) the
State’s late disclosure, (2) the court’s denial of a
continuance, or (3) the court’s denial of defendant’s
motion to dismiss. We find no reversible error.
B. Jury Selection
Next, defendant argues that the selection of the jury
was improper for two reasons: (1) the trial court failed to
comply with questioning pursuant to Supreme Court
Rule 431(b) and (2) a juror was excused for no reason
other than he was an African-American male.
1. Rule 431(b)
At the start of defendant’s jury trial, in the presence
of the entire venire, the trial court stated the following
principles: (1) defendant is presumed innocent and that
presumption remains with him throughout the trial; (2)
the State has the burden of proof and must prove
defendant guilty beyond a reasonable doubt; (3)
defendant does not have to testify; and (4) defendant’s
decision not to testify cannot be held against him. On
separate occasions, the court advised each panel of four
prospective jurors and two alternates in substantially
the same manner as follows:
“As I’ve indicated to you, the defendant is
presumed to be innocent of the charges against
him. And that the defendant is not required to

71a
offer any evidence on his own behalf. But should
the defendant offer evidence and decides to call
witnesses or present evidence on his behalf, will
you weigh this evidence just as you would the
evidence presented by the State?”
All jurors answered yes. After the court and both
counsel had the opportunity to question each panel of
four and the two alternates, the following exchange (or
an exchange substantially similar) occurred:
“THE COURT: All right. For the four of you,
the four of you understand that the defendant is
presumed to be innocent of the charges against
him. That before the defendant could be
convicted, the State must prove him guilty
beyond a reasonable doubt. That the defendant
is not required to offer any evidence on his own
behalf. And that if the defendant chooses not to
testify, his failure to testify cannot be held
against him in any way. The four of you
understand those instructions. Is that correct?
FOUR JURORS:
affirmative).

(Indicating

in

the

THE COURT: And again, they answer in the
affirmative.
Now, if the four of you will please raise your
right hands.”
Each juror was impaneled and sworn in substantially the
same way. Defendant’s counsel did not object. Prior to

72a
their deliberations, the jury was instructed on all of
these principles as well.
In this appeal, defendant argues that the trial court
failed to fully comply with Rule 431(b). Though the court
asked each juror if he or she “underst[oo]d those
instructions” (meaning the four principles set forth in
Rule 431(b)), the court failed to give each juror the
opportunity to state whether he or she accepted those
principles--an error, defendant claims, justifying
reversal.
Defendant concedes the contention of error was not
preserved in the trial court proceedings, and therefore,
in order for this court to review the error, we must do so
under the plain-error doctrine. Specifically, defendant
contends that plain-error review is appropriate in this
case because the evidence of defendant’s guilt was
closely balanced. We review the issue of the trial court’s
compliance with a supreme court rule de novo. People v.
Garner, 347 Ill. App. 3d 578, 583 (2004).
Rule 431(b) was adopted in 1997 to ensure
compliance with Zehr. See People v. Zehr, 103 Ill. 2d 472,
477 (1984); Ill. S. Ct. R. 431(b), Committee Comments
(eff. May 1, 1997). The Zehr court held that “essential to
the qualification of jurors in a criminal case is that they
know that a defendant is presumed innocent, that he is
not required to offer any evidence in his own behalf, that
he must be proved guilty beyond a reasonable doubt, and
that his failure to testify in his own behalf cannot be held
against him.” Zehr, 103 Ill. 2d at 477. As originally
enacted, Rule 431(b) provided that the trial court was
not obligated to ask potential jurors whether they

73a
understood and accepted the Zehr principles absent a
request from defense counsel. See People v. Glasper, 234
2d 173, 187 (2009).
Effective May 1, 2007, Rule 431(b) was amended to
impose “a sua sponte duty on the trial court to question
each potential juror as to whether he understands and
accepts the Zehr principles.” People v. Gilbert, 379 Ill.
App. 3d 106, 110 (2008). That is, such questioning was no
longer dependent upon a request by defense counsel.
Gilbert, 379 Ill. App. 3d at 110. Rule 431(b) currently
provides as follows:
“The court shall ask each potential juror,
individually or in a group, whether that juror
understands and .accepts the following
principles: (1) that the defendant is presumed
innocent of the charge(s) against him or her; (2)
that before a defendant can be convicted the
State must prove the defendant guilty beyond a
reasonable doubt; (3) that the defendant is not
required to offer any evidence on his or her own
behalf; and (4) that the defendant’s failure to
testify cannot be held against him or her;
however, no inquiry of a prospective juror shall
be made into the defendant’s failure to testify
when the defendant objects.
The court’s method of inquiry shall provide
each juror an opportunity to respond to specific
questions concerning the principles set out in
this section.” Ill. S. Ct. R. 431(b) (eff. May 1,
2007).

74a
The committee comments provide as follows:
“The new language is intended to ensure
compliance with the requirements of People v.
Zehr, 103 Ill. 2d 472 (1984). It seeks to end the
practice where the judge makes a broad
statement of the applicable law followed by a
general question concerning the juror’s
willingness to follow the law.” Ill. S. Ct. R. 431(b),
Committee Comments (eff. May 1, 1997).
In this case, the trial court advised each venireperson
of all four Zehr principles, asking each if he or she
understood them. However, the court never gave each
juror the opportunity to state whether he or she
accepted each principle. The rule specifically provides
that the court shall ask whether each juror
“understands and accepts” the principles. In carrying
out this duty, the court is required to allow each juror an
opportunity to respond. People v. Chester, No. 4-08-0841,
slip op. at 7 (Ill. App. Apr. 11, 2011), ___ Ill. App. 3d, ___,
___. Because the court did not ask each juror whether he
or she accepted each principle, nor gave them an
opportunity to respond to such an inquiry, we find the
court in this case did not follow the precise mandate of
Rule 431(b), and this failure to comply was error.
Having found error, we next determine whether the
error qualifies as one justifying, plain-error review. This
court may review an error under the plain-error
doctrine if (1) the evidence is closely balanced or (2) the
error is “so substantial that it affected the fundamental
fairness of the proceeding, and remedying the error is
necessary to preserve the integrity of the judicial-

75a
process.” People v. Hall, 194 Ill. 2d 305, 335. (2000).
Defendant seems to place a share of the burden of
ensuring compliance with the rule upon the State. He
insists that our review “should be pursuant to ‘ordinary’
error because to do otherwise would be rewarding the
State for its reticence.” Yet, defendant also suggests we
review the error under the plain-error doctrine. In
making that argument, he attempts to distinguish
People v. Thompson, 238 Ill. 2d 598 (2010), a case which
discusses only the second prong, while arguing only the
merits of the first prong--that the evidence presented at
trial was closely balanced.
We first note that the supreme court in Thompson
held that a trial court’s failure to comply with Rule
431(b) does not necessarily render a trial fundamentally
unfair or unreliable and does not require automatic
reversal. Thompson, 238 Ill. 2d at 614-15. Only upon the
defendant’s presentation of evidence that the jury was
biased would his fundamental right to a fair trial be
questioned. Thompson, 238 Ill. 2d at 614. The supreme
court stated: “We cannot presume the jury was biased
simply because the trial court erred in conducting the
Rule 431(b) questioning.” Thompson, 238 Ill. 2d at 614.
Thus, in analyzing the issue under a second-prong, plainerror analysis, the critical question is whether the
defendant has shown that the trial court’s Rule 431(b)
error resulted in impaneling a biased jury. See
Thompson, 238 Ill. 2d at 613.
As stated above, defendant in this case does not
argue the trial court committed a substantial error and
has offered no evidence of bias. Thus, without such
evidence, defendant cannot demonstrate that the error

76a
affected the fairness of his trial or challenged the
integrity of the judicial process. See Thompson, 238 Ill.
2d at 615.
Defendant insists that his conviction be reversed and
the matter remanded for a new trial due to the trial
court’s error based on the fact that the evidence was
closely balanced. Defendant bears the burden of
persuasion in attempting to convince this court that the
evidence against him was not overwhelming, such that
the error could have affected the jury’s verdict. See
People v. Herron, 215 Ill. 2d 167, 187 (2005) (defendant
bears the burden of persuasion to demonstrate that the
evidence was so closely balanced that the error alone
severely threatened to tip the scales of justice against
the defendant). He fails to do so. Instead, he claims only
that “because the evidence was closely balanced, the
blended failures of the trial court, State and defense
regarding ‘understand and accept’ should culminate in
reversal and remand for trial anew.” This conclusory
statement is not sufficient to sustain his burden.
Rather, we find that, contrary to defendant’s
assertions, the evidence at trial clearly established
defendant’s guilt. One witness, Handy, identified
defendant in open court as the man who was arguing
with the victim and who subsequently made a comment
to another man that he had a gun in his sock. Another
witness, Milam, testified that she saw a man exit a side
door of the club, walk around to the front, reach into his
clothing, and shoot Greer. She watched him get into a
red newer model car as she memorized his license plate.
The next day, Milam selected defendant’s picture from a

77a
photo array as the suspect. She also identified him in
open court as the shooter.
Based solely on these witnesses, we conclude that the
evidence presented at defendant’s trial overwhelmingly
implicated him and established his guilt. He has failed to
carry his burden of persuasion that the evidence against
him was closely balanced. As a result, the trial court’s
Rule 431(b) error is not reversible under the first prong
of the plain-error doctrine either. Thus, after our
analysis of the facts of this case, we conclude that the
trial court’s failure to strictly comply with the
requirements of Rule 431(b) did not rise to the level of
plain error. Accordingly, defendant has forfeited his
claim and we affirm defendant’s convictions.
2. Batson Challenge
Next, defendant claims that a new trial is warranted
because the State used its peremptory challenges to
exclude an African-American male from the jury in
violation of Batson v. Kentucky, 476 U.S. 79 (1986).
During jury selection, the State used one of its
preemptory challenges on potential juror Devon Ware,
one of only two African-American males in the entire
venire. Defendant objected to excusing Ware for
apparently reasons related only to his race. In
responding to defendant’s objection, the trial court
stated:
“The issue on a Batson challenge, the first
issue is, is there a prima facie case that a
discriminatory practice is being conducted by
the State. And we don’t get to a race neutral

78a
explanation until the court has made a
determination of a prima facie case. It’s the
court’s opinion that there is not a prima facie
case, and I am not going to require the State to
provide a race neutral explanation. So the
motion--the objection is overruled. And Mr.
Ware is, I believe, properly excused.”
A trial court’s decision on a Batson claim will not be
reversed unless it is clearly erroneous; this deferential
standard is appropriate because of the court’s pivotal
role in the evaluation process. People v. Davis, 233 Ill. 2d
244, 261 (2009). Defendant has the burden of proving a
prima facie case and preserving the record, and any
ambiguities in the record will be construed against him.
Davis, 233 Ill. 2d at 262.
In Batson, the United States Supreme Court held
that the fourteenth amendment’s equal-protection
clause prohibits the State from using a peremptory
challenge to exclude a prospective juror solely on the
basis of race. Batson, 476 U.S. at 89, Under Batson, the
equal-protection clause of the fourteenth amendment is
violated where the facts show that the State excluded an
African-American venireperson on the assumption that
the person will be biased in favor of defendant simply
because of their shared race. Batson, 476 U.S. at 97.
The Court provided a three-step analysis for
evaluating claims of discrimination in jury selection.
Rice v. Collins, 546 U.S. 333, 338 (2006). First, the
moving party has the burden to show that the
nonmoving party exercised its peremptory challenge on
the basis of race. Rice, 546 U.S. at 338 (citing Batson, 476

79a
U.S. at 96-97); People v. Easley, 192 Ill. 2d 307, 323
(2000). If a prima facie case is made, the process moves
to the second step, where the burden of persuasion shifts
to the nonmoving party to present a race-neutral reason
for excusing the venireperson. Rice, 546 U.S. at 338
(citing Batson, 476 U.S. at 97-98); see also Easley, 192
Ill. 2d at 323-24. “Although the prosecutor must present
a comprehensible reason, ‘the second stop of this process
does not demand an explanation that is persuasive, or
even plausible’; so long as the reason is not inherently
discriminatory, it suffices.” Rice, 546 U.S. at 338
(quoting Purkett v. Elem, 514 U.S. 765, 767-68 (1995)).
Once the nonmoving party presents its reason for
excusing the venireperson in question, the process
moves to the third step in the analysis. In that third step,
the trial court must determine whether the moving
party has sustained its burden of establishing purposeful
discrimination. Rice, 546 U.S. at 338 (citing Batson, 476
U.S. at 98). “This final step involves evaluating ‘the
persuasiveness of the justification’ proffered by the
prosecutor, but ‘the ultimate burden of persuasion
regarding racial motivation rests with, and never shifts
from, the opponent of the strike.’” Rice, 546 U.S. at 338
(quoting Purkett, 514 U.S. at 768).
First, we will discuss whether defendant established
a prima facie case of racial discrimination. In making a
prima facie case, the moving party must produce
evidence sufficient to permit the trial court to draw an
inference that discrimination has occurred. People v.
Hogan, 389 Ill. App. 3d 91, 99 (2009). The court may
conduct a “comparative juror analysis,” as well as
consider additional factors, such as: (1) the racial identity

80a
between the defendant and the excluded venirepersons;
(2) the pattern of strikes against African-American
venirepersons; (3) the disproportionate use of
peremptory challenges against African-American
venirepersons; (4) the level of African-American
representation in the venire as compared to the jury; (5)
the prosecutor’s questions and statements during voir
dire examination and while exercising peremptory
challenges; (6) whether the excluded African-American
venirepersons were a heterogeneous group sharing race
as their only common characteristic; and (7) the race of
the defendant, victim, and witnesses. People v.
Williams, 173 Ill. 2d 48, 71 (1996).
Here, the trial court found that a prima facie case of
discrimination under Batson was not established and,
accordingly, the analysis did not proceed beyond the
first step. After carefully reviewing the record
pertaining to the voir dire proceedings, we conclude that
the court correctly found that defendant failed to
establish a prima facie case for a Batson violation.
Devon Ware was called by the clerk as a potential
juror in the first panel of four. The trial court began
questioning and asked Ware general questions
regarding (1) whether he had heard anything about the
case, (2) whether he knew anyone related to the case, (3)
whether he knew anyone that was a police officer or an
attorney, and (4) if there was any reason why he would
not be fair and impartial. Ware answered “no” to each
question.
The trial court noted that Ware had indicated on a
questionnaire that he or a close family member had been

81a
a victim of a crime. He denied the crime was one of
violence and denied that it would affect his service as a
juror. The court then asked a panel of four if anyone was
familiar with the. American Legion. Ware said yes, while
the other three indicated no. The court asked Ware if he
“had occasion to visit the Legion on North Hickory?”
Ware answered: “Been on the outside. Not inside.” Ware
denied that his familiarity with the American Legion
would affect his service as a juror. The court tendered
questioning to the prosecutor, who immediately
requested that Ware be excused, and the court obliged.
In support of defendant’s claim that the State
excused Ware on the sole basis of race, he asserts that
another prospective juror, Ms. Chavarria, noted that she
was “familiar with the location of the American Legion
Hall, but she was ‘accepted’ and sworn as a juror.”
However, Chavarria told the trial court that she knew
the address of the American Legion only and that she
had never been to the location and knew nothing about
it. It is reasonable to expect the prosecution to seek to
excuse any person who had a familiarity with the scene
of the crime. A juror who had been to the scene before
could possibly possess preconceived ideas related to the
location and layout that the State would prefer to avoid,
if possible. This is especially true when the shooting took
place outside, the only part of the American Legion with
which Ware was familiar.
There was no evidence of any pattern of striking
African-Americans from the jury, nor was there any
evidence of a disproportionate number of strikes used
against African-Americans. The facts pertaining to the
other factors were unremarkable in the overall context

82a
of this case. The voir dire questions posed to Ware and
his responses thereto indicated there were significant
and legitimate differences that distinguished him from
other potential jurors, making them a better choice for
the State. Under the circumstances, we find defendant
failed to sustain his burden of demonstrating a prima
facie case of racial discrimination in the jury selection
process, and the court’s decision to overrule defendant’s
Batson objection was not clearly erroneous.
C. Other-Crimes Evidence
Defendant also argues the trial court erred in
allowing Milam, “the State’s pivotal witness,” to
introduce evidence of defendant’s other crimes. The
excerpted testimony to which defendant refers was as
follows: Milam told defendant, as she followed him to his
vehicle after she watched him shoot Greer, that “he
wouldn’t get away with this one.” Defense counsel
objected, stating: “Your Honor, we make an objection.
This is self-serving testimony. It’s--it’s going to try to
bolster the credibility of whatever this witness may say-[.]” The trial court overruled the objection. Defendant
also claims the State’s closing argument compounded the
error when the prosecutor reminded the jury of Milam’s
testimony as follows: “She tells him, you’re not going to
get away with this.” Defendant claims these “united”
errors prejudiced him to the extent they justify reversal.
The State asserts that defendant forfeited this
argument on appeal and we agree. Though defense
counsel asserted a contemporaneous objection to
Milam’s testimony at trial, the basis for his objection was
that the testimony was bolstering her own credibility.

83a
Counsel did not object on the basis that her testimony
constituted other-crimes evidence. Nor did defendant
raise the issue in his posttrial motion.
“When, as here, a defendant fails to object to an error
at trial and include the error in a posttrial motion, he
forfeits ordinary appellate review of that error.” People
v. Johnson, 238 Ill. 2d 478, 484 (2010), citing People v.
Enoch, 122 Ill. 2d 176, 186 (1988). The underlying
purpose of the rule of forfeiture is to afford the trial
court the opportunity to correct its own errors and
determine whether a new trial is warranted (Herron,
215 Ill. 2d at 175), which, in turn, affords the reviewing
court the benefit of the trial court’s judgment and
observations (People v. Pickett, 54 Ill. 2d 280, 284 (1973)).
Because defendant did not allow the trial court to
consider his contention of error, we will not now consider
it on review.
D. Prosecutorial Misconduct
Defendant pools each of his individual contentions of
error raised above into his final argument that, when
taken together, those instances constitute improper
conduct on the part of the prosecutor. Defendant
complains of the following acts:
“(1) failing to disclose critical identification flaws
in pretrial discovery provided defendant;
(2) withholding that critical information until
immediately before jury selection; (3) remaining
silent (or opposing) defendant’s continuance
where defendant was understandably seeking
additional time to investigate, prepare, and for

84a
additional discovery; (4) purposefully declining
telling the trial court and defendant that they
had learned of the critical identification
information at least two months before trial after
seeking the assistance of the lead detective for
clarification in connection with identification
photo spread ‘mix-up(s)’; (5) refusing to correct
the trial court’s failure to provide complete Rule
431(b) principles; (6) striking the only AfricanAmerican juror; (7) presumptively inviting the
pivotal identification witness to recite for the
jury that [defendant] wouldn’t get away with
‘this one’; (8) during summations reminding the
jury about ‘[defendant] not getting away with it,’
but resting assured that the jury would clearly
recall ‘this one’; and (9) while sitting directly in
front of the jury during defense summation,
propping up the decedent’s photograph.”
With the exception of the final complaint regarding
the decedent’s photograph, we have addressed each
claim individually and concluded there existed no
impropriety. As to the decedent’s photograph, our
review of the record indicated defense counsel made no
objection regarding the use of a photograph during the
State’s closing argument. In fact, he began his argument
presumably with the photo displayed. It was not until
halfway through his argument that he apparently
noticed the photo and stated: “I’m sorry, Judge, counsel
has the live photo of Mr. --[.]” The court instructed: “Put
it down. Thank you.”
Not only did defense counsel proceed with his closing
argument with the photograph displayed and without

85a
objection, but defendant fails to sufficiently present his
claim of error in this appeal. He cites no authority and
provides no argument as to how the display of the
decedent’s photograph during the State’s closing
argument prejudiced him or constituted prosecutorial
misconduct. For these reasons, we reject defendant’s
contention of error. See People v. Morales, 343 Ill. App.
3d 987, 991 (2003) (“Arguments not supported by citation
to authority do not comply with the requisites of
Supreme Court Rule 341(e)(7) and do not merit our
consideration on appeal.”).

For the foregoing reasons, we affirm the trial court’s
judgment. As part of our judgment, we award the State
its $75 statutory assessment against defendant as costs
of this appeal.
Affirmed.

86a
JUSTICE POPE, specially concurring:
I agree the trial court’s judgment should be affirmed.
I write separately because I do not believe the trial court
erred during voir dire and therefore any plain-error
analysis is unnecessary. In this case, after reviewing the
Rule 431(b) principles with the potential jurors, the trial
court stated “[Y]ou understand those instructions. Is
that correct?” After each juror affirmatively indicated
his or her understanding, the trial court stated “and ***
you will follow those instructions. Is that correct?” Thus,
in my opinion, the court asked the potential jurors
whether they understood and would follow the Zehr
principles. This complied with Rule ‘431(b) and,
consequently, the court committed no error.

87a

United States Court of Appeals

November 17, 2020

FRANK H. EASTERBROOK, Circuit Judge
DANIEL A. MANION, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
No. 19-3172
CHARMELL BROWN,
Petitioner-Appellant,
v.
ALEX JONES, Acting
Warden,
Respondent-Appellee.

Appeal from the
United States District
Court for the Central
District of Illinois.
No. 17-2212
Sue E. Meyerscough,
Judge.

It is ORDERED that the opinion in this case issued
October 21, 2020, is amended as follows:

88a
In the first line of the first sentence of the first
paragraph under “I. BACKGROUND” on page two,
strike “three counts” and replace that phrase with “one
count”.
Further, on consideration of the petition for
rehearing and rehearing en banc, no judge in active
service has requested a vote on the petition for
rehearing en banc and all members of the original panel
have voted to deny rehearing. It is, therefore,
ORDERED that rehearing and rehearing en banc are
.

89a

PEOPLE of the STATE
OF ILLNOIS,
v.
CHARMELL D.
BROWN,
Defendant.

)
)
)
)
)
)
)
)
)

NO. 2008-CF-32

REPORT OF PROCEEDINGS had in the aboveentitled cause on the 7TH DAY OF DECEMBER, 2009,
before the HONORABLE THOMAS J. DIFANIS,
Circuit Judge.
THE COURT: This is 08-CF-32. The Defendant is
present personally, with Mr. Cross. We have
Ms. Carlson and Ms. Clark here on behalf of the People.
This matter is set today for trial. Mr. Cross, I have a
statement of the nature of the case. Any objection to the
statement of the nature the case?

90a
MR. CROSS: Judge, I have spoken with my client
about that. We have no objection to the statement of the
nature of the case.
****
(PROSPECTIVE JURORS SWORN).
THE COURT: Thank you. Now, Ms. Campbell’s
going to call the number and names of twelve jurors.
We’re going to start by filling the front row first. So the
first juror called will go into the front row, all the way
towards the back, and we’ll fill the six chairs up towards
the front, leaving the one chair on the end empty. The
seventh jury will go into the second row, again, all the
way towards the back, filling the six chairs up towards
the front, leaving the one chair on the end empty.
MADAM CLERK: Juror number 8, Bridget Owen.
Juror number 42, Gregory Tresslar. Juror number 7,
James Baltz. Juror number 45, Loubna Aichach. Juror
number 54, Devon Ware. Juror number 53, Brian
Robertson. Juror number 29, Steven Brown.
THE COURT: Mr. Brown, second row, please.
MADAM CLERK: Juror number 20, Christopher
Craig. Juror number 33, Sandra Hockman. Juror
number 59, Nathaniel Manzano. Juror number 72,
Robert Weatherford. Juror number 36, Ken Gunji.
THE COURT: Mr. Robertson, have you heard
anything about this case?
JUROR ROBERTSON: No.

91a
THE COURT: Do you know anyone who’s seated at
counsel table?
JUROR ROBERTSON: No, I do not.
THE COURT: Do you know anyone in the State’s
Attorney’s Office?
JUROR ROBERTSON: No.
THE COURT: Did you recognize any of those names
that I read?
JUROR ROBERTSON: No.
THE COURT: You have had jury service in the past.
Is that correct?
JUROR ROBERTSON: Yep.
THE COURT: When you were called for jury duty,
did you sit on any trials?
JUROR ROBERTSON: I sat on two trials.
THE COURT: Anything about that jury experience
that will make it difficult for you to be fair and impartial
in this case?
JUROR ROBERTSON: No.
THE COURT: Do you have any family members or
close friends that are police officers?
JUROR ROBERTSON: No, I do not.

92a
THE COURT: What about family members or close
friends that are attorneys?
JUROR ROBERTSON: No.
THE COURT: As you sit there now, can you think of
any reason why you could not be fair and impartial?
JUROR ROBERTSON: No, I can’t.
THE COURT: Thank you. Mr. Ware, have you heard
anything about this case?
JUROR WARE: No.
THE COURT: Do, you know anyone seated at
counsel table?
JUROR WARE: No.
THE COURT: Did you recognize any of those names
that I read?
JUROR WARE: (Shakes head in the negative).
THE COURT: Do you know anyone in the State’s
Attorney’s Office?
JUROR WARE: No.
THE COURT: Have you had jury service in the
past?
JUROR WARE: No, sir.

93a
THE COURT: Do you have any family members or
close friends that are police officers?
JUROR WARE: Not that I can think of.
THE COURT: Do you have any family members or
close friends that are attorneys?
JUROR WARE: No.
THE COURT: You’ve indicated that you or a close
family member had been the victim of a crime. Did that
have anything to do with a crime of violence, like we’re
dealing with here?
JUROR WARE: That -- it was just DUI’s and stuff.
THE COURT: Okay. There’s nothing about that
situation that would make it difficult for you to be fair
and impartial in this case. Is that correct?
JUROR WARE: No.
THE COURT: And as you sit there now, can you
think of any reason why you could not be fair and
impartial?
JUROR WARE: No, I can’t.
THE COURT: Thank you. Ms. Aichach’s, have you
heard anything about this case?
JUROR AICHACH: No.

94a
THE COURT: Do you know anyone seated at
counsel table?
JUROR AICHACH: No.
THE COURT: Do you know anyone in the State’s
Attorney’s Office?
JUROR AICHACH: No.
THE COURT: And did you recognize any of those
names that I read?
JUROR AICHACH: No.
THE COURT: Have you had jury service in the
past?
JUROR AICHACH: No.
THE COURT: Do you have any family members or
close friends that are police officers?
JUROR AICHACH: No.
THE COURT: What about family members or close
friends that are attorneys?
JUROR AICHACH: No.
THE COURT: As you sit there now, can you think of
any reason why you could not be fair and impartial?
JUROR AICHACH: No.

95a
THE COURT: Thank you. And Mr. Baltz, have you
heard anything about this case?
JUROR BALTZ: No.
THE COURT: Do you know anyone seated at
counsel table?
JUROR BALTZ: No.
THE COURT: Do you know anyone in the State’s
Attorney’s Office?
JUROR BALTZ: No.
THE COURT: Did you recognize any of the names
that I read?
JUROR BALTZ: No.
THE COURT: Have you had jury service in the
past?
JUROR BALTZ: No.
THE COURT: Do you have any family members or
close friends that are police officers?
JUROR BALTZ: No.
THE COURT: What about family members or close
friends that are attorneys?
JUROR BALTZ: No.

96a
THE COURT: As you sit there now, can you think of
any reason why you could not be fair and impartial?
JUROR BALTZ: No.
THE COURT: Now, I’m going to ask the following
questions of the four jurors, and your response can be -it will be all at the same time. Do any of you have
opinions about bars, taverns, nightclubs or
establishments that sell alcohol, that are so positive or
so negative that you could not be a fair and impartial
juror in a case that takes place in such an establishment?
FOUR JURORS: (Indicating in the negative).
THE COURT: And the answer is no. Do any of you
have any opinions about people who attend
establishments that sell alcohol, that are so positive or
negative that you could not be a fair and impartial juror
if a witness was such an attendee? Again, any problem
with that?
FOUR JURORS: (Indicating in the negative).
THE COURT: Again, they answer no. Do you have
any strong opinions, one way or the other, about alcohol
consumption?
FOUR JURORS: (Indicating in the negative).
THE COURT: Again, the answers are no. Have you
or any member of your family, had a negative experience
with a law enforcement official that would cause you to
be biased when evaluating the testimony of a witness
who is so employed?

97a
FOUR JURORS: The answers are no. And will you
follow the instructions that you get at the conclusion of
the case, even if it turns out that the law is different than
what you think. Will you follow the Court’s instructions?
FOUR JURORS: (Indicating in the positive).
THE COURT: And again, they answer yes. One
offense alleged in this case is first degree murder. Do
any of you feel that the nature if the offense, being
murder, would make it difficult for you to render a fair
and impartial verdict in this case just because of the
nature of the offense? Is that going to pose a problem for
any of you?
FOUR JURORS: (Indicating in the negative).
THE COURT: The answer is no. The-Defendant is
charged with two different charges in multiple counts.
Does the mere fact that he is facing multiple allegations
lead you to believe that he is probably guilty of some or
all of the charges? Yes or no?
FOUR JURORS: (Indicating in the negative).
THE COURT: And the answer, again, is no. The
offense is alleged to have occurred at the American
Legion post on Hickory. Street. Are any of you familiar
with that location?
JUROR WARE: Yes.
THREE JURORS: (Indicating in the negative).
THE COURT: Mr. Ware, you are?

98a
JUROR WARE: Yes.
THE COURT: And have you had occasion to visit the
Legion on North Hickory?
JUROR WARE: Been on the outside. Not inside.
THE COURT: Is there anything about what you
know from that limited contact, that’s going to make it
difficult for you to be fair and impartial in this case?
JUROR WARE: No.
THE COURT: The fact that testimony is going to be
presented that this offense occurred at the Legion, will
you base your decision only on what you see and hear in
this courtroom and not be affected by the fact that
you’ve seen the outside of the place and you’re familiar
with where it is. You’ll base your decision on what you
see and hear in the courtroom. Is that correct?
JUROR WARE: Yes, sir.
THE COURT: As I’ve indicated to you, the
Defendant is presumed to be innocent of the charges
against him. And that the Defendant is not required to
offer any evidence on his own behalf. But should the
Defendant offer evidence and decides to call witnesses
or present evidence on his behalf, will you weigh this
evidence just as you would the evidence presented by
the State?
FOUR JURORS: (Indicating in the affirmative).

99a
THE COURT: And the answer is yes. Do the four of
you believe -- do any of you believe, that because the
Defendant is charged with a crime and is on trial, that he
must be guilty of something?
FOUR JURORS: (Indicating in the negative).
THE COURT: And they answer is no. Ms. Carlson,
I’ll let you supplement.
MS. CARLSON: Thank you, your Honor. At this
time, we would thank but excuse Mr. Ware.
THE COURT: Mr. Ware, I’m going to excuse you
from this trial and ask -- well, you’re excused for the rest
of the term. This was a limited summons so this excuses
you. Thank you, sir. The next person called will take the
seat that was occupied by Mr. Ware.
MADAM
Chavarria.

CLERK:

Juror

number

25,

Susan

THE COURT: Ms. Chavarria, have you heard
anything about this case?
JUROR CHAVARRIA: (Shakes head in the
negative).
THE COURT: No?
JUROR CHAVARRIA: No.
THE COURT: Do you know anyone who’s seated at
counsel table?

100a
JUROR CHAVARRIA: No.
THE COURT: Do you know anyone in the State’s
Attorney’s Office?
JUROR CHAVARRIA: No.
THE COURT: Did you recognize any of those names
that I read?
JUROR CHAVARRIA: No.
THE COURT: Have you had jury service in the
past?
JUROR CHAVARRIA: No.
THE COURT: Do have you any family members or
close friends that are police officers?
JUROR CHAVARRIA: No.
THE COURT: Do you have any family members or
close friends that are attorneys?
JUROR CHAVARRIA: No.
THE COURT: As you sit there now, can you think of
any reason why you could not be fair and impartial?
JUROR CHAVARRIA: No.
THE COURT: Again, I’m going to ask you some of
the same questions that I asked the other four jurors. Do
you have any opinion about bars, taverns, nightclubs or
establishments that sell alcohol, that are so positive or

101a
so negative that you could not be a fair and impartial
juror in a case that takes place in such an establishment?
JUROR CHAVARRIA: No.
THE COURT: Do you have any opinions about
people who attend establishments that sell alcohol, that
are so positive or negative that you could not be a fair
and impartial juror if a witness was such an attendee?
JUROR CHAVARRIA: No.
THE COURT: Do you have any strong opinions
about the consumption of alcohol?
JUROR CHAVARRIA: No
THE COURT: Have you or any member of your
family had a negative experience with a law enforcement
official that would cause you to be biased when
evaluating the testimony of a witness so employed?
JUROR CHAVARRIA: No.
THE COURT: And will you follow the instructions
that you get at the conclusion of the case, even if it turns
out the law is different than you thought it would be?
JUROR CHAVARRIA: Yes.
THE COURT: One of the alleged -- one of the
charges against the Defendant is first degree murder.
Do you feel that the nature of the offense, first degree
murder, would make it difficult for you to render a fair
and impartial verdict in this case?

102a
JUROR CHAVARRIA: No.
THE COURT: The Defendant is charged with two
different charges, multiple counts. Does the mere fact
that he is facing multiple allegations lead you to believe
that he’s probably guilty of some or all the charges?
JUROR CHAVARRIA: No.
THE COURT: The indicted offenses are alleged to
have occurred at the American Legion post on Hickory
Street. Are you familiar with that location?
JUROR CHAVARRIA: With the address. Yes.
THE COURT: But have you been to the location?
JUROR CHAVARRIA: No, I have not.
THE COURT: Other than knowing the address,
that’s about all you know about it?
JUROR CHAVARRIA: That’s it.
THE COURT: Is there anything about that fact
that’s going to make it difficult for you to be fair and
impartial in this case?
JUROR CHAVARRIA: No.
THE COURT: Again, as I indicated, the Defendant
is not required to offer any evidence on his own behalf.
But if the Defendant decides to call witnesses or present
evidence on his behalf, will you weigh this evidence just
as you would the evidence presented by the State?

103a
JUROR CHAVARRIA: (Shakes head in the
affirmative).
THE COURT: Do you believe that because the
Defendant is charged with a crime and is on trial, that he
must be guilty?
JUROR CHAVARRIA: No.
THE COURT: Ms. Carlson.
MS. CARLSON: Thank you, your Honor. Good
afternoon, ladies and gentlemen. Mr. Robertson.
JUROR ROBERTSON: Yes.
MS. CARLSON: Are you still employed at the
Urbana Free Library?
JUROR ROBERTSON: Yes, I am.
MS. CARLSON: Could you tell me a little bit about
what it is you do for a living.
JUROR ROBERTSON: I work at the acquisitions
department. Do processing of audio -- audio, visual
materials.
MS. CARLSON: okay. Great. And you had a chance
to have prior jury service?
JUROR ROBERTSON: Yes.
MS. CARLSON: Were you the foreperson of any
your juries?

104a
JUROR ROBERTSON: No.
MS. CARLSON: And did all of your juries reach a
verdict?
JUROR ROBERTSON: No. Just one. One was
dismissed.
MS. CARLSON: Is there anything about your prior
experience as a juror that you think would be difficult
for you to be fair and impartial in this case, setting aside
your prior experiences?
JUROR ROBERTSON: No.
MS. CARLSON: And do you know any of the other
jurors seated up here with you now, from outside of your
experience as a juror?
JUROR ROBERTSON: Just one, from working at
the library.
MS. CARLSON: Okay. Is this person your
supervisor?
JUROR ROBERTSON: No.
MS. CARLSON: Do you supervise them?
JUROR ROBERTSON: No.
MS. CARLSON: Would you feel you needed to have
to agree or disagree with that person?
JUROR ROBERTSON: No.

105a
MS. CARLSON: And you wouldn’t be worried about
anything happening to your job if it turned out you
served together?
JUROR ROBERTSON: No.
MS. CARLSON: Okay. Thank you very much. And
good afternoon, Ms. Chavarria.
JUROR CHAVARRIA: Good afternoon.
MS. CARLSON: Did I pronounce that correctly?
JUROR CHAVARRIA: That’s fine.
MS. CARLSON: Okay. And are you still with the
Regional Planning Commission?
JUROR CHAVARRIA: Yes.
MS. CARLSON: Could you tell me a little bit about
what you do.
JUROR CHAVARRIA: I’m a regional planning
manager for a six county area. Do planning services.
MS. CARLSON: Okay. Do you know any of the other
jurors who are-seated with you now?
JUROR CHAVARRIA: No.
MS. CARLSON: And there’s no one that you’re
employed with who’s also serving, perhaps, out here?
JUROR CHAVARRIA: No.

106a
MS. CARLSON: Okay. Thank you very much. I’m
going to try this one. Ms. Aichach.
JUROR AICHACH: Yeah.
MS. CARLSON: Okay. What do you do at Carle
Hospital?
JUROR AICHACH: I go on deliveries to the
equipment to the patients and the nurses on the floors.
MS. CARLSON: Does any part of your work take
you into the emergency department?
JUROR AICHACH: I’m sorry? What was it?
MS. CARLSON: Does -- do any of your professional
responsibilities have you interact with people from the
ER?
JUROR AICHACH: No.
MS. CARLSON: Okay. If you heard testimony in this
case from a surgeon who happens to be employed by
Carle, would you still be able to be fair and impartial?
JUROR AICHACH: Yes.
MS. CARLSON: And no aspect of your employment
would necessarily affect your ability to be a juror?
JUROR AICHACH: Right.
MS. CARLSON: Correct?
JUROR AICHACH: Yeah.

107a
MS. CARLSON: Okay. Seated with you now, do you
know any of the other twelve jurors?
JUROR AICHACH: No.
MS. CARLSON: What about out here in the venire?
JUROR AICHACH: No.
MS. CARLSON: Thank you very much.
JUROR AICHACH: You’re welcome.
MS. CARLSON: And good afternoon, Mr. Baltz.
You’re with the University?
JUROR BALTZ: Correct.
MS. CARLSON: And in the department of -JUROR BALTZ: Animal science.
MS. CARLSON: Okay. Could you tell, me a little bit
about what you do.
JUROR BALTZ: I develop on-going classes.
MS. CARLSON: Okay. Will you be able to listen to
evidence in this case and just judge it based on what you
see here on the stand?
JUROR BALTZ: Yes.
MS, CARLSON: And do you know anyone seated
with you on the jury?

108a
JUROR BALTZ: No.
MS. CARLSON: What about out here in the venire?
JUROR BALTZ: No.
MS. CARLSON: Your Honor, may I have one
moment?
THE COURT: Yes.
MS. CARLSON: Thank you, your Honor. We accept
this panel.
THE COURT: Mr. Cross.
MR. CROSS: One minute, Judge.
THE COURT: Sure.
MR. CROSS: Judge, we accept the panel.
THE COURT: All right. For the four of you, the four
of you understand that the Defendant is presumed to be
innocent of the charges against him. That before the
Defendant could be convicted, the State must prove him
guilty beyond a reasonable doubt. That the Defendant is
not required to offer any evidence on his own behalf. And
that if the Defendant chooses not to testify, his failure to
testify cannot be held against him in any way. The four
of you understand those instructions. Is that correct?
FOUR JURORS: (Indicating in the affirmative).

109a
THE COURT: And they answer in the affirmative.
And the four of you will follow those instructions. Is that
correct?
FOUR JURORS: (Indicating in the affirmative).
THE COURT: And again, they answer in the
affirmative. Now, if the four of you will please raise your
right hands.
(FIRST PANEL OF FOUR SWORN IN).
****
THE COURT: Ms. Carlson, as to Ms. Heinrichs and
Mr. Gomez.
MS. CARLSON: Thank you. Good afternoon, Mr.
Gomez. Did I hear you correctly, you work at the Mental
Health Center?
JUROR GOMEZ: Yes.
MS. CARLSON: And prior to that, were you a
student in social work at the University?
JUROR GOMEZ: Yes, I was.
MS. CARLSON: How many years of social work
education do you have?
JUROR GOMEZ: Social work education, about two
years.

MS. CARLSON:
undergraduate --

110a
Is that

graduate

work,

JUROR GOMEZ: That’s graduate work.
MS. CARLSON: What was your undergraduate
major?
JUROR GOMEZ: Sociology and arrow engineering.
MS. CARLSON: Did you also complete that
education here at the University of Illinois?
JUROR GOMEZ: Yes.
MS. CARLSON: Has there been, a focus or specific
area of interest that you’ve had in social work?
JUROR GOMEZ: Yes. Social justice and law.
MS. CARLSON: okay.
JUROR GOMEZ: And -- well, medical social work is
my specialization. But my sociology and social work also
involve social justice and law.
MS. CARLSON: And has any aspect of the research
that you’ve done to get your degrees, and of course, your
interest in social justice, given you the opportunity to
ride along with police officers or anything like that?
JUROR GOMEZ: I have ridden along with police
officers once. And that was in my process for applying
for the Urbana Police Department --

111a
MS. CARLSON: Okay.
JUROR GOMEZ: -- to become a police officer.
MS. CARLSON: So you tried to become employed as
a police officer?
JUROR GOMEZ: Yes.
MS. CARLSON: Are you still on the hiring list over
there?
JUROR GOMEZ: No. I was -- I was one of the final
candidates for being interviewed by the Police Chief,
and that’s about it, so.
MS. CARLSON: Okay. Did you ever undergo any
training at the Police Training Institute?
JUROR GOMEZ: No.
MS. CARLSON: But you really just got to the
interview stage?
JUROR GOMEZ: Yes.
MS. CARLSON: Did you have any contact with the
Champaign Police Department?
JUROR GOMEZ: No.
MS. CARLSON: And did you ever apply for any
other agencies?
JUROR GOMEZ: No.

112a
MS. CARLSON: In your academic background, have
you had the opportunity to publish any papers?
JUROR GOMEZ: No. Not officially. No.
MS. CARLSON: Okay. Did you write any papers
about your interest in social justice?
JUROR GOMEZ: Yeah. It involved course work.
Yes.
MS. CARLSON: Okay. Is any aspect of your studies
about any factors on discrimination within law
enforcement work?
JUROR GOMEZ: Yes. I did write a paper doing
research for the summer, in terms of discretion among
security personnel and police officers, and wanting to
press charges for -- in the instance of shoplifting.
MS. CARLSON: Okay. When you say discretion, if
-- could you just tell me what you mean by discretion in
that instance.
JUROR GOMEZ: When -- when store owners decide
whether to press charges on the sole basis of
appearances and other social factors.
MS. CARLSON: In doing this research and writing
the paper, did you draw any conclusions that you think
would impact upon your ability to be a fair and impartial
juror in any criminal cause?
JUROR GOMEZ: No.

113a
MS. CARLSON: And have you also had the
opportunity to need the services of the Urbana Police
Department over the years?
JUROR GOMEZ: No.
MS. CARLSON: Okay. Thank you, Mr. Gomez. And
Ms. Heinrichs?
JUROR HEINRICHS: Yes.
MS. CARLSON: Okay. Sometimes I can’t even read
my own handwriting. Obviously, as a person employed
by the University, there’s a good chance that you might
know some other folks who are on the jury. Anybody you
know out here?
JUROR HEINRICHS: Not that I can recognize. No.
MS. CARLSON: What about out here in the venire?
JUROR HEINRICHS: No.
MS. CARLSON: Okay. If it did turn out that you
ended up deliberating on this case with somebody else
who happens to have the same employer as you, do you
think you would be able to do so with a free spirit of
debate?
JUROR HEINRICHS: Yes.
MS. CARLSON: You wouldn’t feel like you just had
to agree with them just because you know them or
because you work together?

114a
JUROR HEINRICHS: No.
MS. CARLSON: Thank you. In your capacity as an
employee within the Athletic Department, do you have
anything to do with any type of nutrition or anything
that the athlete’ s would consume?
JUROR HEINRICHS: I don’t give it to them, but I
council them on diet and alcohol consumption. Yes.
MS. CARLSON: Okay. And how long have you been
in that position with the teams?
JUROR HEINRICHS: I’ve been there since
November of 2006, but I was not full-time until last
September.
MS. CARLSON: Okay. Is there particular sport that
you focus on?
JUROR HEINRICHS: Not one sport. I work with
several. I work with men’s and women’s track and field,
and cross country. Women’s swimming and diving.
Women’s tennis. Women’s golf.
MS. CARLSON: What about men’s basketball?
JUROR HEINRICHS: I do not work with men’s
basketball, but I have been -- an occasion over in their
training room when the athletes are there.
MS. CARLSON: What about men’s football?

115a
JUROR HEINRICHS: Not with -- well, I’ve been in
their training room also, but I don’t have contact with
any of the ball players.
MS. CARLSON: Okay. Your Honor, may I have one
moment?
THE COURT: You may.
MS. CARLSON: Your Honor, we would accept and
tender.
THE COURT: All right. For the four you, Mr.
Gomez, Ms. Owen, Ms. Hartman, Ms. Heinrichs, the four
of you understand that the Defendant is presumed to be
innocent of the charges against him. That before the
Defendant could be convicted, the State must prove him
guilty beyond a reasonable doubt. That the Defendant is
not required to offer any evidence on his own behalf. And
that if the Defendant chooses not to testify, his failure to
testify cannot be held against him in any way. The four
of you understand those instructions. Is that correct?
FOUR JURORS: (Indicating in the affirmative).
THE COURT: And they answer in the affirmative.
And the four of you will follow those instructions. Is that
correct?
FOUR JURORS: (Indicating in the affirmative).
THE COURT: Again, they answer in the affirmative.
Now, if the four of you will raise your right hands, please.
(SECOND PANEL OF FOUR SWORN IN).

116a
THE COURT: Thank you. Now, we’ll have you go
with the officer. She’ll show you where our jury room is.
I’ll need you back there by 1:30 tomorrow afternoon.
Please don’t discuss this case among yourselves or with
anyone else. Back in the jury room by 1:30 tomorrow
afternoon.
(SECOND PANEL OF FOUR EXCUSED).
THE COURT: Counsel, you want to approach.
(BENCH CONFERENCE BETWEEN COURT AND
COUNSEL).
THE COURT: For the rest of the prospective jurors
in the courtroom, and for the four of you seated in the
jury box, it’s about a quarter after 4:00. Rather than go
well past 4:30, close to 5:00 o’clock, we have some other
matters we need to take up outside of your presence. So
everyone in the courtroom, including the four of you that
are seated in the jury box, I’ll need you to come back
tomorrow afternoon, in the jury assembly room on the
first floor. As soon as we’re ready, we’ll bring you back
up, we’ll get the four of you reseated, and we will
conclude jury selection. So I’ll need everyone back
tomorrow afternoon at 1:30, down in the jury assembly
room on the first floor. Thank you.
(PROSPECTIVE JURORS EXCUSED).
THE COURT: We are still on 08-CF-32. This is
outside the presence of the jury. The Defendant is
present with Mr. Cross. Ms. Carlson, Ms. Clark. Mr.
Cross, I believe after Mr. Ware was excused on a

117a
peremptory challenge by the State, you indicated an
objection after the panel had been sworn and we were
dealing with the second panel. As to your objection, sir.
MR. CROSS: Well Judge, Devon Ware is an African
American male. The Defendant is an African American
male. There are only two African Americans, both young
African American males, of which the Defendant is a
young African American male, in the entire venire.
Devon Ware was excused without any questions being
asked of him by the State. Devon Ware, under
questioning by the Court, indicated that he understood
the Court’s statements to the panel, that he could follow
the instructions of the Court regarding issues that might
be before the jury. He was asked one question by the
Court, actually a series of questions by the Court
regarding the American Legion. Devon Ware appeared
to respond appropriately to all the questions that were
put to him by the Court, regarding his knowledge of the
American Legion, the location, indicating that he had
some knowledge of it and had experience about being
there on occasion.
Judge, there was nothing of a race neutral indication
that Devon Ware should have been excused by the
State. Particularly, where the panel that is before the
Court only has two young African American males,
which the Defendant is. Because we don’t see any race
neutral reason for excluding Devon Ware, particularly
where the State did not ask him any questions before
excusing him.
THE COURT: The issue on a Batson challenge, the
first issue is, is there a prima facie case that a

118a
discriminatory practice is being conducted by the State.
And we don’t get to a race neutral explanation until the
Court has made a determination of a prima facie case.
It’s the Court’s opinion that there is not a prima facie
case, and I am not going to require the State to provide
a race neutral explanation. So the motion -- the objection
is overruled. And Mr. Ware is, I believe, properly
excused.
Counsel, tomorrow morning I have my pretrial,
which is going to last all morning. Let’s gather before
1:30 and sort out any other issues we need to take up
before we get this last panel chosen. I will also do two
alternate jurors. Thank you counsel.
WHICH WERE THE PROCEEDINGS HAD IN
THE ABOVE ENTITLED CAUSE ON SAID DATE.
****

119a

PEOPLE of the STATE
OF ILLINOIS,
v.
CHARMELL D.
BROWN,
Defendant.

)
)
)
)
)
)
)
)
)

NO. 2008-CF-32

REPORT OF PROCEEDINGS had in the aboveentitled cause on the 8TH DAY OF DECEMBER, 2009,
before the HONORABLE THOMAS J. DIFANIS,
Circuit Judge.
****
THE COURT: Ms. Carlson.
MS. CARLSON: Thank you, Judge. Good afternoon,
Mrs. Young.
JUROR YOUNG: Good afternoon.
MS. CARLSON: You’re with the University?
JUROR YOUNG: Yes, I am.

120a
MS. CARLSON: What department?
JUROR YOUNG: Sponsored research.
MS. CARLSON: And you’re a director of research?
JUROR YOUNG: Yes, I am.
MS. CARLSON: Could you tell me what that means.
JUROR YOUNG: I supervise about 28 people who
review requests for funding that the faculty submit. And
then we negotiate the terms and the conditions of the
resulting contracts.
MS. CARLSON: Okay. Are these employment
contracts?
JUROR YOUNG: No. They’re funding contracts, to
provide funds for the faculty to conduct the research. So
we get money from the National Cancer Institute to
explore ways to cure cancer, that sort of thing.
MS. CARLSON: Okay. There have been some people
already seated on this jury who are employed by the
University. Do you know any of them?
JUROR YOUNG: Not the gentleman. Bridgette
Owen, I’ve met once in assisting her with a contract
resolution, which was probably a few months ago.
MS. CARLSON: Given that you have had contact
with Ms. Owen before, do you feel that you necessarily
have to agree or disagree with her because you already
know her?

121a
JUROR YOUNG: No.
MS. CARLSON: Do either of you supervise each
other at work?
JUROR YOUNG: No.
MS. CARLSON: In her capacity with the University,
does she have to come to you to ask for money?
JUROR YOUNG: Not to ask for money, but to assist
with putting the money in place, to negotiate the terms
and conditions of the awards that she over-sees.
MS. CARLSON: Okay. Is there anything about that
relationship then, where you’re sort of, like giving her
permission or ability to do parts of her job, that would
make you feel as though you couldn’t have a frank, open
discussion with her?
JUROR YOUNG: No. There’s no power or authority
in that relationship.
MS. CARLSON: Okay. Great. And is there anyone
else out here in the venire who you might know from, or
seated with you now, from any other out of court
experiences?
JUROR YOUNG: There’s a few people that I know
throughout the group that I’ve had contact with in the
past, from a professional perspective.
MS. CARLSON: In light of that, is there anyone here
who supervises you?

122a
JUROR YOUNG: No.
MS. CARLSON: Is there anyone who you supervise?
JUROR YOUNG: No.
MS. CARLSON: Is there anyone here, as a
prospective juror, who you’d feel you had to agree with
just because you already know them?
JUROR YOUNG: No.
MS. CARLSON: Would you feel you had to disagree
with them just because you already know them?
JUROR YOUNG: No.
MS. CARLSON: Your Honor, may I have one
moment?
THE COURT: Yes.
MS. CARLSON: Thank you, your Honor. We would
accept this juror.
THE COURT: Mr. Cross.
MR. CROSS: Judge, we also accept that juror.
****
MADAM
Rossman.

CLERK:

Juror

number

24,

Ralph

MR. CROSS: Judge, I’m sorry, the last name again?

123a
THE COURT: Rossman. R-o-s-s-m-a-n.
MR. CROSS: Thank you, Judge.
THE COURT: Mr. Rossman, have you heard
anything about this case?
JUROR ROSSMAN: No.
THE COURT: Do you know anyone who’s seated at
counsel table?
JUROR ROSSMAN: No.
THE COURT: Do you know anyone in the State’s
Attorney’s Office?
JUROR ROSSMAN: No.
THE COURT: And did you recognize any of those
names that I read?
JUROR ROSSMAN: No.
THE COURT: How many times do you think you’ve
been called for jury duty?
JUROR ROSSMAN: This may be seven. Six or
seven. I don’t know.
THE COURT: And during -- in all of the prior times
you were called for jury duty, did you sit on some trials?
JUROR ROSSMAN: Oh, yeah.

124a
THE COURT: Besides your jury service coming too
frequently, is there anything about your jury experience
that’s going to make it difficult for you to be fair and
impartial in this case?
JUROR ROSSMAN: I -- I really can’t answer that. I
don’t know for sure. There were a number different
cases that I was on.
THE COURT: Were any of them murder cases?
JUROR ROSSMAN: No.
THE COURT: So it may very well be that during the
course of the trial, if you’re selected as a juror,
something might come up that you recall an issue in one
your other trials, you’ll be able to base your decision only
by what you see and hear in this courtroom. Is that
correct.
JUROR ROSSMAN: I would think so (shakes head
in the affirmative).
THE COURT: Do you have any family members or
close friends that are police officers?
JUROR ROSSMAN: No.
THE COURT: What about family members or close
friends that are attorneys?
JUROR ROSSMAN: I don’t believe so (shakes head
in the negative).

125a
THE COURT: You’ve indicated you or a close family
member had been convicted of an offense. Did that have
anything to do with what we’re dealing with here,
something like murder or a crime of violence?
JUROR ROSSMAN: No.
THE COURT: You’ve also indicated that you or a
close family member has been the victim of a crime.
Again, anything like what we’re dealing with here?
JUROR ROSSMAN: I don’t think so.
THE COURT: Again, anything about those two
situations that would make it difficult for you to be fair
and impartial in this case?
JUROR ROSSMAN: No.
THE COURT: As you sit there now, can you think of
any reason why you could not be fair and impartial?
JUROR ROSSMAN: No.
THE COURT: Thank you. Ms. Hockman, have you
heard anything about this case?
MS. HOCKMAN: No, sir.
THE COURT: Do you know anyone seated at
counsel table?
MS. HOCKMAN: No, sir.

126a
THE. COURT: Do you know anyone in the State’s
Attorney’s Office?
MS. HOCKMAN: No, sir.
THE COURT: Did you recognize any of the names
that I read?
MS. HOCKMAN: No.
THE COURT: Have you had jury service in the
past?
MS. HOCKMAN: No.
THE COURT: Do you have any family members or
close friends that are police officers?
MS. HOCKMAN: Yes.
THE COURT: And where do they work?
MS. HOCKMAN: Mahomet.
THE COURT: Are you employed by the Village of
Mahomet?
MS. HOCKMAN: I am. As a consultant.
THE COURT: And as such, you have an occasion to
work with some of the -- do you have occasion to work
with the Police Department in Mahomet?
MS. HOCKMAN: No.
THE COURT: But you know some of the officers?

127a
MS. HOCKMAN: Only one.
THE COURT: Is there anything about that fact
that’s going to make it difficult for you to be fair and
impartial in this case?
MS. HOCKMAN: I don’t believe.
THE COURT: Do you have any family members or
close friends that are attorneys?
MS. HOCKMAN: Yes. My step-brother.
THE COURT: And where does he practice?
JUROR BROWN: Louisiana.
THE COURT: And anything about that relationship
that will make it difficult for you to be fair and impartial?
MS. HOCKMAN: No, sir.
THE COURT: You’ve indicated that you or a close
family member has been the victim a crime. Did that
have anything do with what we’re dealing with here,
murder, or a crime of violence?
MS. HOCKMAN: No, sir.
THE COURT: Is there anything about that situation
that would make it difficult for you to be fair and
impartial?
MS. HOCKMAN: About this case?
THE COURT: Right.

128a
MS. HOCKMAN: Can you ask me the question again.
THE COURT: All right. The box says, have you or a
close family member been the victim of a crime. You
checked yes.
MS. HOCKMAN: Yes. It was me.
THE COURT: Is there anything about the fact that
you’ve been the victim of an offense that would make it
difficult for you to be fair and impartial in this case?
MS. HOCKMAN: Not in this case.
THE COURT: Can you think of any reason why you
could not be fair and impartial?
MS. HOCKMAN: Yes.
THE COURT: And is that because of the nature of
the offense?
MS. HOCKMAN: Yes, sir.
THE COURT: You think it would be difficult to sit
on a trial such as this and render a verdict to the best of
your ability that’s fair and impartial?
MS. HOCKMAN: I do.
THE COURT: All right. I’m going to excuse you
from this trial, ma’am, and that will excuse you for the
term. Thank you. All right. The next juror called will
take the seat that was occupied by Ms. Hockman.

129a
MADAM CLERK: Juror number 69, Kristine
Young.
THE COURT: Ms. Young, have you heard anything
about this case?
JUROR YOUNG: No.
THE COURT: Do you know anyone who’s seated at
counsel table?
JUROR YOUNG: No.
THE COURT: Do you know anyone in the State’s
Attorney’s Office?
JUROR YOUNG: No.
THE COURT: And did you recognize any of those
names that I read?
JUROR YOUNG: No.
THE COURT: Have you had jury service in the
past?
JUROR YOUNG: Yes.
THE COURT: About how long ago?
JUROR YOUNG: Three years ago.
THE COURT: And was that here in this county?
JUROR YOUNG: Yes.

130a
THE COURT: Did you sit on any trials?
JUROR YOUNG: No.
THE ‘COURT: Do you have any family members or
close friends that are police officers?
JUROR YOUNG: No.
THE COURT: What about family members or close
friends that are attorneys?
JUROR YOUNG: No.
THE COURT: As you sit there now, can you think of
any reason why you could not be fair and impartial?
JUROR YOUNG: No.
THE COURT: Thank you. Mr. Craig, have you heard
anything about this case?
JUROR CRAIG: No.
THE COURT: Do you know anyone seated at
counsel table?
JUROR CRAIG: No, I don’t.
THE COURT: Do you know anyone in the State’s
Attorney’s Office?
JUROR CRAIG: No, I don’t.
THE COURT: Did you recognize any of the names
that I read?

131a
JUROR CRAIG: Yes, I did.
THE COURT: And which names were those?
JUROR CRAIG: I believe Brandon Thomas and Rob
Morris.
THE COURT: And how is that you know those
officers?
JUROR CRAIG: Brandon I and served on a
Volunteer Fire Department together several years ago.
And Rob Morris, I just -- I work in the construction
industry. I just know him when he used to build houses.
I don’t know him. I knew of him.
THE COURT: And that was in his construction
business not in his police business?
JUROR CRAIG: Right.
THE COURT: Anything about the fact that you
know these two police officers that’s going to make it
difficult for you to be fair and impartial in this case?
JUROR CRAIG: No.
THE COURT: If they come into court to testify, will
you be able to judge their testimony only by what you
see and hear in this courtroom?
JUROR CRAIG: Yes.
THE COURT: Do you know anyone in the State’s
Attorney’s Office?

132a
JUROR CRAIG: No, I don’t.
THE COURT: Do you have any family members or
close friends that are police officers?
JUROR CRAIG: I don’t -- I wouldn’t call them close
friends. I just -- I know some police officers.
THE COURT: Again, there’s nothing about that
relationship that puts one side to an advantage over the
over side?
JUROR CRAIG: No, sir.
THE COURT: What about family members or close
friends that are attorneys?
JUROR CRAIG: No.
THE COURT: As you sit there now, can you think
any reason why you could not be fair and impartial?
JUROR CRAIG: No.
THE COURT: Thank you. Mr. Brown, have you
heard anything about this case?
JUROR BROWN: I may have read about it or heard
about it, but I don’t have any recollection of it.
THE COURT: Do you know anyone who’s seated at
counsel table?
JUROR BROWN: No.

133a
THE COURT: Do you know anyone in the State’s
Attorney’s Office?
JUROR BROWN: No.
THE COURT: And did you recognize any of those
names that I read?
JUROR BROWN: No.
THE COURT: Have you had jury service in the
past?
JUROR BROWN: No, sir.
THE COURT: Do you have any family members or
close friends that are police officers?
JUROR BROWN: No.
THE COURT: What about family members or close
friends that are attorneys?
JUROR BROWN: I have a sister-in-law who is an
attorney in San Francisco. And a cousin who is an
attorney and a Circuit Court Judge in Washanau (sic)
County, Michigan.
THE COURT; The attorney from San Francisco,
does she do prosecution work?
JUROR BROWN: No.
THE COURT: Anything about the fact that you
know some people involved in the practice of law, that

134a
would make it difficult for you to be fair and impartial in
this case?
JUROR BROWN: No.
THE COURT: As you sit there now, can you think of
any reason why you could not be fair and impartial?
JUROR BROWN: No, sir.
THE COURT: Okay. Now, I’m going to ask these
questions of the four of you and you can answer at the
same time, if you wish. Do any of you have opinions
about bars, taverns, nightclubs or establishments that
sell alcohol that are so positive or so negative that you
could not be a fair and impartial juror in a case that takes
place at such an establishment? Is that going to be a
problem for any of you?
FOUR JURORS: (Indicating in the negative).
THE COURT: They answer no. Do you have any
opinions about people who attend establishments that
sell alcohol that are so positive or so negative that you
could not be a fair and impartial juror if a witness was
such an attendee? Any problem with that?
FOUR JURORS: (Indicating in the negative).
THE COURT: Again, the answers are no. Do any of
you have any strong opinions about alcohol
consumption?
FOUR JURORS: (Indicating in the negative).

135a
THE COURT: And again, the answers are no. Have
you, or any member your immediate family, had a
negative experience with a law enforcement official that
would cause you to be biased when evaluating the
testimony of a witness who is so employed?
FOUR JURORS: (Indicating in the negative).
THE COURT: And the answer is no. And will you
follow the instructions that you get at the conclusion of
the case, even if it turns out the law is different than
what you thought it would be? Will you follow the
instructions?
FOUR JURORS: (Indicating in the affirmative).
THE COURT: And the answer is yes. The offenses
that the -- one of the offenses charged in this case is
murder. Do you feel that the nature of the offense, being
murder, would make it difficult for you to render a fair
and impartial verdict in this case?
FOUR JURORS: (Indicating in the negative).
THE COURT: The answer is no. The Defendant is
charged with two different charges, in multiple counts.
Does the mere fact that he’s facing multiple allegations
lead you to believe that he’s probably guilty of some or
all the charges?
FOUR JURORS: (Indicating in the negative).
THE COURT: Again, the answer is no. The offense
is alleged to have occurred at the American Legion post
on Hickory Street. Are you familiar with that location?

136a
FOUR JURORS: (Indicating in the negative).
THE COURT: Again, the answer is no. And again, as
I’ve said over and over again, the Defendant is not
required to offer any evidence on his own behalf. But if
the Defendant decides to call witnesses or present
evidence, in his behalf, will you weigh this evidence just
as you would the evidence presented by the State?
FOUR JURORS: (Indicating in the affirmative).
THE COURT: The answer is yes. Do you believe
that because the Defendant is charged with a crime and
is on trial, that he must be guilty?
FOUR JURORS: (Indicating in the negative).
THE COURT: The answer is no. Ms. Carlson.
MS. CARLSON: Thank you, your Honor. Good
afternoon. Ms. Young, you’re the Vice President of
academic services and that’s for Parkland.
JUROR YOUNG: Yes.
MS. CARLSON: Okay. How long have you been
there?
JUROR YOUNG: Eleven and a half years.
MS. CARLSON: Does any part of your work have
any direct interaction with the Parkland Police
Department?

137a
JUROR YOUNG: Occasionally (shakes head in the
affirmative). Yes.
MS. CARLSON: Is there anything about having that
direct contact that’ll make it difficult for you to be fair
and impartial in listening to police testimony?
JUROR YOUNG: No.
MS. CARLSON: Okay. Obviously, Parkland does
have a lot of employees. Is there already seated on this
jury, or seated with you now, who you know from outside
of being a juror?
JUROR YOUNG: Yes.
MS. CARLSON: Okay. Is it someone you work with?
JUROR YOUNG: No.
MS. CARLSON: Is it a social friend?
JUROR YOUNG: No. People I’m -- social, sure, yes,
but not close social.
MS. CARLSON: Okay. Are these people that you
feel that you could serve as an impartial juror with?
JUROR YOUNG: Yes.
MS. CARLSON: Would you feel you necessarily had
to agree or disagree with them just because you already
know them?
JUROR YOUNG: No.

138a
MS. CARLSON: Is there anything about your
relationship with those jurors that would make you feel
as though you had to do what they said?
JUROR YOUNG: No.
MS. CARLSON: Is there anything about the
relationship that you have with them that you think
might make them feel they had to do what you said?
JUROR YOUNG: No.
MS. CARLSON: So you think you would be able to
discuss things freely and openly?
JUROR YOUNG: Yes.
MS. CARLSON: And you had service about three
years ago, you say?
JUROR YOUNG: Um, hm (yes).
MS. CARLSON: Do you remember if that was a
criminal case?
JUROR YOUNG: I was -- I made it to that part of
the room but never up here.
MS. CARLSON: Okay. So you made selection but
you didn’t make it on to -- as far as you’ve gotten to this
point?
JUROR YOUNG: Correct.

139a
MS. CARLSON: And you’ve never served on a jury
that deliberated?
JUROR YOUNG: Correct.
MS. CARLSON: Okay. Thank you very much. And
good afternoon, Mr. Rossman.
JUROR ROSSMAN: Good afternoon.
MS. CARLSON: You’ve certainly put in some time
in jury service.
JUROR ROSSMAN: Yes.
MS. CARLSON: Over the past six or seven times
that you’ve served, were you ever the foreperson of your
jury?
JUROR ROSSMAN: Was I ever what?
MS. CARLSON: Were you ever the foreman of your
jury?
JUROR ROSSMAN: I can’t remember being
foreman.
MS. CARLSON: Okay. Were your jury’s all able to
reach verdicts?
JUROR ROSSMAN: Where they what?
MS. CARLSON: Were the jury’s you sat on able to
reach a decision?

140a
JUROR ROSSMAN: Most of them (shakes head in
the affirmative).
MS. CARLSON: Okay. Of the ones that didn’t reach
a decision, were any of those criminal cases?
JUROR ROSSMAN: I don’t think so.
MS. CARLSON: Okay. After so many years of jury
service, have you formed any opinions about the criminal
justice system that would make it difficult for you to be
fair and impartial as a juror yet again?
JUROR ROSSMAN: No.
MS. CARLSON: Is there anybody already selected
for this jury or seated with you now, who you know?
JUROR ROSSMAN: No.
MS. CARLSON: Is there anything out here in the
venire that you know?
JUROR ROSSMAN: I’ve got a neighbor that’s in
jury selection.
MS. CARLSON: If you were -- found, yourself to be
serving on jury duty with your neighbor, would you be
able to have a free and healthy discussion of the issues
with the case with your neighbor?
JUROR ROSSMAN: No.
MS. CARLSON: You wouldn’t be able to talk with
them?

141a
JUROR ROSSMAN: My neighbor?
MS. CARLSON: Right.
JUROR ROSSMAN: About the -- the trial?
MS. CARLSON: Well, let me ask it a different way.
If you were both jurors, would you feel that you had -JUROR ROSSMAN: Oh, I understand. Yes. Yeah.
MS. CARLSON: Okay. So you’d be able to serve with
this person?
JUROR ROSSMAN: Yeah.
MS. CARLSON: And you wouldn’t worry about
somebody cutting your flowers at home or anything?
JUROR ROSSMAN: No.
MS. CARLSON: Okay. And what department are
you retired from at the University?
JUROR ROSSMAN: The University of Operation
Maintenance Division.
MS. CARLSON: And are you employed in another
capacity now or just enjoying your retirement?
JUROR ROSSMAN: No. I’m retired.
MS. CARLSON: Okay. Thank you very much. And
Mr. Craig.

142a
JUROR BROWN : Hi.
[1]

MS CARLSON: Hi. Now, you’re in the construction
industry?
JUROR BROWN: Yeah. I have a -- I’m a fencing and
landscape contractor. I have may own company.
MS. CARLSON: Okay. In that capacity, is there
anything that you can think of about the work that you
do, that you feel has brought you into greater contact
with law enforcement than the average citizen?
JUROR BROWN: Not yet.
MS. CARLSON: Okay. Is there anybody already
seated on the juror with you right now, who you know
from outside of your experience as being a juror?
JUROR BROWN: Not anymore. She just left.
MS. CARLSON: Okay. I think that takes you off the
hot seat, Mr. Craig. Thank you. And Mr. Brown, good
afternoon.
JUROR BROWN: Hello.
MS. CARLSON: Hi. You’re with the -- you’re a
geologist?

[1

Petitioner note: So in original. From context, the first four Juror
Brown entries appear to have been with Juror Craig, not
Juror Brown.]

143a
JUROR BROWN: I am.
MS. CARLSON: And you’re in a position where your
agency contracts with the University?
JUROR BROWN: Yes.
MS. CARLSON: Okay. Does that make you a
University employee directly?
JUROR BROWN: I am a University employee.
MS. CARLSON: Okay. Now, you’ve had a chance to
hear from another couple of jurors who are also
employed by the University of Illinois. Do you know any
of them?
JUROR BROWN: I do not.
MS. CARLSON: Do you know anyone that’s already
been selected for the jury or seated with you now?
JUROR BROWN: I do not.
MS. CARLSON: What about out here in the venire?
JUROR BROWN: I do not.
MS. CARLSON: Okay. When -- let’s see, I had
another question for you and I lost it. As a geologist, can
you tell me a little bit about your academic background.
JUROR BROWN: Yes. I have a -- a masters of
geology from the University of Wisconsin. I worked for
Indiana University for sixteen years, Indiana geological

144a
survey. Now I’m the head of a section of about eleven
scientific and technical staff at the Illinois State
Geological Survey, which is a part of the Institute of
Natural Resource Sustainability at the University.
MS. CARLSON: Have you -- have you ever been in
the position of having to testify about your area of
expertise?
JUROR BROWN: No, I have not.
MS. CARLSON: Does anyone in your department
ever do that?
JUROR BROWN: Yes, they do.
MS. CARLSON: And do you supervise any of those
people?
JUROR BROWN: I am a supervisor. I don’t recall
any of the people that I supervise, which I’ve been in this
business for three and a half years, I don’t recall that any
of them have ever testified.
MS. CARLSON: Okay. If you were to hear testimony
from expert witnesses in this case in areas such as
forensic pathology, or fingerprint evidence, would you
be able to listen to that evidence with a clear, open mind,
not keeping in mind what some your colleagues do?
JUROR BROWN: Yes.
MS. CARLSON: Okay. Your Honor, may I have a
moment?

145a
THE COURT: Yes.
MS. CARLSON: Your Honor, with our thanks, the
People would excuse Mr. Rossman.
THE COURT: All right. Mr. Rossman, I’m going to
excuse you from this trial and that also excuses you for
the term. Thank you, sir. I’d ask the next juror called to
take the seat next to Ms. Young.
MADAM CLERK: Juror number 18, Derrick Peters.
****

146a

PEOPLE of the STATE
OF ILLINOIS,
v.
CHARMELL D.
BROWN,
Defendant.

)
)
)
)
)
)
)
)
)

NO. 2008-CF-32

REPORT OF PROCEEDINGS had in the aboveentitled cause on the 9TH DAY OF DECEMBER, 2009,
before the HONORABLE THOMAS J. DIFANIS,
Circuit Judge.
****
MR. CROSS: Now, the evidence will also show that
the person that can be identified as doing the shooting
does not match the physical description of Mr. Charmell
Brown. Besides there being a different vehicle that the
shooter was seen leaving in. From what you’ll hear from
the prosecution witness, Tegan Milam, this individual
that was seen doing the shooting does not resemble Mr.
Brown in some very characteristic ways. There are no
African Americans on the jury, but African American

147a
people identify readily with skin color. I’m fifty-five
years old. Since the time I was a little boy, there was
always talk about light skinned blacks, cocoa, caramel
color …, and dark skinned blacks. May not mean much if
you’re not an African American, but this is one of the
ways that African American people use to identify other
African Americans. The person that was seen in the
white t-shirt, that fired the four shots from the gun and
that left the scene in the white vehicle, does not match
the complexion of Charmell Brown.
Now, there’s going to be instructions from Judge
Difanis involving identification. Judge Difanis will likely
instruct you that the law that applies regarding
circumstances of identification, has included in it a list of
at least five items which you should consider when you
make a decision as to whether or not identification has
been made to your satisfaction.
You’ll also get an instruction that you and only you,
are the judges of the facts in this case. The identification
evidence and the instruction that you get will be
important. One of the things that Defense witness will
establish in this case, is that the only eye witness to this
shooting that the prosecution can call or will call, is
Tegan Milam. …
****

148a

THE PEOPLE OF
THE STATE OF
ILLINOIS,
Plaintiff,
VS.
CHARMELL BROWN,
Defendant.

)
)
)
) No. 2008 CF 32
)
) Post-Trial Motion
)
)
)
)
)

BE IT REMEMBERED AND CERTIFIED, that
on, to-wit: The 8th day of February, 2010, the following
proceedings were had in the aforesaid cause before the
Honorable THOMAS J. DIFANIS, Judge Presiding.
****
MR. CROSS: Judge, we argue the issue of the
African-American prospective juror, Devon Ware, there
is a request to have the State present some justification
for exercising a peremptory challenge against Mr. Ware,
who was a young African-American male, where the
defendant on trial was a young African-American male,
and the entire panel of jurors, which consisted of about

149a
60 jurors, included only one other young AfricanAmerican male, or one other African-American, period.
We cite the case of People vs. Andrews, which is a 1992
Illinois Supreme Court case at 146 Ill. 2d 413. I believe
426 talks about where there is no heterogeneous issues,
victims of the shooting and the witnesses were … all
African-Americans, it -- for the State to exercise their
challenge against Mr. Ware, without asking Mr. Ware a
single question, we feel that that was an intentional,
raced based exclusion of Mr. Ware. Your Honor will
recall that when general questions were asked of Mr.
Ware, he indicated he was only familiar with the
American Legion facility. He had never been on the
inside of it. He had been by it, or the outside of it one
time. There was no indication or nothing that was state
by Mr. Ware that indicated that his experience in being
outside of the Legion on an occasion, we don’t even know
how many occasions, or it was just the one. But there
was no indication from him that that experience on being
on the outside of the Legion would affect his ability to sit
in this case as a juror, listen to the facts and the evidence,
and to do his duty under oath as a juror.
There was, as we say, there was absolutely no
questions from the State. Your Honor ruled that we had
not made out a prima facie case of discrimination. Mr.
Ware did come early on in terms of being a prospective
juror during the voir dire. However, Judge, we pointed
out that there were only two other African-American
males. That no other person that we were aware of that
had been questioned prior to Mr. Ware had indicated in
any way any differently than Mr. Ware about being able
to listen to the evidence in this case, nor that a person

150a
that was selected or was not objected to by the State had
indicated in any way that they were not able to listen to
the evidence and give a verdict based upon the facts and
the evidence that was presented.
****
THE COURT: The voir dire questions, the court
asked counsel to submit questions, the court asked
several of the questions that were submitted by both
counsel. The court again allowed counsel to supplement
the voir dire with voir dire of their own. ...
Another issue was basically a Batson challenge. We
had an African-American juror who, unlike every other
juror that was questioned, not only knew where the
Legion was, but had been there. Now I’m not sure he had
been inside, but had spent time either in the parking lot,
which seemed a bit odd, but all of the other -- all of the
other jurors either didn’t know where the Legion was,
or at least knew where it was and that was their only
connection to the Legion. I don’t believe that a prima
facie case was made concerning discrimination, and that
is why the court denied the Batson challenge.
****

